                                                                                                         sigar
SIGAR
Special Inspector General                                                                                                       Special Inspector General for   apr 30




                                 SIGAR | Quarterly Report to the United States Congress | apr 30, 2011
for Afghanistan Reconstruction
                                                                                                                                Afghanistan Reconstruction       2011
400 Army Navy Drive
Arlington, VA 22202-4704




                                 2                                                                       Quarterly Report to the United States Congress
Cover Captions (clockwise from left):
U.S. Marine combat engineers use heavy equip-
ment to rebuild a bridge that was destroyed after
a local dispute over water rights. The new Trakh
Nawa bridge will facilitate transportation for local
Afghans and military units operating in the area.
(USMC photo, CPL Daniel H. Woodall)

An 11-year-old Afghan student reads a comic
book about the rule of law at Abu Herera School in
Paktika province on March 27, 2011. The school
has operated continuously since 2002, even
though the building has been vandalized and
teachers have been threatened. The Paktika PRT
has been mentoring school officials in sustaining
their education infrastructure. (USAF photo, SrA
Ashley N. Avecilla, Paktika PRT Public Affairs)

An Afghan farmer demonstrates a new two-
wheel tractor at a ceremony in Kabul on February
8, 2011. Fifty tractors were sold to farmers of
mid-sized Afghan farms at a subsidized cost to
help farmers plant and harvest multiple crops per
year. The U.S.-funded program was designed to
get 6,000 tractors into the hands of farmers in
18 provinces. (US Air National Guard photo,
SSgt Jordan Jones)

Afghan soldiers and police officers welcome
a new commander at Regional Command-West
in Herat on April 4, 2011. The Afghan National
Security Forces and the Italian-led command are
working as partners to secure and develop
western Afghanistan. (U.S. Army photo,
SSG Brandon Pomrenke)

                                                       More than 3,500 Afghans gather to celebrate the Persian New Year at the Shah Maqsud Shrine
                                                       in Kandahar province on March 21, 2011. The celebrations included a concert from Kandahar
                                                           musicians, a play by local actors, and public addresses by provincial leaders, including
                                                                    the governor of Kandahar. (U.S. Army photo, SGT Benjamin Watson)
SIGAR                                      Special Inspector General for
                                           Afghanistan Reconstruction
                                                                                     APR 30
                                                                                      2011




The National Defense Authorization Act for FY 2008 (P.L. 110-181)
established the Special Inspector General for Afghanistan
Reconstruction (SIGAR).

SIGAR’s oversight mission, as defined by the legislation, is to provide for the indepen-
dent and objective
• conduct and supervision of audits and investigations relating to the programs and
   operations funded with amounts appropriated or otherwise made available for the
   reconstruction of Afghanistan.
• leadership and coordination of, and recommendations on, policies designed to pro-
   mote economy, efficiency, and effectiveness in the administration of the programs
   and operations, and to prevent and detect waste, fraud, and abuse in such programs
   and operations.
• means of keeping the Secretary of State and the Secretary of Defense fully and
   currently informed about problems and deficiencies relating to the administration of
   such programs and operation and the necessity for and progress on corrective action.
Afghanistan reconstruction includes any major contract, grant, agreement, or other
funding mechanism entered into by any department or agency of the U.S. government
that involves the use of amounts appropriated or otherwise made available for the
reconstruction of Afghanistan.

Source: P.L. 110-181, “National Defense Authorization Act for FY 2008,” 1/28/2008.
SIGAR RESULTS TO DATE
AUDITS
•   39 completed audit reports, including more than 100 recommendations
•   72 audit recommendations made in FY 2009 and 2010; 35 closed, based on actions taken by U.S. agencies
•   40 audit recommendations made in FY 2011
•   3 forensic audits underway to analyze more than $39 billion of reconstruction contract data; completed
    preliminary audit of $7.4 billion in USAID disbursements covering 73,272 transactions and 1,211 vendors

INVESTIGATIONS
•   $1.7 million in savings and more than $33.5 million in fines, penalties, and recoveries in FY 2011
•   76 ongoing investigations
•   570 Hotline complaints received and addressed
•   5 companies and 26 individuals recommended for suspension or debarment




                                               JOWZJAN                      KUNDUZ              BADAKHSHAN
                                                             BALKH                    TAKHAR


                                                               SAMANGAN
                                   FARYAB                                     BAGHLAN
                                               SAR-E PUL                          PANJSHIR
                         BADGHIS                                                       NURISTAN
                                                                       PARWAN   KAPISA      KUNAR
                                                             BAMYAN                 LAGHMAN
                                                                             KABUL
            HERAT                                                   WARDAK
                                                                                      NANGARHAR
                                   GHOR                                    LOGAR
                                                DAYKUNDI
                                                                                      PAKTIYA
                                                                   GHAZNI                 KHOWST

                                             URUZGAN
              FARAH
                                                                            PAKTIKA
                                                           ZABUL




             NIMROZ                                                                                    Current SIGAR offices
                        HELMAND
                                          KANDAHAR                                                     Provinces where SIGAR has conducted
                                                                                                       audit and investigation work
                                            SPECIAL INSPECTOR GENERAL            FOR

                                           AFGHANISTAN RECONSTRUCTION


April 30, 2011

   I am pleased to submit SIGAR’s quarterly report to the Congress on the U.S. reconstruction effort in Afghanistan.
This report documents SIGAR’s oversight activities and provides an update on the status of reconstruction programs since
our January 30, 2011 report.
   The Congress has provided more than $69 billion to rebuild Afghanistan since 2002. The President has asked the
Congress for an additional $17.3 billion for FY 2012. These funds are supporting the U.S. reconstruction strategy to
transition responsibility for security to the Afghan government by 2014. This costly, complex endeavor includes developing
capable Afghan security forces, building good governance, and laying a foundation for long-term economic growth. To
ensure that we provide effective, timely oversight of these funds, SIGAR has adopted an aggressive and multifaceted
approach to both audits and investigations.
   We have adjusted our audit plan to include a mix of contract and program audits to identify waste, fraud, and abuse
and to determine if programs are achieving their objectives. We have enhanced our efforts in forensic audit work and
refocused selected resources to address major contract reviews to achieve quantifiable results and savings for the U.S.
taxpayer. Our auditors are also focused on issues, such as corruption and the role of private security contractors, that are
of particular concern to the Congress.
   This quarter, SIGAR issued three audit reports and started four new audits. The published audits address two critical
reconstruction objectives: developing Afghan governing capacity through direct assistance and building a capable Afghan
National Army and Afghan National Police force. In the coming months, we will be issuing several audits that examine
other vital aspects of the U.S. reconstruction effort, including private security services, the cost and sustainability of the
civilian uplift, Afghanistan’s banking sector and currency controls, and development of the agriculture sector.
   SIGAR’s investigations directorate is now concentrating our resources on major contract fraud and corruption
investigations where we can provide the greatest return for the U.S. taxpayer. Our results for FY 2011, through
March 31, have resulted in $1.7 million in savings and more than $33.5 million in fines, penalties, and recoveries.
We anticipate continued success in the third quarter.
   The next three years are critical for the United States and its international allies as they implement programs to
facilitate the transition of security responsibility to the Afghan government. At SIGAR, we are committed to providing
vigorous oversight of this effort. We will follow the money, focus on returns for the taxpayer, and build cases against
individuals and entities engaged in fraud. We are also committed to assessing whether programs are achieving their
objectives and identifying opportunities for implementing agencies to improve program efficiency and effectiveness.
   I look forward to working with the Congress to ensure that U.S reconstruction funds achieve their intended purposes
and are spent honestly and wisely.


  Very respectfully,




  Herbert Richardson
  Acting Special Inspector General for Afghanistan Reconstruction




                                        400 ARMY NAVY DRIVE   ARLINGTON, VIRGINIA 22202
                                    EXECUTIVE SUMMARY




SIGAR ACTIVITIES, Q2 2011
SIGAR completed three audits this quarter addressing critical issues related to U.S. efforts to grow
the Afghan National Security Forces (ANSF) and to build Afghan governing capacity through direct
assistance. SIGAR announced four new audits, bringing the number of ongoing audits of reconstruc-
tion contracts and programs to 16. SIGAR is continuing work on its forensic reviews of data on
about $39.65 billion of transactions related to three funds used for Afghanistan reconstruction:
the Afghanistan Security Forces Fund, the Economic Support Fund, and the International Narcotics
Control and Law Enforcement account.

SIGAR’s investigations directorate is concentrating             The audit found that the MoI is using four systems
its resources on major contract fraud and corruption         and processes to report on ANP personnel, and one
investigations where it can provide the greatest return      system to account for the ANP payroll. International
for the U.S. taxpayer. SIGAR’s work for FY 2011 has          donors pay for most of the ANP salaries, allowances,
resulted in $1.7 million in savings and over $33.5           and benefits through an international trust fund. The
million in fines, penalties, and recoveries.                 United States, the single largest donor, has contrib-
   SIGAR has also significantly increased its collabo-       uted more than $545 million to the Law and Order
ration with the U.S. Department of Justice by hiring         Trust Fund for Afghanistan (LOTFA), which is managed
an experienced litigator and detailing this person to        by the United Nations Development Programme.
the Department to develop and prepare large cases               SIGAR recommended that the U.S. Ambassador
involving contract fraud.                                    take action to better account for ANP personnel, ANP
                                                             payroll costs, and amounts eligible for reimbursement
COMPLETED AUDITS                                             from the LOTFA. SIGAR also made recommendations
During this reporting period, SIGAR published reports        to improve MoI personnel and payroll systems.
of three audits reviewing ANP personnel systems, ANA
facilities, and Afghanistan’s National Solidarity Program.   ANA Facilities at Mazar-e Sharif and Herat
                                                             Generally Met Construction Requirements, but
Despite Improvements in MoI’s Personnel Systems,             Contractor Oversight Should Be Strengthened
Additional Actions Are Needed To Completely Verify           The U.S. reconstruction strategy in Afghanistan
ANP Payroll Costs and Workforce Strength                     depends on building the capacity of the ANSF to
SIGAR initiated this audit to determine the extent           assume responsibility for Afghanistan’s security by
to which the Government of the Islamic Republic of           2014. A key element of this effort is the construction
Afghanistan (GIRoA) has the personnel management             of facilities to house and train the ANA and the ANP.
systems and processes it needs to effectively and            This audit is one of a series of SIGAR audits examin-
efficiently support an independent and accountable           ing the costs, oversight, and outcomes of contracts to
police force. Although the Ministry of Interior (MoI) is     build facilities for the ANSF.
automating its human resource records and develop-              SIGAR found that that construction projects in
ing personnel management systems to improve ANP              Mazar-e Sharif and Herat had experienced cost
accountability, the Ministry is not yet able to deter-       increases and project delays, partly because the
mine the actual number of ANP personnel because              contracting officer had approved schedule extensions
it is not able to reconcile personnel records or verify      and $5 million in funding increases at Herat even
data contained in these personnel systems and                though the contractor had had difficulty maintaining a
databases.                                                   schedule and staying within budget. SIGAR made


                                       iv
                                   EXECUTIVE SUMMARY




recommendations to help the implementing agency            faulty construction of the Pashad truck bridge in Kunar
improve its contractor oversight.                          province. The SIGAR Hotline received 106 complaints
                                                           of potential waste, fraud, and abuse of U.S. funds for
Afghanistan’s National Solidarity Program Has              Afghanistan reconstruction, bringing the total number of
Reached Thousands of Afghan Communities, but               complaints since its inception to 570.
Faces Challenges that Could Limit Outcomes
In 2010, the United States and other international         LOOKING FORWARD
donors pledged to channel at least 50% of develop-         In February 2011, President Obama submitted his
ment assistance through Afghanistan’s national budget.     FY 2012 budget request with approximately $17.3 billion
Achieving this goal will depend on whether the GIRoA is    in assistance for Afghanistan. If approved, this would
able to manage and account for donor funds.                be the largest appropriation for the reconstruction of
   The National Solidarity Program (NSP) was estab-        Afghanistan in a single year since the United States
lished in 2003; it is Afghanistan’s primary develop-       overthrew the Taliban in 2002.
ment program receiving direct assistance. This quar-          The next three years are critical for the United
ter, SIGAR’s audit of the NSP found that while various     States and its international allies as they implement
oversight mechanisms provided reasonable assur-            programs in security, governance, and development
ance that the funds were being used as intended, the       to facilitate the transition from the International
program faces several challenges as it expands into        Assistance Security Force to the Afghan security forces.
more insecure areas. SIGAR made a number of rec-           SIGAR is implementing a multifaceted approach to
ommendations to recover funds, strengthen oversight,       conducting audits and investigations to detect and
and ensure that the NSP achieves its objectives.           deter waste, fraud, and abuse of taxpayer dollars, and
                                                           to ensure these funds are used effectively to advance
NEW AUDITS                                                 the U.S. reconstruction strategy.
Since SIGAR’s last report to the Congress, it has initi-
ated four new audits:
•  Reconstruction Security Support Services Provided
   by Hart Security Limited to Louis Berger Group
•  Review of the Implementation of the Afghan First
   Initiative in Reconstruction Contracting
•  Review of USAID’s Financial Audit Coverage of
   Costs Incurred under Contracts, Cooperative
   Agreements, and Grants for Afghanistan
   Reconstruction
•  NDAA-Mandated Oversight of Contractors and PSCs
   in Afghanistan
                                                           A SIGAR auditor meets with Afghan implementing partners for
SIGAR INVESTIGATIONS                                       USAID agricultural programs in Nangarhar this quarter during
                                                           SIGAR’s review of U.S. assistance to the agriculture sector.
Most of SIGAR’s 76 open cases focus on contract
                                                           (USDA photo, Dr. Sheauchi Cheng)
or procurement fraud and corruption. This quarter,
SIGAR’s work led to the arrest of a Korean contractor by
the Afghan Shafafiyat Investigative Unit, the proposed
debarment of 22 Afghans, and the identification of




                                                                             v
TABLE OF CONTENTS




     SECTION 1
     SIGAR OVERSIGHT
      3   Audits
     20   Investigations
     22   SIGAR Hotline and Complaints Management System
     22   SIGAR Budget
     23   SIGAR Staff




     SECTION 2
     AFGHANISTAN OVERVIEW
     27   Congress Appropriates FY 2011 Budget
     28   Congress Cuts the ESF and Imposes Conditions
          on Direct Assistance to Afghanistan
     29   SIGAR Assesses Direct Assistance Programs
          for Afghanistan
     30   Congress Puts Additional Restrictions
          on the Use of ESF and INCLE Funds
     31   Beginning the Transition: Inteqal
     33   Looking Forward




     SECTION 3
     RECONSTRUCTION UPDATE
     37   Overview
     41   Status of Funds
     53   Security
     73   Governance
     99   Economic and Social Development
TABLE OF CONTENTS




   SECTION 4
   OTHER AGENCY OVERSIGHT
   113   Completed Oversight Activities
   122   Ongoing Oversight Activities
   133   Other Agency Investigations
   133   Other Agency Inspections




   APPENDICES & ENDNOTES
   136 Appendix A: Cross-Reference of Report
                   to Statutory Requirements
   142 Appendix B: U.S. Government Appropriated Funds
   144 Appendix C: SIGAR Audits
   146 Appendix D: SIGAR Investigations and Hotline
   147 Appendix E: Abbreviations and Acronyms
   150 Endnotes
                Auditing Infrastructure Projects
                SIGAR auditors review the progress of the third phase of con-
                struction at the Kabul Military Training Center on March 13,
                2011. SIGAR is conducting an audit of the management of
                infrastructure projects at the Training Center. (SIGAR photo,
                Warren Anthony)




viii   SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
1   SIGAR
    OVERSIGHT




        1
           SIGAR OVERSIGHT




     “Examining billions of dollars of
    taxpayers’ money being spent on
 foreign soil is a complex and difficult
   assignment. SIGAR recognizes the
   critical nature of this mission and
    is deploying the skilled resources
      necessary to follow the money,
generate greater return for taxpayers,
 build investigative cases, and ensure
  that U.S. objectives are being met.”

                         —Herbert Richardson,
               Acting Special Inspector General
                for Afghanistan Reconstruction



           Source: SIGAR, Testimony Before the Commission on Wartime Contracting, 4/25/2011.




                2                        SPECIAL INSPECTOR GENERAL               I   AFGHANISTAN RECONSTRUCTION
                                           SIGAR OVERSIGHT




                                                                                      COMPLETED AUDITS
                                                                                      •   Audit 11-8: National Solidarity Program
                                                                                          (Governance & Economic Development)
                                                                                      •   Audit 11-9: ANA Facilities at Mazar-e
                                                                                          Sharif and Herat (Security/ANSF
SIGAR OVERSIGHT                                                                       •
                                                                                          Construction Contract)
                                                                                          Audit 11-10: MoI and ANP Payroll
                                                                                          (Security/Afghan National Police)
The U.S. Congress established SIGAR to provide independent and objective
                                                                                      NEW AUDITS
oversight of U.S. funds appropriated or otherwise made available for the recon-       •   Afghan First Initiative
struction of Afghanistan. In accordance with its mandate, SIGAR conducts audits
                                                                                      •   USAID’s Financial Audit Coverage
and investigations to (1) promote economy, efficiency, and effectiveness in the           of Incurred Costs
administration of programs and operations using reconstruction funds, and             •   NDAA-Mandated Oversight of
(2) prevent and detect waste, fraud, and abuse in these programs and operations.          Contractors and PSCs
   SIGAR highlights this quarter include the following:                               •   Private Security Services Contract
• published three audit reports
• announced four new audits
                                                                                      ONGOING AUDITS
• continued work on 12 ongoing audits                                                 Contract
• continued forensic reviews of $39 billion for three of the major reconstruc-
                                                                                      • USAID’s Agreement with CARE for
                                                                                        Community Development Program
   tion funds
                                                                                      • USAID Contracts for Local Governance
• opened 16 new investigations and closed 45 cases                                      and Community Development Projects
• processed 106 SIGAR Hotline complaints, resulting in 30 investigative actions       • Infrastructure Projects at Kabul Military
• reached agreement with the World Bank to coordinate efforts to detect, sub-           Training Center
   stantiate, and prevent fraud and corruption related to reconstruction funds        • Construction at the Afghan National
                                                                                        Security University
AUDITS                                                                                • PSC Services from Global Strategies
                                                                                        Group, Inc.
The three audits SIGAR completed this quarter addressed critical issues related
to U.S. efforts to build Afghan governing capacity through direct assistance and to   Reconstruction Programs and Operations
grow the Afghan National Security Forces (ANSF). SIGAR also initiated four new        • ANSF Vehicle Accountability
audits of contracts and programs, as well as a review of contractor oversight man-    • Major Crimes Task Force Capabilities
dated by the FY 2011 National Defense Authorization Act (NDAA, P.L. 111-383):         • Banking Sector Development
• Private Security Services Contract Provided by Hart Security Limited to             • Agriculture Sector Development
   Louis Berger Group                                                                 • Defense Base Act Insurance Program
• Implementation of the Afghan First Initiative for Contracting                         for Contractors
• USAID’s Financial Audit Coverage of Costs Incurred under Contracts,                 • U.S. Civilian Uplift Costs in Afghanistan
   Cooperative Agreements, and Grants for Afghanistan Reconstruction                  • U.S. Funds Contributed to the ARTF
• NDAA-Mandated Oversight of Contractors and PSCs in Afghanistan
                                                                                      FORENSIC AUDITS
                                                                                      •   DoD Transaction Data Related to
                                                                                          Reconstruction
                                                                                      •   USAID Transaction Data Related to
                                                                                          Reconstruction
                                                                                      •   DoS Transaction Data Related to
                                                                                          Reconstruction




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2011         3
                                                SIGAR OVERSIGHT




                                                COMPLETED AUDIT REPORTS
                                                This quarter, SIGAR issued an audit of the National Solidarity Program (NSP),
COMPLETED AUDITS                                Afghanistan’s flagship community development program, which uses direct
• Audit 11-8: Afghanistan’s National            assistance from the United States and other international donors to fund rural
    Solidarity Program Has Reached              projects and promote local governance. SIGAR also published two audit reports
    Thousands of Afghan Communities,            this quarter on the vital security sector: one assessed the personnel management
    but Faces Challenges that Could Limit
                                                systems of the Afghan National Police (ANP), and one reviewed two cost-plus-
    Outcomes
                                                fixed-fee task orders to build Afghan National Army (ANA) facilities at Mazar-e
•   Audit 11-9: ANA Facilities at Mazar-e
                                                Sharif and Herat.
    Sharif and Herat Generally Met Con-
    struction Requirements, but Contractor
    Oversight Should Be Strengthened            Audit 11-8: Governance and Economic Development
•   Audit 11-10: Despite Improvements in        Afghanistan’s National Solidarity Program Has Reached Thousands of Afghan Communities,
    MoI’s Payroll Systems, Additional Actions   but Faces Challenges that Could Limit Outcomes
    Are Needed To Completely Verify ANP         In 2010, the United States and other international donors pledged to channel at least
    Payroll Costs and Workforce Strength
                                                50% of development assistance through Afghanistan’s national budget. Achieving
                                                this goal will depend on whether the Government of the Islamic Republic of
                                                Afghanistan (GIRoA) is able to manage and account for donor funds. The NSP
                                                was established in 2003; it is Afghanistan’s primary development program
                                                receiving direct assistance. Managed by the Ministry of Rural Rehabilitation and
                                                Development, the NSP has supported projects in all 34 provinces and in 351 of
                                                the country’s 398 districts.
                                                   The NSP’s primary objectives include building local governance by helping
                                                communities elect community development councils (CDCs) and training the
                                                CDCs to manage small-scale projects funded by block grants. The NSP contracts
                                                with international and local non-governmental organizations—called facilitat-
                                                ing partners—to work in specific districts to mobilize communities to undertake
                                                development activities. Under NSP guidelines, local communities must provide
                                                at least 10% of project costs, through cash, labor, or in-kind donations.

                                                OBJECTIVES
                                                SIGAR conducted this audit because of the U.S. priority to improve GIRoA’s
                                                governing capacity by providing increased development assistance through the
                                                Afghan national budget, rather than through contracts, grants, and cooperative
                                                agreements with private companies and non-governmental organizations. The
                                                audit had four reporting objectives:
                                                • Identify the extent and use of U.S. and other donor assistance to the NSP.
                                                • Assess the level of oversight and internal controls over donor funds.
                                                • Determine whether the NSP is meeting its targets.
                                                • Highlight the key challenges facing the NSP as it begins its third phase.

                                                FINDINGS
                                                1. The United States is the largest single donor to the NSP, having provided
                                                   $528 million of the approximately $1.5 billion that the international commu-
                                                   nity contributed to the program from 2003 to 2010. Most NSP donations have




                                                   4                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                              SIGAR OVERSIGHT




     been made through the multilateral Afghanistan Reconstruction Trust Fund
     (ARTF), which is administered by the World Bank. U.S. contributions to the
     ARTF come from the Economic Support Fund (ESF) and are made through
     a grant agreement between USAID and the World Bank. The Afghan Ministry
     of Rural Rehabilitation and Development (MRRD) is implementing the NSP in
     phases. Phase three began in September 2010 and will run to September 2015.
     International funding for all three phases is expected to total about $2.7 billion.
2.   The World Bank, the GIRoA, and local communities benefitting from NSP-
     funded projects are all responsible for aspects of oversight. SIGAR found
     that the various controls currently in place provided reasonable assurance
     that NSP funds would be used as intended. However, the MRRD and the NSP
     reported one case in which a hawala dealer failed to deliver about $2.8 million
     in NSP block grants to one community in one province. The MRRD, the
     NSP, and the World Bank have taken action to address the issue, but it
     remains unresolved.
3.   The World Bank has mandated a wide range of internal control mechanisms
     to oversee and monitor the NSP, which is funded through the ARTF. As a
     condition of accepting World Bank funds, the GIRoA agreed to periodic
     reviews of the use of ARTF funds. An ARTF donors committee provides
     oversight to ensure that the GIRoA is using NSP funds for their intended pur-
     pose, and an ARTF management committee meets regularly to discuss ARTF
     issues, including problems related to the NSP. The World Bank also conducts
     supervision missions to periodically assess NSP progress in achieving devel-
     opment objectives.
4.   The grant agreement between the World Bank and the GIRoA requires the
     MRRD to monitor and evaluate the program, submit quarterly reports, and
     ensure that a financial management system produces quarterly financial
     statements that are audited annually. The financing agreement between the
     World Bank and the GIRoA requires the Afghan Control and Audit Office
     (CAO) to conduct annual audits of NSP financial statements. As reported
     in an earlier SIGAR audit, the CAO relies on international consultants and
     advisors to conduct audits in accordance with international auditing stan-
     dards. In 2003, the MRRD contracted with an international consultant to help
     manage the NSP. Since 2006, the MRRD has been shifting NSP management
     to Afghan nationals, who now fill most senior NSP positions. However, the
     Afghan employees are contractors, not civil servants, and are paid about five
     times what civil servants would be paid. Their salaries are paid entirely from
     donor contributions to the NSP. The MRRD continues to outsource the lead-
     ership of the NSP finance department to an international consulting firm.
5.   Local residents have provided oversight of NSP funds spent in their com-
     munities. Public notice boards announce NSP projects and funding amounts.
     After a project has been completed, members of some communities, with
     the assistance of facilitating partners, have formed committees to audit NSP
     projects, explain their findings to the rest of the community, and hold the
     community council members accountable for spending.



              REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2011           5
SIGAR OVERSIGHT




6. Although the NSP has reported meeting or exceeding most of its quantitative
   targets, it lacks data and reporting on one of its primary objectives—improv-
   ing local governance. Without regular measurements of improvements in this
   area, it is difficult to determine the extent to which the NSP has achieved or
   will achieve this objective. Furthermore, the future role of the elected CDCs,
   which the NSP is creating to be the local governance bodies, remains uncer-
   tain. The Afghan Constitution provides for elected village councils. Although
   the MRRD, the Afghan Ministry of Finance, and international donors support
   the conversion of the CDCs to village councils, a new GIRoA sub-national
   governance policy, developed by the Independent Directorate of Local
   Governance does not envision the conversion of CDCs into village councils.
   The 2010 sub-national governance policy calls for holding elections in 2011
   for village councils.
7. As it begins its third phase, the NSP faces a number of operational challenges.
   Some have been long-standing issues, such as ensuring timely payments of
   block grant funds to the CDCs, as well as timely payments to facilitating part-
   ners for their work. The decision to expand the NSP into more insecure areas
   presents additional implementation and oversight challenges. The NSP’s new
   “insecure areas strategy” gives the MRRD, the NSP, and facilitating partners
   more flexibility in implementing requirements, including those pertaining to
   CDC elections, women’s participation, engineering review, and block grant
   transfers. Oversight of the program in insecure areas is likely to decrease.
   SIGAR is concerned that expansion into less secure areas will limit or dilute
   the NSP’s ability to achieve intended outcomes.

RECOMMENDATIONS
As the United States looks for ways to increase direct assistance to the GIRoA, hav-
ing confidence in the NSP is particularly important. The proposed funding increase
for the third phase of the NSP provides an opportunity for the United States and
other international donors to use the NSP as a vehicle to meet these direct assis-
tance goals. Although the program has made progress in providing local governance
training and development funding to thousands of rural communities in the more
secure districts of Afghanistan, it is less certain how well the program will work
in insecure areas. SIGAR made a number of recommendations to recover funds,
strengthen oversight, and ensure that the NSP achieves its objectives.
    To help ensure that about $2.8 million of NSP funds and $84,648 in unearned
transfer fees retained by a hawala dealer in Paktika province are used for their
intended purposes, SIGAR recommended that the U.S. Ambassador take the fol-
lowing action:
 • Urge the GIRoA to continue its efforts to recover those funds from the
    hawala dealer and either reprogram the recovered funds for NSP activities or
    return the funds to the ARTF.
  To improve internal controls associated with monitoring and accounting for
donor funds and to help mitigate the potential effects of future challenges identified




   6                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                             SIGAR OVERSIGHT




in the audit, SIGAR recommended that the U.S. Ambassador to Afghanistan encour-
age the NSP, the MRRD, and the World Bank to take the following actions:
 • Strengthen the existing monitoring system within the program, and improve
    the quality of the internal monitoring reports to measure progress toward
    established performance indicators, to show improvements in local gover-
    nance and linkages over time between local communities and the GIRoA as a
    result of NSP activities.
 • Seek final determination by the GIRoA as to whether CDCs, established by
    the NSP, should become village councils.
 • Continue to improve the block grant transfer system to ensure that CDCs
    receive and have access to funds in a timely and consistent manner—particu-
    larly during the seasons in which they can implement approved projects.
 • Strengthen and streamline the system for paying facilitating partners in
    accordance with NSP contractual obligations.
 • Closely monitor and evaluate NSP activities in insecure areas to determine
    whether the greater flexibility in applying internal controls results in losses
    of NSP funds or the failure to achieve program objectives.

AGENCY COMMENTS
The U.S. Embassy generally concurred with this report’s findings. The Embassy
noted that steps have already been taken to strengthen the monitoring of the
NSP’s progress toward its governance objective, and that the GIRoA has begun
taking action to recognize CDCs as interim village councils. SIGAR welcomes
these actions and believes that, if implemented, those steps will substantially
address the report’s recommendations.
   The World Bank generally concurred with the report’s findings but noted that
there had been no delays in payments of block grants during the Afghan fiscal
year—solar year (SY) 1389 (March 2010 to March 2011). SIGAR acknowledges
that there have been improvements in the timeliness of block grant payments
and that most block grants are received in a timely manner. However, the lack
of cash in some remote branches of the country’s central bank (Da Afghanistan
Bank), particularly during the summer, has not been resolved.

Audit 11-9: Security/ANSF Construction Contract
ANA Facilities at Mazar-e Sharif and Herat Generally Met Construction Requirements, but
Contractor Oversight Should Be Strengthened
The U.S. reconstruction strategy in Afghanistan depends on building the capacity
of the ANSF to assume responsibility for Afghanistan’s security by 2014. A key
element of the effort to build the ANSF is the construction of facilities to house
and train the ANA and the ANP. This audit is one of a series of audits examining
the costs, oversight, and outcomes of contracts to build facilities for the ANSF.
SIGAR’s earlier audits of construction of ANSF facilities have identified schedule
delays and cost overruns resulting from inadequate oversight of contractors. This
audit found similar problems, including $5 million in approved funding increases
on one of the projects.



            REPORT TO THE UNITED STATES CONGRESS    I   APRIL 30, 2011           7
SIGAR OVERSIGHT




   In 2008, the Combined Security Transition Command - Afghanistan (CSTC-A)
funded two projects through the Air Force Center for Engineering and the
Environment (AFCEE) to support construction of additional ANA facilities at
Camp Shaheen outside Mazar-e Sharif in Balkh province and at Camp Zafar out-
side Herat in Herat province. AFCEE awarded two cost-plus-fixed-fee task orders
for $42.3 million to CH2M Hill Constructors, Inc. (CH2M Hill) and awarded one
to AMEC Earth and Environment, Inc (AMEC).

OBJECTIVES
This audit report had three reporting objectives:
• Examine modifications to the task orders awarded to CH2M Hill and AMEC
   and assess the nature and adequacy of project oversight by AFCEE.
• Determine whether construction at Mazar-e Sharif and Herat met the terms
   of the task orders.
• Evaluate efforts to ensure the sustainability of the facilities.

FINDINGS
1. The projects at Mazar-e Sharif and Herat experienced cost increases and
   project delays. At Mazar-e Sharif, project costs increased from $17 million
   to $23.2 million. As of February 2011, the project was 20 months behind
   schedule as a result of several modifications to the task order, including a
   utility upgrade. Construction delays occurred primarily because the con-
   tractor had difficulty obtaining the two generators called for as part of the
   utility upgrade. At Herat, several modifications to the task order increased
   costs from $11.6 million to $19 million, and the project was more than nine
   months behind schedule. The Herat project experienced the $7.4 million cost
   increase and delays in part because of poor contractor performance. Despite
   repeated indications of that poor performance, the contracting officer did not
   follow up to ensure that the contractor took corrective actions. The AFCEE
   contracting officer approved more than $5 million in funding increases as
   well as schedule extensions for the project at Herat, even though he knew
   that the contractor had significant difficulty staying within budget and main-
   taining a schedule. Furthermore, AFCEE did not provide timely information
   to other U.S. government contracting officials on the contractor’s perfor-
   mance in Herat through the Construction Contractor Appraisal Support
   System.
2. SIGAR found that the quality of construction at both sites generally met
   the terms of the contract requirements. For example, the buildings SIGAR
   inspected at Herat appeared to have properly applied interior and exterior
   finishes; windows and doors were working; and plumbing and electrical sys-
   tems were operational. However, SIGAR identified minor problems, including
   inadequate grading in some areas, that could lead to flooding.
3. Although AFCEE and CSTC-A have taken steps to provide for the sustain-
   ment of the Mazar-e Sharif and Herat facilities, these efforts did not occur in
   a timely manner. First, AFCEE did not arrange for the facilities to be



   8               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                           SIGAR OVERSIGHT




   covered under the operations and maintenance contract for CSTC-A
   facilities in Afghanistan until after most of the work had been completed.
   Second, although CSTC-A updated its “austere” or “Afghan-friendly” con-
   struction standards and developed a mechanism for taking feedback from
   key stakeholders into account when revising these standards, these updates
   were not available to contractors while they were implementing the Mazar-e
   Sharif and Herat projects.

RECOMMENDATIONS
As the U.S. military transfers to the ANA the responsibility to provide for its
own security—a key to the counter-insurgency effort—the importance of having
well-constructed and sustainable facilities available for the ANA increases. To
strengthen contractor oversight and ensure that other U.S. contracting agencies
have accurate information on contractor performance, SIGAR made two recom-
mendations to the Director of AFCEE:
• Establish and implement procedures to ensure that contracting officers fol-
   low up on contractors’ plans to take corrective action in a timely manner.
• File a final rating of the prime contractor at Herat in the Construction
   Contractor Appraisal Support System.

AGENCY COMMENTS
In commenting on a draft of this report, AFCEE stated that it will begin setting
specific deadlines for stakeholders, including the contracting officer, to follow
up when performance problems are identified. In response to our second recom-
mendation, AFCEE stated that it has filed a rating in CCASS on the contractor
in Herat.

Audit 11-10: Security/Afghan National Police
Despite Improvements in MoI’s Personnel Systems, Additional Actions Are Needed To
Completely Verify ANP Payroll Costs and Workforce Strength
The development of the ANP is a primary U.S. reconstruction objective in
Afghanistan and is essential for protecting Afghan citizens and maintaining
the rule of law. Current plans call for increasing the number of ANP personnel
to 134,000 by October 2011. Because the GIRoA did not have the resources to
pay for the ANP, the international community created the Law and Order Trust
Fund (LOTFA) in 2003 to support ANP expenses. Since then, the United States
and other international donors have contributed at least $1.5 billion through the
LOTFA to fund recurrent ANP costs—primarily salaries, benefits, and allow-
ances. The United States has donated more than $545 million to the LOTFA,
which is managed by the UNDP.
   The GIRoA’s ability to grow and sustain the ANP will depend in part on the
extent to which it has the management systems and processes in place to track
ANP personnel and to account for the ANP payroll. The ANP falls under the
authority of the Ministry of Interior (MoI). The United States, in partnership with




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2011         9
SIGAR OVERSIGHT




the international community and the GIRoA, has supported the development and
maintenance of multiple management systems to enable the MoI to keep track of
ANP personnel and salary disbursements.

OBJECTIVES
SIGAR initiated this audit to determine the extent to which the GIRoA has the
personnel management systems and processes it needs to effectively and effi-
ciently support an independent and accountable police force. This audit report
had three objectives:
• Determine whether the MoI’s personnel systems accurately account for the
   ANP workforce.
• Determine whether the MoI’s payroll system accurately accounts for the ANP
   payroll, including money disbursed by the LOTFA.
• Assess whether the personnel and payroll systems being developed will sup-
   port the ANP and be sustainable.

FINDINGS
1. The MoI is using four systems and processes to report on ANP personnel and
   one system to account for the ANP payroll. Although the MoI is automating
   its human resource records and developing personnel management systems
   to improve ANP accountability, it is not yet able to determine the actual num-
   ber of ANP personnel because it is not able to reconcile personnel records
   or verify data contained in these personnel systems and databases. As of
   September 30, 2010, the number of ANP records in different systems, data-
   bases, and processes ranged from 11,774 to 125,218. The MoI’s systems and
   databases contain basic ANP personnel, biometric, identification card, and
   registration information, but these systems and databases are decentralized.
   Moreover, they contain records and data that are incomplete, unverified,
   and unreconciled.
2. Since 2002, the UNDP has disbursed almost $1.26 billion from the LOTFA to
   reimburse ANP payroll and other costs. As of September 2010, about 21% of
   ANP personnel were still paid by cash, and neither the MoI nor the UNDP
   have verified payroll data. They cannot confirm that only ANP personnel who
   work have been paid. The UNDP provides most of the oversight and moni-
   toring of the LOTFA and ANP payroll costs, and charges a management fee
   for these services. In addition, the UNDP has contracted for an independent
   monitor to assist with oversight of the LOTFA.
3. The MoI is developing personnel and payroll systems to support the ANP.
   Current efforts to account for, automate, and centralize all personnel
   and payroll data and records will further aid the sustainment of the ANP.
   However, the MoI will continue to face challenges in gathering personnel and
   payroll data, centralizing the data within a system, and integrating into other
   systems until long-standing issues with security, infrastructure, and coordina-
   tion are addressed.




  10               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                          SIGAR OVERSIGHT




RECOMMENDATIONS
To improve accountability for ANP personnel and payroll costs, SIGAR made five
recommendations.
   To improve the UNDP’s monitoring and oversight of U.S. and other inter-
national donations contributed into the LOTFA, as well as address the UNDP
management fee, SIGAR recommends that the U.S. Ambassador to Afghanistan
take the following action:
• Require that the U.S. representative on the LOTFA Steering Committee follow
   up with the UNDP to ensure that an opinion is rendered on the available inter-
   national donations in the LOTFA at the end of each audit period, and request
   that the U.S. Mission at the United Nations help to negotiate and ensure that
   the UNDP management fee of 3% for LOTFA Phase VI is approved.
   To address the development of the MoI’s personnel and payroll systems to
help ensure that they provide consistent and reliable ANP workforce data and
payroll costs, as well as ensuring that only eligible ANP costs are reimbursed
with LOTFA funds administered by the UNDP, SIGAR recommends that the
Commanding General for NTM-A/CSTC-A take the following actions:
• Develop written guidance for roles and responsibilities of the MoI and
   CSTC-A for future personnel inventories to account for the ANP workforce
   and verification of personnel and payroll data in MoI’s payroll, personnel,
   identification card/registration, and biometric databases and systems.
• Take the following steps as part of all future personnel inventories and data
   verifications to help ensure the reliability of the number of ANP personnel
   records and related data:
   Designate the MoI’s Human Resources Information System as the MoI’s
      official source for personnel inventories and data verifications, registra-
      tion of police, issuance of identification cards, and conversion of manual
      human resource records into the Human Resource Information System for
      the ANP.
   Compare common data fields, such as identification cards, in each MoI
      personnel and payroll system and database to verify the data found in
      those systems and databases.
   Incorporate the Biometric Identification Verifier with biometric jump
      kits—the equipment used to gather biometric data, such as fingerprints,
      photographs, and iris scans—to help prevent the creation of duplicate bio-
      metric records and related transaction control numbers for ANP personnel
      in the Afghanistan Automated Biometric Information System.
   Verify selected payroll and personnel data fields in existing ANP records,
      enter missing data to ensure the completeness of all ANP records, and cre-
      ate a new record for any ANP personnel not in a system or database.
   Compare the number of records and common data fields in each payroll
      and personnel system to help ensure that all unverified ANP personnel
      are removed or identified as inactive and ensure that the payroll disburse-
      ments are stopped.




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2011      11
                                           SIGAR OVERSIGHT




                                           • Develop a plan to ensure a coordinated effort by the MoI and CSTC-A to
                                             automate and centralize each payroll and personnel system and database,
                                             and establish a link between those systems and databases.
                                           • Require the MoI to report ANP payroll and food allowance costs separately
                                             by funding source to help identify and track the costs that are eligible for
                                             reimbursement by the LOTFA.

                                           AGENCY COMMENTS
                                           In commenting on a draft of this report, the U.S. Embassy partially concurred
                                           with the recommendation to it, and NTMA/CSTCA concurred or partially con-
                                           curred with the four recommendations to it. Each outlined actions it has taken or
                                           plans to take that will substantially address our concerns.

                                           NEW AUDITS ANNOUNCED THIS QUARTER
                                           This quarter, SIGAR announced four new audits of key aspects of the U.S. recon-
NEW AUDITS                                 struction effort in Afghanistan. They will assess the Afghan First Initiative in
• Implementation of the Afghan First       Reconstruction Contracting; USAID’s financial audit coverage of costs incurred
    Initiative for Contracting
                                           under contracts, cooperative agreements, and grants for reconstruction; oversight
•   USAID’s Financial Audit Coverage       of contractors and private security contractors (PSCs) as required by the FY 2011
    of Costs Incurred under Contracts,
    Cooperative Agreements, and Grants
                                           National Defense Authorization Act (NDAA); and the private security services
    for Afghanistan Reconstruction         provided by Hart Security Limited as a subcontractor for the Louis Berger Group.
•   NDAA-Mandated Oversight of
    Contractors and PSCs in Afghanistan    Implementation of the Afghan First Initiative for Contracting
•   Private Security Services Contract     U.S. Forces - Afghanistan (USFOR-A) and the U.S. Mission to Afghanistan have
    Provided by Hart Security Limited to   adopted an Afghan First approach to contracting to promote economic growth,
    Louis Berger Group                     capacity development, and related counter-insurgency objectives by encouraging
                                           the use of Afghan firms to meet U.S. requirements for supplies and services. This
                                           audit has three objectives:
                                           • Review the systems and controls in place to identify capable Afghan contrac-
                                              tors, including efforts to develop databases of vetted Afghan contractors, and
                                              ensure that applicable laws and regulations are being followed.
                                           • Evaluate efforts by U.S. and coalition partners to identify and address vulner-
                                              abilities of the Afghan First Initiative to waste, fraud, and abuse, including
                                              weaknesses in Afghan capacity.
                                           • Determine what key challenges, if any, have been experienced in implement-
                                              ing the Afghan First Initiative and associated strategies.

                                           USAID’s Financial Audit Coverage of Costs Incurred
                                           under Contracts, Cooperative Agreements, and Grants
                                           for Afghanistan Reconstruction
                                           According to USAID’s Office of Inspector General, USAID’s obligations for
                                           reconstruction in Afghanistan totaled approximately $11.7 billion for fiscal years
                                           2002–2010. USAID provided most of these funds to contractors and non-profit
                                           organizations through contracts, cooperative agreements, and grants. Financial




                                             12               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                          SIGAR OVERSIGHT




audits of costs incurred under these financial mechanisms provide valuable over-
sight over appropriated funds by determining the appropriateness of direct and
indirect costs, as well as identifying weaknesses in internal controls and compli-
ance with applicable laws and regulations. This audit has three objectives:
 • Determine USAID’s requirements for conducting financial audits of its con-
   tracts, cooperative agreements, and grants.
 • Identify USAID’s reconstruction contracts, cooperative agreements, and
   grants in Afghanistan from 2007 to the present.
 • Determine the extent to which USAID has met or plans to meet financial
   audit requirements.

NDAA-Mandated Oversight of Contractors
and PSCs in Afghanistan
Section 1219 of the FY 2011 NDAA requires SIGAR to (1) issue recommendations
on measures to increase oversight of contractors engaged in activities relating to
Afghanistan, (2) report on the status of DoD, USAID, and DoS efforts to imple-
ment existing recommendations regarding oversight of such contractors, and
(3) report on the extent to which military and security contractors or subcontrac-
tors (private security contractors or PSCs) have been responsible for the deaths
of Afghan civilians. The NDAA also requires SIGAR to provide recommendations
for reducing U.S. reliance on (1) military and security contractors or subcontrac-
tors who have been responsible for the deaths of Afghan civilians and (2) Afghan
militias or other armed groups that are not part of the ANSF.
   In accordance with Section 1219(a) of the NDAA, SIGAR has begun consulta-
tions with the DoD Office of the Inspector General, the DoS Office of Inspector
General, and the USAID Office of Inspector General to address these matters.
This audit has three objectives:
• Determine to what extent DoD, USAID, and DoS have implemented con-
   tractor oversight recommendations and identify systemic issues that these
   recommendations were intended to address.
• Determine to what extent PSCs have been responsible for the deaths of
   Afghan civilians.
• Identify the steps that implementing agencies have taken to minimize U.S.
   reliance on PSCs.

Private Security Services Contract Provided by
Hart Security Limited to Louis Berger Group
SIGAR has begun a contract audit of the private security services provided by
Hart Security Limited as a subcontractor for the Louis Berger Group. This audit
will focus on the cost, schedule, and outcomes of the subcontract(s), as well as
contract oversight. SIGAR will also examine whether the services provided were
in accordance with the subcontract provisions and various U.S. and Afghan laws
and requirements, including vetting, reporting of serious incidents, arming autho-
rization, and weapons accountability. This audit has two objectives:




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2011       13
                                               SIGAR OVERSIGHT




                                               • Determine what services Hart provided and whether the services were pro-
                                                 vided within the terms of the contract and any modifications, including cost,
                                                 schedule, and outcomes.
                                               • Identify the oversight requirements of USAID and the Louis Berger Group
                                                 over Hart and how USAID and LBG ensured that U.S. and Afghan laws and
                                                 requirements were complied with.

                                               ONGOING AUDITS: CONTRACT
                                               SIGAR is conducting two audits of USAID reconstruction contracts, two audits
ONGOING AUDITS                                 of contracts to build ANSF facilities, and one audit of a contract for private secu-
Contract                                       rity services.
• Review of USAID’s Cooperative
  Agreement with CARE International
                                               Review of USAID’s Cooperative Agreement with CARE
  for the Community Development
  Program for Kabul                            International for the Community Development Program for Kabul
                                               SIGAR is assessing a $60 million cooperative agreement between USAID and
• USAID Contracts for Local Governance
  and Community Development Projects           CARE International—the Community Development Program for Kabul—one of
                                               four programs addressing food insecurity in major urban areas in Afghanistan.
• Infrastructure Projects at the Kabul
  Military Training Center                     The completion date of the one-year program was originally March 2010; how-
• Construction at the Afghan National          ever, the program has been extended to September 2011. The audit has four
  Security University                          objectives:
• Review of Reconstruction Security            • Assess the process and procedures USAID followed to award this coopera-
  Support Services from Global                    tive agreement.
  Strategies Group, Inc.                       • Determine whether the contract is being implemented within the cost, sched-
                                                  ule, and outcome terms of the agreement.
Reconstruction Programs and Operations         • Evaluate USAID’s and CARE’s oversight of the program, including controls
• Accountability of ANSF Vehicles                 over cash disbursements.
• U.S. Efforts To Strengthen the               • Assess the extent to which program goals have been achieved.
  Capabilities of the Afghan Major
  Crimes Task Force                            USAID Contracts for Local Governance and Community
• U.S. and International Donor Assistance      Development Projects
  for Development of the Afghan Banking        SIGAR is examining the performance, costs, and outcomes of USAID’s contracts
  Sector and Afghan Currency Control
  Systems                                      in support of its Local Governance and Community Development projects. The
                                               audit has four objectives:
• U.S. Assistance To Develop Afghanistan’s
  Agriculture Sector                            • Assess whether contracts are completed within contract terms, including
                                                   construction plans and specifications, cost, schedule, and outcome.
• Implementation of the Defense
  Base Act Insurance Program for                • Assess oversight of the contractor’s work.
  Contractors in Afghanistan                    • Evaluate the extent to which projects are being sustained.
• Costs and Sustainability                      • Identify the PSCs, if any, that were hired to provide personnel or site secu-
  of the U.S. Civilian Uplift in Afghanistan       rity, their roles, whether they were approved by the GIRoA, and the effect on
• Use and Accountability of U.S. Funds             future work of changes in the GIRoA’s policy on PSCs.
  Contributed to the Afghanistan
  Reconstruction Trust Fund                    Infrastructure Projects at the Kabul Military Training Center
                                               SIGAR is examining AFCEE’s management of infrastructure projects at the
                                               Kabul Military Training Center. From FY 2007 through FY 2010, AFCEE obligated
                                               approximately $161 million for five task orders under three indefinite-delivery/



                                                 14                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                 SIGAR OVERSIGHT




Afghan workers continue the third phase of construction at the Kabul Military Training Center.
A key element of U.S. reconstruction strategy is to build infrastructure for the ANSF—including
facilities to train and house the ANA and ANP—to enable the ANSF to assume responsibility for
security in 2014. (SIGAR photo, Warren Anthony)


indefinite quantity contracts at the Center. Under these contracts, AFCEE
awarded a combination of cost-plus-fixed-fee, firm-fixed-price, and time-and-
materials task orders. Work required under these task orders included planning,
construction, and oversight functions with different completion dates. This audit
has four objectives:
 • Assess whether the projects are completed within the terms of the contract
   and construction plans and specifications, including cost, schedule, and
   outcome.
 • Assess AFCEE’s compliance with contract administration and oversight
   requirements, including AFCEE policy and regulations, contract provisions,
   and the Federal Acquisition Regulation.
 • Identify plans, if any, for the ANA to take possession of the facilities, perform
   maintenance, and pay for sustainment costs.
 • Identify the PSCs, if any, that were hired to provide personnel or site secu-
   rity, their roles, and whether they were approved by the GIRoA.

Construction at the Afghan National Security University
SIGAR is assessing construction projects and related activities at the Afghan
National Security University (formerly called the Afghan Defense University).
AFCEE awarded a cost-plus-fixed-fee task order to AMEC Earth and Environment
under an indefinite-delivery/indefinite quantity contract for construction at the
Afghan National Security University in the Qaragh area of Kabul. At the time of
award, the task order was valued at approximately $70 million, and the project



              REPORT TO THE UNITED STATES CONGRESS       I   APRIL 30, 2011             15
SIGAR OVERSIGHT




was to be completed in June 2010. Since then, AFCEE has issued five modifica-
tions to the task order, adding and removing requirements, increasing the amount
obligated to about $83 million, and extending the completion date through June
2011. This audit has four objectives:
• Assess whether the project is being completed within the terms of the con-
   tract, including cost, schedule, and outcome.
• Assess AFCEE compliance with contract administration and oversight
   requirements, including AFCEE policy and regulations, contract provisions,
   and the Federal Acquisition Regulation.
• Identify plans for the ANA to take possession of the facilities, perform main-
   tenance, and pay for sustainment.
• Identify which PSCs, if any, were hired to provide personnel or site security;
   their roles; and whether they were approved by the GIRoA.

Review of Reconstruction Security Support Services
from Global Strategies Group, Inc.
SIGAR is examining whether the U.S. Army Corps of Engineers (USACE) received
the security services it needed from the contractor at a reasonable cost. SIGAR re-
scoped this audit to clarify the objectives. The re-scoped audit has two objectives:
• Identify the services provided by Global Strategies Group (Global) and deter-
   mine whether those services were provided in accordance with the contract,
   including schedule, cost, and any modifications.
• Determine whether USACE conducted its oversight of the Global contract in
   accordance with the Federal Acquisition Regulation, USACE requirements,
   and any oversight provisions in the contract.

ONGOING AUDITS: RECONSTRUCTION PROGRAMS
AND OPERATIONS
SIGAR has seven ongoing audits of programs and operations that are critical to
the U.S. reconstruction strategy to develop the ANSF, improve governance, and
foster economic development.

Accountability of ANSF Vehicles
The United States has provided tens of thousands of vehicles to the ANSF and
plans to provide thousands more through at least 2012. Most of these vehicles
have been purchased though the Foreign Military Sales system, which is adminis-
tered by the Defense Security Cooperation Agency. This audit, which is focused
on vehicles, will provide insight on the overall ability of the ANSF to account for,
track, and maintain equipment. This audit has three objectives:
• Examine ANSF’s vehicle requirements and the extent to which they have
   been met.
• Assess whether CSTC-A and the ANSF can fully account for vehicles pur-
   chased with U.S. funds for the ANSF, including vehicle numbers, types, and
   operational status.




  16                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                  SIGAR OVERSIGHT




Small farms like this one outside Jalalabad in Nangarhar province are the backbone of Afghan
agriculture. An ongoing SIGAR audit is reviewing the strategies, objectives, and success of U.S.
assistance to the agriculture sector. (SIGAR photo, Leigh Caraher)


• Evaluate how CSTC-A ensures that the ANSF can properly safeguard,
  account for, operate, and maintain vehicles purchased with U.S. funds.

U.S. Assistance To Develop Afghanistan’s Agriculture Sector
A top priority of the U.S. strategy in Afghanistan is to rebuild the agriculture sec-
tor. This audit has four objectives:
• Identify U.S. and donor assistance to Afghanistan’s agricultural sector
    through the second quarter of FY 2011.
• Identify strategies and objectives guiding U.S. assistance to develop
    Afghanistan’s agricultural sector.
• Assess the extent to which U.S. agricultural assistance is achieving strategic
    goals and objectives.
• Evaluate the extent to which U.S. agricultural assistance is vulnerable to waste.

U.S. Efforts To Strengthen the Capabilities of the
Afghan Major Crimes Task Force
SIGAR is assessing U.S. efforts to strengthen the capabilities of the Afghan Major
Crimes Task Force. This audit is related to a series of reviews examining U.S.
and donor assistance to support the GIRoA’s anti-corruption capabilities. The
audit has three objectives:
• Identify U.S. and other donor assistance to strengthen the Major Crimes Task
   Force.
• Determine whether U.S. efforts were designed and implemented in accor-
   dance with applicable laws and regulations.
• Determine whether U.S. assistance is achieving intended results.



              REPORT TO THE UNITED STATES CONGRESS       I   APRIL 30, 2011              17
SIGAR OVERSIGHT




U.S. and International Donor Assistance for Development of the
Afghan Banking Sector and Afghan Currency Control Systems
The U.S. Congress has expressed concerns about the stability of Afghanistan’s
financial system and the volume of cash leaving Afghanistan via the Kabul
International Airport. To address congressional inquiries, SIGAR initiated an
audit of U.S. efforts to monitor the flow of U.S. funds through the Afghan econ-
omy and U.S. initiatives to strengthen regulation of the Afghan financial sector.
The audit has two objectives:
 • Examine the controls that U.S. agencies have in place to track U.S. funds as
    they flow through the Afghan economy.
 • Evaluate the extent to which U.S. efforts to improve the capacity of the
    Afghan government to regulate the financial sector face challenges.

Implementation of the Defense Base Act Insurance
Program for Contractors in Afghanistan
The Defense Base Act (DBA) Insurance Program, administered by the U.S.
Department of Labor, requires federal government contractors and subcontrac-
tors to provide workers’ compensation insurance for employees who work
outside the United States. USACE uses a single-source insurance provider. This
audit is focused on the DBA program as implemented by USACE, which also
covers the CENTCOM Joint Theater Support Contract Command (C-JTSCC). The
audit has three objectives:
• Determine how the program works.
• Assess the extent to which reconstruction funding for DBA has been handled
   and accounted for in compliance with relevant laws, regulations, policies,
   and procedures.
• Evaluate how USACE and C-JTSCC ensure that DBA insurance is provided
   and maintained by contractors.

Costs and Sustainability of the U.S. Civilian Uplift in Afghanistan
The U.S. strategy in Afghanistan relies in part on the U.S. government’s ability
to deploy and sustain a civilian effort to build governance and support eco-
nomic development across the country. The number of U.S. civilian personnel
in Afghanistan has increased significantly—from 261 in January 2009 to 989
as of February 2011. The Department of State (DoS) has proposed to increase
the number of civilians to a total of 1,350 by 2012. Conducted jointly with the
DoS Office of Inspector General, this audit is a follow-on audit of aspects of the
implementation of the civilian uplift, as well as the sustainability of deploying
additional civilians to Afghanistan. The audit has three objectives:
 • Determine the costs of the civilian uplift in Afghanistan to date.
 • Evaluate DoS’s internal controls for managing the civilian uplift.
 • Assess the sustainability of the uplift.




  18                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                            SIGAR OVERSIGHT




Use and Accountability of U.S. Funds Contributed
to the Afghanistan Reconstruction Trust Fund
This audit is assessing the ARTF, the largest vehicle for international direct assis-
tance to the GIRoA. The World Bank administers the ARTF, which is financed
by contributions from the United States and other donor nations. ARTF contri-
butions flow through the Afghan national budget and provide a means for the
United States and other donors to provide development assistance directly to
the GIRoA. As of September 2010, the United States had contributed $972 mil-
lion—nearly one-fourth of all contributions to the trust fund ($4 billion from 32
different countries and international organizations). This audit is one in a series
of reviews examining U.S. and other donor assistance to support the GIRoA’s
anti-corruption capabilities, as well as internal controls over U.S. and other
donor funds provided to the GIRoA. The audit has three objectives:
 • Identify the steps taken by the United States and World Bank to ensure that
    U.S. contributions to the ARTF are adequately monitored and accounted for.
 • Identify whether funds have been used for their intended purposes.
 • Assess the extent to which there are gaps and risks in the mechanisms used
    to monitor the use of ARTF funds.

FORENSIC AUDITS
SIGAR is analyzing more than $39 billion of reconstruction contract data from
three Afghanistan reconstruction funds: the ASFF, the ESF, and INCLE. SIGAR
is conducting these forensic reviews under the authority of P.L. 110-181, as            FORENSIC AUDITS
amended, which requires SIGAR to investigate improper payments—such as                  • Forensic Review of DoD Transaction Data
duplicate payments or ineligible vendors—and to prepare a final forensic audit              Related to Afghanistan Reconstruction
report on programs and operations funded with amounts appropriated or other-            •   Forensic Review of USAID Transaction
wise made available for the reconstruction of Afghanistan.                                  Data Related to Afghanistan
                                                                                            Reconstruction
Forensic Review of DoD Transaction Data Related to                                      •   Forensic Review of DoS Transaction Data
Afghanistan Reconstruction                                                                  Related to Afghanistan Reconstruction
In March 2010, SIGAR initiated a review of DoD appropriation, obligation, and
expenditure transaction data related to the ASFF, now totaling $27.83 billion in
appropriations for fiscal years 2005 through 2010. Obtaining data to perform a
comprehensive forensic review has been a challenge. SIGAR has limited visibility
into the line detail of these transactions because after obligation a significant
amount of ASFF dollars are transferred immediately to a Foreign Military Sales
trust-fund account to await disbursement.
   On April 19, 2011, SIGAR met with the Principal Deputy Director of Defense
Finance and Accounting Service (DFAS) to develop a path forward to obtain the
required data. SIGAR will continue to work in conjunction with DFAS to attempt
to develop computer-aided algorithms that will bring in the required data from
various source systems in order to complete a comprehensive forensic review, in
accordance with SIGAR’s congressional mandate.




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2011          19
                                                       SIGAR OVERSIGHT




                                                          In the meantime, SIGAR has begun a forensic review of $1.7 billion of ASFF-
                                                       related disbursements from USACE for fiscal years 2005 through 2009. SIGAR is
                                                       identifying and reviewing anomalies, such as duplicate payments and vendors on
                                                       the excluded party lists.

                                                       Forensic Review of USAID Transaction Data Related to
                                                       Afghanistan Reconstruction
                                                       SIGAR has completed a preliminary review of USAID appropriation, obligation,
                                                       and expenditure transaction data, primarily related to the Economic Support
                                                       Fund, from FY 2002 to July 2010. The disbursements total $7.4 billion. The review
                                                       focused on 73,272 transactions and 1,211 vendors. Forensic analysts performed a
                                                       series of 19 forensic tests to isolate anomalies. Preliminary results have indicated
                                                       a number of anomalous activities and exceptions.
                                                          SIGAR’s forensic team is reviewing source documentation to validate these
                                                       exceptions and is working with USAID and SIGAR’s Investigative Directorate to
                                                       examine contract documentation, invoices, and payment files. When appropriate,
                                                       SIGAR is incorporating its findings into audits. SIGAR is also applying a risk-scoring
                                                       methodology to further identify potential areas of focused audit and investigative
                                                       work. SIGAR will analyze additional periods of USAID data on an ongoing basis.

                                                       Forensic Review of DoS Transaction Data Related to
                                                       Afghanistan Reconstruction
                                                       SIGAR initiated a review of $2.68 billion of DoS appropriation, obligation, and
                                                       expenditure transaction data related to INCLE from FY 2002 to the present. DoS
                                                       provided sample data to SIGAR in March 2011. SIGAR has reviewed the sample
                                                       and identified additional data fields that are needed to complete a comprehensive
                                                       forensic analysis. SIGAR is working with DoS to get this additional information
FIGURE 1.1
                                                       and perform a final data pull. SIGAR will begin the initial forensic review as soon
SIGAR INVESTIGATIONS: NEW INVESTIGATIONS,              as it receives the data.
JANUARY 1–MARCH 31, 2011
                                                       INVESTIGATIONS
                        Total: 16                      This quarter, SIGAR closed 45 cases and opened 16 new cases, bringing the total
                                                       number of ongoing cases to 76. Of these 76 cases, 48 (63%) involve allegations of
                                                       contract or procurement fraud. Twenty of the open cases (26%) concern public cor-
                     Procurement/                      ruption or bribery. The remaining eight (6%) address allegations of theft. Figure 1.1
                     Contract Fraud                    shows the new investigations by type.
                     11

                               Public
                               Corruption/
                                                       SIGAR PROSECUTORIAL INITIATIVE
                               Bribery                 During this reporting period, SIGAR hired an experienced litigator and detailed
                               4                       this individual to the Department of Justice (DoJ) to develop and prepare cases
            Theft                                      involving reconstruction dollars for prosecution or civil litigation. As a special
            1
                                                       U.S. Attorney, the SIGAR attorney will be responsible for handling criminal
Source: SIGAR Investigations Directorate, 4/15/2011.   prosecutions and civil matters associated with reconstruction contracting,




                                                         20                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                           SIGAR OVERSIGHT




construction, program implementation, and operations. This individual will
work closely with SIGAR investigators and DoJ prosecutors and civil litigators
to ensure appropriate and timely prosecutions of the waste, fraud, and abuse of
reconstruction funds. As a result of this action, SIGAR has been able to signifi-
cantly increase its collaboration with DoJ’s criminal and civil divisions.

AFGHAN SHAFAFIYAT INVESTIGATIVE UNIT ARRESTS
CONTRACTOR
SIGAR agents in Kabul assisted the Afghan Shafafiyat Investigative Unit (ASIU)
in the investigation of a joint venture involving an Afghan company and a South
Korean company alleged to have defrauded subcontractors of $1.1 million. The
bank manager of a local bank in Kabul was also alleged to have been involved
in the conspiracy. In January 2011, the Afghan Attorney General’s Office issued
arrest warrants for one Korean, one Afghan, and one Pakistani. On February 4,
2011, Afghan authorities arrested the Korean citizen as he attempted to flee the
country. The Pakistani citizen is believed to have successfully fled to Pakistan,
and the Afghan citizen remains at large.
   SIGAR has a special agent assigned full-time to the ASIU. Afghanistan’s
Deputy Attorney General thanked SIGAR for referring this case to the ASIU.

PROPOSED DEBARMENT OF 22 AFGHAN CITIZENS
On February 28, 2011, USAID announced the proposed debarment of 22 Afghans
alleged to have been extorting payments from local subcontractors seeking work
on USAID-funded projects. These Afghans had been employed by a contractor
that is implementing USAID’s Local Governance and Community Development
program in 23 provinces.
   As noted in previous quarterly reports, SIGAR received information alleging
that Afghans employed by USAID’s local governance program were taking kick-
backs and bribes. Soon after opening a criminal investigation, SIGAR discovered
that the USAID Office of Inspector General was conducting a similar investiga-
tion. To maximize resources, SIGAR and USAID joined their efforts. In October
2011, SIGAR closed its criminal case and began the debarment review.

INVESTIGATION IDENTIFIES FAULTY CONSTRUCTION
During this reporting period, the Provincial Reconstruction Team (PRT) in Kunar
province, acting on information provided by SIGAR, took action to ensure that
an Afghan company makes the repairs necessary to ensure that a bridge is built
according to contract specifications. Acting on the information provided by SIGAR,
the PRT inspected the $1.2 million Pashad Truck Bridge and found that it had not
been properly completed. The PRT advised the contractor that he would not be paid
until repairs, estimated to total several hundred thousand dollars, had been made.




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2011        21
                                                       SIGAR OVERSIGHT




                                                          During SIGAR’s investigation, agents learned that the contractor had allegedly
                                                       used inferior construction materials that jeopardized the integrity of the bridge.
                                                       SIGAR encouraged the PRT and USACE engineers to inspect the project. The
                                                       inspection found that inferior materials had been used, and the PRT advised the
                                                       contractor who was responsible for making the repairs.

                                                       SIGAR HOTLINE AND COMPLAINTS MANAGEMENT SYSTEM
                                                       During this reporting period, the SIGAR Hotline received 106 complaints. SIGAR
                                                       Investigations is assessing 15 of these complaints and has referred 15 to other
                                                       federal law enforcement agencies. SIGAR closed the remaining 71 for lack of
                                                       merit. The sources and dispositions of these complaints are shown in Figures 1.2
                                                       and 1.3.

                                                       SIGAR BUDGET
                                                       The Congress established SIGAR in 2008 and has appropriated about $71.6 million
                                                       since then to cover the organization’s operating expenses, including $25.5 million
                                                       for FY 2011. SIGAR carried over $7.2 million from FY 2010, which brings its total
                                                       FY 2011 budget to $32.7 million.
                                                          Since 2008, the Congress has significantly increased funding to rebuild
                                                       Afghanistan. From 2002 to 2008, the Congress provided $26.23 billion for
                                                       Afghanistan reconstruction; it has provided at least $45.6 million from 2008
                                                       through 2011. This figure will be higher because it does not include funding for
                                                       DoS and USAID reconstruction programs for Afghanistan for FY 2011. In his
                                                       FY 2012 budget request, President Obama asked for an additional $17.3 billion
                                                       to build Afghan security forces, improve governance, and lay the foundation for
                                                       economic development in Afghanistan.
FIGURE 1.2                                             FIGURE 1.3

SOURCE OF SIGAR HOTLINE COMPLAINTS,                    STATUS OF SIGAR HOTLINE COMPLAINTS: JANUARY 1–MARCH 31, 2011
JANUARY 1–MARCH 31, 2011
                                                                                                                            Total: 106

                          Total: 106
                                                       Referred (Out)                           15
                                                        Referred (In)                           15
                                                               Closed                                                                                                             71
                            E-mail
                            99                         Coordinationa         2
                                                          Evaluationb        2
                                                       Under Review        1
                                                                                                     20                          40                           60                       80

                                                       a. Case has been reviewed, and SIGAR is obtaining additional information.
                                                       b. Conducting preliminary investigative work to gather appropriate information and guidance for administrative tracking.
                                                       Source: SIGAR Investigations Directorate, 4/15/2011.
   Written (not e-mail)                Phone
                     1                 6

Source: SIGAR Investigations Directorate, 4/11/2011.




                                                           22                          SPECIAL INSPECTOR GENERAL                  I   AFGHANISTAN RECONSTRUCTION
                                                                    SIGAR OVERSIGHT




   To provide oversight of the expanded effort to rebuild Afghanistan, SIGAR must
increase its coverage of reconstruction efforts beyond Kabul, Kandahar, and Bagram.
SIGAR’s budget request of $44.4 million for FY 2012 will enable the organization to
hire the auditors and investigators needed to detect and deter waste, fraud, and abuse
of taxpayer dollars. Table 1.1 summarizes SIGAR’s funding through FY 2011.

SIGAR STAFF
SIGAR’s staff totals 123 federal employees. In light of the President’s requests for
significant increases in reconstruction funding, SIGAR plans to continue hiring
experienced auditors and investigators throughout the coming year. Depending on
its funding, SIGAR’s goal is to have 180 full-time employees in FY 2012.
    Through its agreements with the U.S. Embassy in Kabul and USFOR-A, SIGAR is
authorized to fill 45 positions in Afghanistan—33 at the Embassy and 12 at military
bases in the field. SIGAR staff are now working at several locations in Afghanistan.
SIGAR also employs two foreign service nationals in its Kabul office. SIGAR sup-
ports its work with staff assigned on short-term temporary duty in Afghanistan.

TABLE 1.1


SIGAR FUNDING SUMMARY ($ MILLIONS)
Appropriation                                                                 Public Law                                  Amount
H.R. 2642, Supplemental Appropriations Act, 2008                              P.L. 110-252                                     2.0
H.R. 2642, Supplemental Appropriations Act, 2008                              P.L. 110-252                                     5.0
H.R. 2638, Consolidated Security, Disaster Assistance,                        P.L. 110-329                                     9.0
and Continuing Appropriations Act, 2009
H.R. 2346, Supplemental Appropriations Act, 2009                              P.L. 111-32                                      7.2
H.R. 2346, Supplemental Appropriations Act, 2009                              P.L. 111-32                                     (7.2)a
H.R. 3288, Consolidated Appropriations Act, 2010                              P.L. 111-117                                    23.0
H.R. 4899, Supplemental Appropriations Act, 2010                              P.L. 111-212                                     7.2
H.R. 1473, Department of Defense and Full-Year                                P.L. 112-10                                     25.5
Continuing Appropriations Act, 2011
Total                                                                                                                        71.7
a. Congress rescinded $7.2 million of funds made available for SIGAR in 2009 (Title XI in P.L. 111-32) and then made them available
again—through 3/30/2011—in P.L. 111-212 in 2010.




                   REPORT TO THE UNITED STATES CONGRESS                        I   APRIL 30, 2011                          23
               Building Toward Transition
               More than 1,500 ANA soldiers gather for their graduation
               from the Regional Military Training Center in Kandahar on
               March 27, 2011. This quarter, more than 22,000 ANA
               personnel graduated from a wide range of training programs
               funded by the Afghanistan Security Forces Fund. (ISAF photo)




24   SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
2   AFGHANSTAN
    OVERVIEW




       25
          AFGHANISTAN OVERVIEW




 “There will be tough fighting ahead,
   and the Afghan government will
need to deliver better governance. But
 we are strengthening the capacity of
    the Afghan people and building
 an enduring partnership with them.
  This year, we will work with nearly
   50 countries to begin a transition
          to an Afghan lead.”
                 —U.S. President Barack Obama




          Source: White House, “Remarks of President Barack Obama for Delivery of the State of the Union Address,” 1/25/2011.




              26                         SPECIAL INSPECTOR GENERAL                I   AFGHANISTAN RECONSTRUCTION
                           AFGHANISTAN OVERVIEW




OVERVIEW
During this reporting period, the Congress approved the FY 2011 budget, the
President submitted his FY 2012 budget request, and the U.S. government
intensified its focus on implementing a reconstruction strategy that would transi-
tion responsibility for Afghanistan’s security to the Government of the Islamic
Republic of Afghanistan (GIRoA) in 2014. Most of the Afghanistan reconstruc-
tion money for FY 2011 and FY 2012 will be used to train, equip, and house the
Afghan National Army (ANA) and the Afghan National Police (ANP)—efforts that
the United States sees as the key to the transition strategy. However, senior U.S.
officials told the Congress that achieving a sustainable transition depends not
only on building capable security forces, but also on making significant progress
in improving governance and the economy. The transition process faces many
challenges in these areas, including overcoming systemic corruption and resolv-
ing the current Afghan banking crisis that is jeopardizing continuing international
donor support. The Congress made some FY 2011 reconstruction funding condi-
tional on the GIRoA addressing these critical issues.

CONGRESS APPROPRIATES FY 2011 BUDGET
On April 15, 2011, President Obama signed the FY 2011 budget, which provided
more than $12.6 billion for Afghanistan reconstruction funds managed by the
Department of Defense (DoD). When this report went to press, however, the
Department of State (DoS) and the U.S. Agency for International Development
(USAID) did not yet know how much of the money appropriated to those agen-
cies would be used for reconstruction in Afghanistan.

Reconstruction Funding for the Department of Defense
The signed FY 2011 budget included appropriations for the following DoD-
managed funds:
 • $11.6 billion for the Afghanistan Security Forces Fund
 • $500 million for the Commander’s Emergency Response Program
 • $400 million for the Afghanistan Infrastructure Fund
 • $150 million for the Task Force for Business and Stability Operations
Of the $12.6 billion that the Congress appropriated to DoD for reconstruction,
$11.6 billion is for the Afghanistan Security Forces Fund (ASFF), which is used to
develop the Afghan National Security Forces (ANSF). This is nearly a $2.5 billion
increase from the FY 2010 appropriations for the ASFF. The legislation also



            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2011          27
AFGHANISTAN OVERVIEW




requires that the Secretary of Defense submit a quarterly report to the congres-
sional defense committees on the proposed use of all funds on a project-by-
project basis, as well as an estimate of the total cost to train and equip the ANSF.
    Under the FY 2011 National Defense Authorization Act, the Congress reduced
its appropriation to the Commander’s Emergency Response Program (CERP) but
provided funding for the new Afghanistan Infrastructure Fund (AIF). As SIGAR
reported last quarter, the Congress was concerned that DoD was using the CERP
to fund large infrastructure projects, rather than for its original purpose—to
implement small-scale projects, enabling military commanders to meet urgent
humanitarian relief and reconstruction needs within their areas of responsibility.
DoD and DoS will jointly approve AIF projects in support of the U.S. counter-
insurgency strategy in Afghanistan. The U.S. Army Corps of Engineers and
USAID will implement these projects.1
    Congress also provided funding for the Task Force for Business and Stability
Operations (TFBSO) to help “reduce violence, enhance stability, and restore
economic normalcy in Afghanistan through strategic business and economic
opportunities.”2 Under the legislation, the TFBSO may implement projects that
facilitate private investment and development in the industrial, financial, agri-
culture, and energy sectors. DoD established the TFBSO in 2006 to promote
investment in Iraq’s private sector and create jobs for the Iraqi people. Since
2009, the TFBSO has been active in Afghanistan, where it has focused primar-
ily on exploring ways to develop the country’s mineral resources, which it has
estimated at more than $900 billion.

Funding for DoS and USAID Unclear
When this report went to press, it was not clear how much of the funding that
the Congress appropriated for DoS and USAID would be allocated to reconstruc-
tion programs for Afghanistan. DoS and USAID manage several accounts that
fund development programs in Afghanistan and other countries. The largest are
the Economic Support Fund (ESF), which supports governance and economic
development programs worldwide, and the International Narcotics Control and
Law Enforcement (INCLE) account, which funds police, counter-narcotics, rule
of law, and justice programs in several countries. Unlike in previous years, DoS
did not earmark a funding level for Afghanistan from each account.

CONGRESS CUTS THE ESF AND IMPOSES CONDITIONS ON
DIRECT ASSISTANCE TO AFGHANISTAN
The Congress appropriated approximately $5.9 billion for the ESF—$1.9 billion
less than requested. In addition to reducing funding for the ESF, the Congress
also stipulated that these funds may not be used for direct government-to-gov-
ernment assistance in Afghanistan until the following three conditions are met:
 • The Secretary of State certifies to the Congress that the relevant implement-
   ing agency has been assessed and considered qualified to manage such funds.




  28                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                          AFGHANISTAN OVERVIEW




• The United States and the GIRoA have agreed, in writing, to clear and achiev-
  able goals for the use of such funds.
• The United States and the GIRoA have established mechanisms within each
  implementing agency to ensure that such funds are used for their intended
  purposes.
    The United States and other international donors have pledged to channel
50% of their development assistance through the GIRoA’s national budget if the
GIRoA implements reforms to strengthen public management systems, reduce
corruption, improve budget execution, and increase revenue collection. The goal
is to build Afghan governing capacity through direct assistance. The risk is that
this money could be lost through mismanagement or corruption. The United
States has been working with the GIRoA and other international donors to
arrange for independent assessments that would review the staffing, processes,
and procedures in each Afghan ministry to provide reasonable assurance that
donor money would not be subject to waste, fraud, and abuse. For a discussion
of these efforts, see Section 3.

SIGAR ASSESSES DIRECT ASSISTANCE PROGRAMS
FOR AFGHANISTAN
Concerned that the GIRoA lacks the capacity to manage and account for donor
funds, SIGAR has been conducting audits to address two questions:
• What are the United States and other donor countries doing to build the capac-
   ity of Afghan institutions to deter corruption and strengthen the rule of law?
• To what extent do the Afghan institutions that receive significant U.S. funding
   have the systems in place to account for donor funds?
   This quarter, SIGAR issued two audit reports related to direct assistance to
the GIRoA that is currently provided through two international trust funds—the
Afghanistan Reconstruction Trust Fund (ARTF) and the Law and Order Trust
Fund for Afghanistan (LOTFA). The ARTF is managed by the World Bank; the
LOTFA, by the United Nations Development Programme (UNDP). The first audit
assessed the National Solidarity Program (NSP), Afghanistan’s flagship com-
munity development program, which uses ARTF funds to support rural projects
and promote local governance. The second examined ANP personnel manage-
ment systems; the LOTFA funds most of the ANP’s salaries, allowances, and
benefits. SIGAR is currently conducting an audit of the ARTF, which supports
Afghanistan’s operating budget and its development budget.
   The United States, the single largest donor to the NSP, contributed $528 mil-
lion to the program from 2002 to 2010. SIGAR found that the World Bank, the
GIRoA, and the local communities benefitting from NSP projects have mecha-
nisms in place that provide reasonable assurance that NSP funds are being
used as intended. SIGAR also found that the NSP has made progress in provid-
ing development funding and local governance training to thousands of rural
communities in the more secure districts of the country. However, SIGAR is




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2011      29
AFGHANISTAN OVERVIEW




concerned that the NSP may not achieve one of its primary objectives: building
local governance. SIGAR is also concerned that the program will confront addi-
tional oversight and implementation challenges as it expands into less secure
areas. SIGAR made several recommendations to recover funds, strengthen over-
sight, and ensure that the NSP achieves its objectives. For a summary of these
audit findings and recommendations, see Section 1.
   SIGAR’s audit of the ANP personnel management systems found that although
the Ministry of Interior had improved its accounting systems, it could not com-
pletely verify ANP payroll costs and workforce strength. Since 2003, the United
States has contributed about $545 million to the LOTFA—more than a third of
the $1.5 billion donated by the international community—to fund ANP recurrent
costs (primarily salaries, benefits, and allowances). The UNDP provides most
of the oversight and monitoring of the LOTFA and ANP payroll costs, charging
a management fee for these services. SIGAR made recommendations to better
account for ANP personnel and payroll costs and to improve the UNDP’s moni-
toring and oversight of U.S. and other international donations to the LOTFA. For
more information on these audits, see Section 1.

CONGRESS PUTS ADDITIONAL RESTRICTIONS
ON THE USE OF ESF AND INCLE FUNDS
Reflecting concerns about accountability, corruption, and the status of women
in Afghanistan, the Congress set a number of additional conditions on the use of
ESF and INCLE funds. Before any funds may be obligated, the Appropriations
Act requires the Secretary of State, in consultation with the Administrator of
USAID, to certify and report to the congressional appropriations committees that
the U.S. government and the GIRoA have taken steps to improve governance,
deter corruption, and improve the status of women. The Secretary of State must
certify the following:
 • The GIRoA is demonstrating a commitment to reduce corruption, improve
   governance, and implement financial transparency.
 • The GIRoA is taking credible steps to protect the human rights of women.
 • The U.S. government has a unified anti-corruption strategy for Afghanistan.
 • Funds will be programmed to support and strengthen the capacity of Afghan
   public and private institutions and entities to reduce corruption and to
   improve transparency and accountability of national, provincial, and local
   governments.
 • Representatives of Afghan national, provincial, or local governments; local
   communities; and civil society organizations will be consulted and will par-
   ticipate in the design of programs, projects, and activities.
 • Funds will be used to train and deploy additional U.S. government direct-hire
   personnel to improve the monitoring and control of assistance.
 • A framework and methodology is being used to assess the fiduciary risks on
   the national, provincial, local, and sector levels relating to public financial
   management of U.S. government assistance.




  30               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                          AFGHANISTAN OVERVIEW




   SIGAR has conducted a number of audits that address most of these issues,
including recommending last year that the United States adopt and imple-
ment a comprehensive anti-corruption strategy. SIGAR is conducting audits
of Afghanistan’s banking sector, USAID’s local governance and community
development initiative, and the U.S. civilian surge that is intended to help build
Afghan capacity.
   The appropriations bill stipulated these conditions for the use of ESF and
INCLE funds:
 • To the maximum extent possible, these funds should be used to improve the
   political, social, and economic position of women and to protect the rights of
   Afghan women and girls.
 • These funds may be used to support the peace and reconciliation process
   provided (1) that Afghan women are participating at the national, provincial,
   and local levels of government in the design, policy formulation, and imple-
   mentation of the reintegration process; and (2) that the funds are not used
   to support any pardon or immunity from prosecution for any leader of an
   armed group responsible for crimes against humanity, war crimes, or other
   violations of internationally recognized human rights.
 • These funds may be made available as a U.S. contribution to the ARTF unless
   the Secretary of State determines that the World Bank’s monitoring agent is
   unable to conduct its financial control and audit responsibilities because of
   restrictions on security personnel by the GIRoA.
 • These funds may be used for a U.S. contribution to the NATO/ISAF Post-
   Operations Humanitarian Relief Fund.
The legislation also mandated that SIGAR, the DoS Office of Inspector General,
and the USAID Office of Inspector General jointly develop a coordinated audited
plan of U.S. assistance for, and civilian operations in, Afghanistan. This plan must
be submitted to the congressional committees on appropriations by the end of
May 2011.

BEGINNING THE TRANSITION: INTEQAL
During this reporting period, the United States, the international community,
and the GIRoA intensified their focus on implementing their strategy to have the
ANSF assume responsibility for security throughout Afghanistan by 2014. On
March 22, 2011, President Karzai announced that the transition (or inteqal) from
international security forces to Afghan security forces would begin in three prov-
inces (Panjshir, Bamyan, and Kabul) and in four districts (Herat, Lashkar Gah,
Mazar-e Sharif, and Mehter Lam). According to DoD, the transition is expected to
start this summer.
   The Joint Afghan NATO Inteqal Board (JANIB) is leading the process to
assess when a province is ready to begin the transition to security self-reliance.3
The JANIB, which is composed of senior Afghan and international leaders, has
emphasized that the transition will be conditions-based. The JANIB reports
directly to President Karzai.




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2011         31
AFGHANISTAN OVERVIEW




   In March, General David Petraeus, Commander of the NATO International
Security Assistance Force (ISAF) and U.S. Forces - Afghanistan (USFOR-A), told
the Senate Armed Services Committee that the “shifting of responsibility from
ISAF to Afghan forces will be conducted at a pace determined by conditions on
the ground, with assessments provided from the bottom up so that those at the
operational command level in Afghanistan can plan the ‘battlefield geometry’
with our Afghan partners.”4 General Petraeus said the transition “will see our
forces thinning out, not just handing off, with reinvestment of some of the forces
freed up by transition in contiguous areas or in training missions where more
work is needed.”5

Increasing ANSF Strength
During this reporting period, ISAF and the Afghan ministries recommended
increasing the authorized strength of the ANSF to facilitate the transition. The
ANA would grow from 171,600 to 195,000, and the ANP would grow from 134,000
to 170,000 by November 2012. The U.S. government—which provides the vast
majority of the funding to train, equip, and house the ANA and ANP—approved
this increase after internal debate. Final approval must come from the Joint
Coordination and Monitoring Board, which coordinates and approves major
development programs. The Board is composed of senior Afghan officials and
international representatives involved in Afghanistan’s reconstruction.
   In his testimony before the Senate Armed Services Committee in February,
Secretary of Defense Robert Gates said the debate within the U.S. administra-
tion over whether to support an increase in the size of the ANSF revolved around
two considerations—the desire to have the ANSF assume responsibility for
Afghanistan’s security and the issue of whether a larger ANSF was sustainable.
Secretary Gates noted that it was more a question of what the United States
could sustain than what the GIRoA could sustain. He stated that any increase
should be viewed as a temporary surge. “The sustainability issue,” he said, “at
least for the next number of years, is more what the U.S. can sustain because the
Afghans’ ability to sustain a military force would be a fraction of the size of what
they already have, much less what they may increase to, which is why I think
of their force more in terms of a surge like ours.” Secretary Gates said the goal
was to defeat or degrade the Taliban to the point that eventually a smaller ANSF
could maintain control.6 Senior U.S. and international officials have noted that a
successful transition cannot be completed without making progress in improving
governance and the economy. In March, General Petraeus told the Senate Armed
Services Committee that there was “a keen awareness that transition requires
much more than just the security foundation.” He said, “You cannot succeed with
transition if you haven’t built on that foundation adequately in the governance
and development arenas.”7




  32                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                           AFGHANISTAN OVERVIEW




Other Factors Affecting the Transition
This quarter, two other developments will affect the transition. First, the
GIRoA decided to allow private security companies to continue to operate in
Afghanistan under certain conditions for the next year. This will enable recon-
struction to continue to be implemented. Second, the financial crisis over the
future of the Kabul Bank continued, putting U.S. and international donor sup-
port for the GIRoA at risk. Both of these developments are discussed in detail in
Section 3.

LOOKING FORWARD
In February, President Obama submitted his FY 2012 budget request with
approximately $17.3 billion in assistance for Afghanistan. The request included
funds for the following:
 • $12.8 billion for the Afghan Security Forces Fund
 • $2.8 billion for the Economic Support Fund
 • $400 million for the Commander’s Emergency Response Program
 • $475 million for the Afghanistan Infrastructure Fund
 • $333.3 million for the Drug Interdiction and Counter-Drug Activities Fund
 • $324 million for the International Narcotics Control and Law Enforce-
    ment account
If approved, this would be the largest appropriation of funds for the reconstruc-
tion of Afghanistan in a single year since the United States overthrew the Taliban
in 2002.
    The next three years are critical for the United States and its international
allies as they implement programs in security, governance, and development to
facilitate the transition from ISAF to the ANSF. Providing oversight of this critical
and complex effort requires a multifaceted approach to conducting audits and
investigations. SIGAR’s audit plan includes a broad range of audits that assess
individual projects and large programs. In addition to reviewing major contracts
to identify waste, fraud, and abuse to ensure that the U.S. taxpayer money is
being spent honestly and wisely, SIGAR is assessing reconstruction programs
implemented by multiple agencies to ascertain program outcomes. SIGAR is
concentrating its investigative resources on identifying and building criminal
cases against individuals and companies involved in major contract fraud and
corruption. SIGAR is coordinating its audit and investigative efforts with other
inspectors general and federal law enforcement agencies to ensure maximum
oversight of funds appropriated by the Congress for Afghanistan reconstruction.




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2011         33
              Clearing the Roads
              U.S. Army engineers, in cooperation with the GIRoA and
              Afghan security forces, rebuild roads in eastern Afghanistan
              in February 2011 after clearing bombs from the roadbed.
              The $5 million project includes three asphalt and three
              cobblestone roads spanning nearly 43 kilometers in the
              Khogyani and Sherzad districts. (U.S. Army photo)




34   SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
3   RECONSTRUCTION
    UPDATE




       35
            RECONSTRUCTION UPDATE




 “Again, it’s not enough just to clear and
   hold: you do have to build. And the
  build includes local governance, local
economic revival, improvements in basic
services, and so forth, so that the Afghan
  people see that there’s a better future
by supporting the Afghan government…
  rather than a return to the repressive
            days of the Taliban.”
                               —General David H. Petraeus




            Source: General David H. Petraeus, Testimony before the Senate Armed Services Committee on Afghanistan, 3/15/2011.




                36                        SPECIAL INSPECTOR GENERAL                I   AFGHANISTAN RECONSTRUCTION
               RECONSTRUCTION UPDATE




OVERVIEW
Section 3 presents a holistic view of reconstruction efforts in Afghanistan during
this reporting period. Updates on accomplishments, challenges, and local initia-
tives provide context for the oversight that is needed in reconstruction efforts.
Sidebars throughout the section identify SIGAR audits—both completed and
ongoing—related to those efforts; for ongoing audits, cross-references direct the
reader to more information in Section 1.
   Section 3 is divided into four subsections: Status of Funds, Security, Governance,
and Economic and Social Development. The Security, Governance, and Economic
and Social Development subsections mirror the three pillars reflected in the
Prioritization and Implementation Plan announced by the Government of the
Islamic Republic of Afghanistan (GIRoA) in 2010 and originally set forth in the 2008
Afghanistan National Development Strategy.

TOPICS
Section 3 discusses four broad topics: historical and current funding information,
security conditions, governance activities, and economic and social development
programs. The section also provides information on the progress of efforts to
reduce corruption and combat the narcotics trade in Afghanistan.
   The Status of Funds subsection contains a comprehensive discussion of
the monies appropriated, obligated, and disbursed for Afghanistan reconstruc-
tion. It includes specific information on major U.S. funds and international
contributions.
   The Security subsection details U.S. efforts to bolster the Afghan National
Security Forces and discusses U.S. and international efforts to improve security
in the country. This subsection focuses on programming to improve the Afghan
National Army and Afghan National Police, including training, equipping, and
infrastructure development. This subsection also discusses the ongoing battle
against the Afghan narcotics trade.
   The Governance subsection provides an overview of the GIRoA’s progress
toward achieving good governance. This subsection focuses on the resolution
of the September 2010 elections, the status of reintegration and reconciliation,
capacity building, rule of law, and human rights development. The section also
highlights U.S. and GIRoA initiatives to combat corruption.
   The Economic and Social Development subsection looks at reconstruction
activities by sector, ranging from agriculture and mining to health services. It



            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2011         37
RECONSTRUCTION UPDATE




provides a snapshot of the state of the economy and updates on progress in
regulating financial networks, achieving fiscal sustainability, and delivering
essential services.

METHODOLOGY
Section 3 was compiled using information and data from open sources and U.S.
agencies. All data and information is attributed to the reporting organization in
endnotes to the text or notes to the tables and figures; because multiple organiza-
tions provide the data, numbers may conflict. Except for references to SIGAR
audits or investigations in the text or in sidebars, SIGAR has not verified this
data, and it does not reflect SIGAR opinions. For a complete discussion of SIGAR
audits and investigations this quarter, see Section 1.

DATA CALL
The data call is a series of questions directed to U.S. agencies about their contri-
butions and involvement in reconstruction programming, and the state of affairs
in Afghanistan. The U.S. agencies that participated in the data call for this quar-
terly report include the following:
 • U.S. Department of State
 • U.S. Department of Defense
 • U.S. Agency for International Development
 • U.S. Department of the Treasury
A preliminary draft of the report was provided to the responding agencies
prior to publication to allow these agencies to verify and clarify the content
of this section.

OPEN-SOURCE RESEARCH
Open-source research draws on the most current, publicly available data from
reputable sources. A representative list of sources used in this quarterly report
includes the following:
 • U.S. agencies represented in the data call
 • International Security Assistance Force
 • United Nations (and relevant branches)
 • International Monetary Fund
 • World Bank
 • Asian Development Bank
 • GIRoA ministries and other Afghan government organizations
Most of the open-source research is included in the preliminary draft that is
distributed to agencies participating in the data call for review before this report
is published.




  38                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                               GRAPHICS KEY




UNDERSTANDING THE GRAPHICS
All figures and tables report data for this quarter, except where identified in titles or notes.



BAR CHARTS                                                               HEAT MAPS
This report discusses many funds and projects with                       Heat maps assign colors to provinces, based on
dollar values ranging from millions to billions. To                      pertinent data. Each color represents a data set,
provide an accurate graphical representation of these                    defined in a legend; darker colors represent larger
numbers, some bar graphs appear with a break (a                          numbers, lighter colors show smaller numbers.
wavy line) to indicate a jump between zero and a
larger number.


     $500                         $200

     $450
                                  $150
     $400
                                  $100
     $350

                                   $50                                                                            0
                                                                                                                  1–20
                                                                                                                  21–40
       $0                           $0                                                                            41–200
                                                                                                                  201–429
            Bar chart with a             Bar chart without
             break in scale              a break in scale


DISTINGUISHING BILLIONS AND MILLIONS                                     FUNDING MARKERS
Because this report details funding in both billions                     Funding markers identify individual funds discussed
and millions of dollars, it uses a visual cue to distin-                 in the text. The agency responsible for managing the
guish the two measurement units. Dollars reported in                     fund is listed in the tan box below the fund name.
billions are represented in blue, and dollars reported
in millions are depicted in green.




                                                                                                     ESF



                                                                                                    USAID



       Pie Chart in Billions         Pie Chart in Millions




              REPORT TO THE UNITED STATES CONGRESS       I   APRIL 30, 2011             39
TITLE OF THE SECTION




 40    SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                  STATUS OF FUNDS




STATUS OF FUNDS
As of March 31, 2011, the United States had appropriated approximately
$61.78 billion for relief and reconstruction in Afghanistan since FY 2002. This
cumulative funding total reflects FY 2011 appropriations reported by agencies
under continuing resolutions. It omits amounts appropriated in P.L. 112-10, the
Department of Defense (DoD) and Full-Year Continuing Appropriations Act
of 2011, which was signed on April 15, 2011. This cumulative funding has been
allocated as follows:
• $34.81 billion for security
• $16.16 billion for governance and development
• $4.54 billion for counter-narcotics efforts
• $2.11 billion for humanitarian aid
• $4.17 billion for oversight and operations
Figure 3.1 shows the major U.S. funds that contribute to these efforts.


FIGURE 3.1

U.S. FUNDS SUPPORTING AFGHANISTAN RECONSTRUCTION EFFORTS ($ BILLIONS)


                                       FUNDING SOURCES (TOTAL: $61.78)a
                                                                                                                                   ASFF: Afghanistan Security Forces Fund
       ASFF                 CERP                 DoD CN                  ESF                  INCLE                 Other
                                                                                                                                   CERP: Commander’s Emergency
     $33.29                 $2.64                 $1.55                $11.14                $2.86                 $10.30
                                                                                                                                   Response Program

                                                                                                                                   DoD CN: DoD Drug Interdiction and
                                                          AGENCIES
                                                                                                                                   Counter-Drug Activities
                                                                                         Department of           Distributed
                Department of Defense (DoD)                            USAID                                     to Multiple
                                                                                          State (DoS)
                         $37.48                                        $11.14                                     Agenciesb
                                                                                                                                   ESF: Economic Support Fund
                                                                                             $2.86

                                                                                                                                   INCLE: International Narcotics Control
Notes: Numbers affected by rounding.
a. FY 2011 funds reflect only amounts made available under continuing resolutions, not amounts made available under P.L. 112-10.   and Law Enforcement
b. Multiple agencies include DoD, DoJ, DoS, USAID, Treasury, and USDA.
Sources: DoD, responses to SIGAR data call 4/15/2011, 4/14/2011, 10/14/2009, and 10/1/2009; P.L. 111-212, 10/29/2010;
P.L. 111-118, 12/19/2009; FY 2010 Defense Explanatory Statement; DoS, responses to SIGAR data call, 4/14/2011, 4/12/2011,          Other: Other Funding
and 4/11/2011; Treasury, response to SIGAR data call, 4/08/2011; OMB, responses to SIGAR data call, 3/1/2011 and
4/19/2010; USAID, responses to SIGAR data call, 4/14/2011, 10/15/2010, 1/15/2010, and 10/9/2009; DoJ, response to
SIGAR data call, 7/7/2009; USDA, response to SIGAR data call, 4/2009.




                   REPORT TO THE UNITED STATES CONGRESS                        I   APRIL 30, 2011                      41
                                                                  STATUS OF FUNDS




                                                                  U.S. RECONSTRUCTION FUNDING FOR AFGHANISTAN
  ASFF      CERP DoD CN            ESF     INCLE                  As of March 31, 2011, cumulative appropriations for relief and reconstruction
                                                                  in Afghanistan totaled approximately $61.78 billion. This total can be divided
                                                                  into five major categories of reconstruction funding: security, governance and
            DoD                USAID       DoS
                                                                  development, counter-narcotics, humanitarian, and oversight and operations.
                                                                  For complete information regarding U.S. appropriations, see Appendix B.
                                                                     Including amounts appropriated while operating under continuing resolu-
The amount provided to the five major
                                                                  tions, cumulative appropriations as of FY 2011 increased by almost 9.9% over
U.S. funds represents over 83.3% (nearly
                                                                  cumulative appropriations through FY 2010, as shown in Figure 3.2. Efforts to
$51.49 billion) of total reconstruction
assistance in Afghanistan since FY 2002.                          build and train the Afghan National Security Forces (ANSF) have received the
Of this amount, almost 85.0% (nearly                              majority of reconstruction funding since FY 2002. Cumulative appropriations
$43.75 billion) has been obligated, and                           for security (over $34.81 billion) account for more than 56.3% of total U.S.
nearly 72.2% (almost $37.15 billion) has                          reconstruction assistance.
been disbursed. The following pages provide                          Figure 3.3 on the facing page displays annual appropriations by funding cat-
additional details on these funds.                                egory from FY 2002 to FY 2011. The bars show the dollar amounts appropriated,
                                                                  and the pie charts show the proportions of the total appropriated by category.
                                                                  These figures reflect amounts as reported by the respective agencies and
                                                                  amounts appropriated in the following legislation:


FIGURE 3.2

CUMULATIVE APPROPRIATIONS BY FUNDING CATEGORY, AS OF MARCH 31, 2011 ($ BILLIONS)
                                                                                                                                                                               $61.78
  $60
                                                                                                                                                              $56.22
  $55
  $50
  $45
                                                                                                                                             $39.70
  $40
  $35
  $30                                                                                                                     $29.23

  $25                                                                                                  $23.04
  $20
  $15                                                                                 $13.01
  $10                                                                $9.53
                                                   $4.68
    $5                             $2.08
               $1.06
    $0
               2002                2003            2004              2005              2006              2007              2008              2009             2010             2011a


                        Security            Governance/Development             Counter-Narcotics           Humanitarian            Oversight and Operations            Total
Note: Numbers affected by rounding.
a. FY 2011 funds reflect only amounts made available under continuing resolutions, not amounts made available under P.L. 112-10.
Sources: DoD, responses to SIGAR data call 4/15/2011, 4/14/2011, 10/14/2009, and 10/1/2009; P.L. 111-212, 10/29/2010; P.L. 111-118, 12/19/2009; FY 2010 Defense Explanatory Statement;
DoS, responses to SIGAR data call, 4/14/2011, 4/12/2011, and 4/11/2011; Treasury, response to SIGAR data call, 4/08/2011; OMB, responses to SIGAR data call, 3/1/2011 and 4/19/2010; USAID,
responses to SIGAR data call, 4/14/2011, 10/15/2010, 1/15/2010, and 10/9/2009; DoJ, response to SIGAR data call, 7/7/2009; USDA, response to SIGAR data call, 4/2009.




                                                                      42                           SPECIAL INSPECTOR GENERAL             I   AFGHANISTAN RECONSTRUCTION
                                                                  STATUS OF FUNDS




• the FY 2010 Supplemental Appropriations Act
• the FY 2010 Department of Defense Appropriations Act
• the FY 2010 Consolidated Appropriations Act
   As shown in Figure 3.3, appropriations under FY 2011 continuing resolutions
amount to almost $5.56 billion. The amount appropriated in FY 2011 will increase
substantially under P.L. 112-10. At press time, amounts appropriated to DoS and
USAID were not known. Amounts appropriated for DoD included the following:
• nearly $11.62 billion for the ASFF
• $400.00 million for the Afghanistan Infrastructure Fund (AIF)
• $400.00 million for CERP
• $150.00 million for the DoD Task Force for Business and Stability Operations
Figures reported as of March 31, 2011, include more than $5.46 billion of FY 2011
funds for the ASFF that had already been appropriated under continuing resolutions.

FIGURE 3.3


APPROPRIATIONS BY FISCAL YEAR, AMOUNT, AND PERCENTAGE                                 ($ BILLIONS)

                                                                                                                                                              $16.52
       $16
       $15
       $14
       $13
       $12
       $11                                                                                                                                    $10.47
                                                                                                            $10.03
       $10
         $9
         $8
         $7                                                                                                                   $6.19
         $6                                                                                                                                                               $5.56
                                                                         $4.85
         $5
         $4                                                                                $3.48
         $3                                            $2.60
         $2
                   $1.06             $1.01
         $1
         $0
                     2002             2003              2004             2005              2006              2007              2008            2009           2010        2011a


Percentage




                         Security            Governance/Development              Counter-Narcotics          Humanitarian           Oversight and Operations       Total

Note: Numbers affected by rounding.
a. FY 2011 funds reflect only amounts made available under continuing resolutions, not amounts made available under P.L. 112-10.
Sources: DoD, responses to SIGAR data call 4/15/2011, 4/14/2011, 10/14/2009, and 10/1/2009; P.L. 111-212, 10/29/2010; P.L. 111-118, 12/19/2009; FY 2010 Defense Explanatory Statement;
DoS, responses to SIGAR data call, 4/14/2011, 4/12/2011, and 4/11/2011; Treasury, response to SIGAR data call, 4/08/2011; OMB, responses to SIGAR data call, 3/1/2011 and 4/19/2010;
USAID, responses to SIGAR data call, 4/14/2011, 10/15/2010, 1/15/2010, and 10/9/2009; DoJ, response to SIGAR data call, 7/7/2009; USDA, response to SIGAR data call, 4/2009.




                  REPORT TO THE UNITED STATES CONGRESS                       I   APRIL 30, 2011                        43
                                                       STATUS OF FUNDS




                                                       AFGHANISTAN SECURITY FORCES FUND
  ASFF                                                 The Congress created the Afghanistan Security Forces Fund (ASFF) to provide
                                                       the Afghan National Security Forces (ANSF) with equipment, supplies, ser-
                                                       vices, and training, as well as facility and infrastructure repair, renovation, and
            DoD                                        construction.8 The primary organization responsible for building the ANSF is
                                                       the North Atlantic Treaty Organization (NATO) Training Mission - Afghanistan/
                                                       Combined Security Transition Command - Afghanistan.9
ASFF FUNDS TERMINOLOGY
                                                          DoD reported that the FY 2011 Continuing Appropriations Act provided more
DoD reported ASFF funds as available,                  than $5.46 billion for the ASFF, bringing the cumulative amount appropriated for
obligated, or disbursed.                               this fund to more than $33.29 billion.10 Of this amount, nearly $28.06 billion has
Available: Total monies available for                  been obligated, of which more than $24.82 billion has been disbursed.11 Figure
commitments                                            3.4 displays the amounts made available for the ASFF by fiscal year.
Obligations: Commitments to pay monies                    DoD reported that cumulative obligations as of March 31, 2011, increased
Disbursements: Monies that have been                   by almost $2.63 billion over cumulative obligations as of December 31, 2010.
expended                                               Cumulative disbursements as of March 31, 2011, increased by more than
Source: DoD, response to SIGAR data call, 4/13/2010.
                                                       $1.74 billion over cumulative disbursements as of December 31, 2010.12 Figure 3.5
                                                       provides a cumulative comparison of amounts made available, obligated, and
                                                       disbursed for the ASFF.

                                                       FIGURE 3.4                                                   FIGURE 3.5

                                                       ASFF AVAILABLE FUNDS BY FISCAL YEAR                          ASFF FUNDS, CUMULATIVE COMPARISON
                                                       ($ BILLIONS)                                                 ($ BILLIONS)



                                                       $10.0                                                        $35.0
                                                                                                                                                                   Available
                                                                                                                                                                   $33.29
                                                        $8.0
                                                                                                                    $30.0                 Available
                                                                                                                                          $29.40
                                                                                                                                                                   Obligated
                                                        $6.0                                                                                                       $28.06
                                                                                                                                          Obligated
                                                                                                                    $25.0                 $25.43                   Disbursed
                                                                                                                                                                   $24.82
                                                                                                                                          Disbursed
                                                        $4.0
                                                                                                                                          $23.08


                                                                                                                    $20.0
                                                        $2.0



                                                          $0                                                             $0
                                                               2005 06          07     08      09     10      11a             As of Dec 31, 2010      As of Mar 31, 2011a

                                                       Note: Numbers affected by rounding.                          Note: Numbers affected by rounding.
                                                       a. FY 2011 funds reflect only amounts made available under   a. FY 2011 funds reflect only amounts made available under
                                                       continuing resolutions, not amounts made available under     continuing resolutions, not amounts made available under
                                                       P.L. 112-10.                                                 P.L. 112-10.
                                                       Source: DoD, response to SIGAR data call, 4/15/2011.         Source: DoD, response to SIGAR data call, 4/15/2011.




                                                          44                         SPECIAL INSPECTOR GENERAL       I   AFGHANISTAN RECONSTRUCTION
                                                       STATUS OF FUNDS




ASFF Budget Activities
DoD allocates funds to three budget activity groups within the ASFF:13                                              Budget Activity Groups: categories
 • Defense Forces (Afghan National Army, ANA)                                                                       within each appropriation or fund
 • Interior Forces (Afghan National Police, ANP)                                                                    account that identify the purposes,
 • Related Activities (primarily Detainee Operations)                                                               projects, or types of activities financed
Funds for each budget activity group are further allocated to four sub-activity                                     by the appropriation or fund
groups: Infrastructure, Equipment and Transportation, Training and Operations,
                                                                                                                    Sub-Activity Groups: accounting
and Sustainment.14
                                                                                                                    groups that break down the command’s
   As of March 31, 2011, DoD had disbursed more than $24.82 billion for ANSF
                                                                                                                    disbursements into functional areas
initiatives. Of this amount, nearly $15.86 billion was disbursed for the ANA, and
almost $8.83 billion was disbursed for the ANP; the remaining nearly $0.14 billion
was directed to related activities.15                                                                             Sources: DoD, “Manual 7110.1-M Department
                                                                                                                  of Defense Budget Guidance Manual,” accessed
   As shown in Figure 3.6, of the funds disbursed for the ANA, the largest por-                                   9/28/2009; Depar tment of the Navy, “Medical Facility
                                                                                                                  Manager Handbook,” p. 5, accessed 10/2/2009.
tion—nearly $7.10 billion—supported Equipment and Transportation. Of the
funds disbursed for the ANP, the largest portion—more than $2.90 billion—also
supported Equipment and Transportation, as shown in Figure 3.7.16




FIGURE 3.6                                              FIGURE 3.7

ASFF DISBURSEMENTS FOR THE ANA                          ASFF DISBURSEMENTS FOR THE ANP
By Sub-Activity Group,                                  By Sub-Activity Group,
FY 2005–March 31, 2011 ($ BILLIONS)                     FY 2005–March 31, 2011 ($ BILLIONS)


                      Total: $15.86                                            Total: $8.83
                                                                                                 Infrastructure
                                                                                                 $1.53


             Equipment and Sustainment                                 Sustainment
             Transportation $4.75                                      $2.55
             $7.10




         Training and                 Infrastructure            Training and                  Equipment and
         Operations                   $2.51                     Operations                    Transportation
         $1.50                                                  $1.85                         $2.90


Note: Numbers affected by rounding.                     Note: Numbers affected by rounding.
Source: DoD, response to SIGAR data call, 4/15/2011.    Source: DoD, response to SIGAR data call, 4/15/2011.




                  REPORT TO THE UNITED STATES CONGRESS      I   APRIL 30, 2011                       45
                                                        STATUS OF FUNDS




                                                        COMMANDER’S EMERGENCY RESPONSE PROGRAM
           CERP                                         The Commander’s Emergency Response Program (CERP) enables U.S. command-
                                                        ers in Afghanistan to respond to urgent humanitarian relief and reconstruction
                                                        requirements in their areas of responsibility by supporting programs that will
           DoD                                          immediately assist the local population. Funding under this program is intended
                                                        for small projects that are estimated to cost less than $500,000 each.17 Projects
                                                        with cost estimates exceeding $1.00 million are permitted, but they require approval
CERP FUNDS TERMINOLOGY
                                                        from the Commander of U.S. Central Command; projects over $5.00 million require
OMB reported CERP funds as appropriated.                approval from the Deputy Secretary of Defense.18
Appropriations: Total monies available for                 As of March, 31, 2011, DoD reported that the total cumulative funding for
commitments                                             CERP amounted to nearly $2.64 billion.19 DoD reported that of this amount, more
                                                        than $2.02 billion had been obligated, of which nearly $1.61 billion has been dis-
DoD reported CERP funds as appropriated,                bursed.20 Figure 3.8 shows CERP appropriations by fiscal year.
obligated, or disbursed.
                                                           DoD reported that cumulative obligations as of March 31, 2011, increased
Appropriations: Total monies available for
                                                        by almost $29.06 million over cumulative obligations as of December 31, 2010.
commitments
Obligations: Commitments to pay monies
                                                        Cumulative disbursements as of March 31, 2010, increased by nearly $72.22 million
Disbursements: Monies that have been                    over cumulative disbursements as of December 31, 2010.21 Figure 3.9 provides a
expended                                                cumulative comparison of amounts appropriated, obligated, and disbursed for
                                                        CERP projects.
Sources: OMB, response to SIGAR data call, 4/19/2010;
DoD, response to SIGAR data call, 4/14/2010.



                                                        FIGURE 3.8                                                   FIGURE 3.9

                                                        CERP APPROPRIATIONS BY FISCAL YEAR                           CERP FUNDS, CUMULATIVE COMPARISON
                                                        ($ MILLIONS)                                                 ($ BILLIONS)

                                                                                                                                        Appropriated                Appropriated
                                                        $1,000                                                       $2.5               $2.64                       $2.64



                                                         $800                                                        $2.0               Obligated                   Obligated
                                                                                                                                        $1.99                       $2.02
                                                                                                                                                                    Disbursed
                                                                                                                                         Disbursed
                                                         $600                                                        $1.5                                           $1.61
                                                                                                                                         $1.54


                                                         $400                                                        $1.0


                                                         $200                                                        $0.5


                                                            $0                                                        $0
                                                                 2004 05     06    07    08    09    10    11a              As of Dec 31, 2010         As of Mar 31, 2011a

                                                        Notes: Data may include inter-agency transfers.              Notes: Data may include inter-agency transfers.
                                                        a. FY 2011 funds reflect only amounts made available under   a. FY 2011 funds reflect only amounts made available under
                                                        continuing resolutions, not amounts made available under     continuing resolutions, not amounts made available under
                                                        P.L. 112-10.                                                 P.L. 112-10.
                                                        Sources: DoD, response to SIGAR data call, 4/15/2011; OMB,   Sources: DoD, response to SIGAR data call, 4/15/2011; OMB,
                                                        response to SIGAR data call, 3/1/2011.                       response to SIGAR data call, 3/1/2011.




                                                            46                        SPECIAL INSPECTOR GENERAL         I   AFGHANISTAN RECONSTRUCTION
                                                              STATUS OF FUNDS




DoD DRUG INTERDICTION AND COUNTER-DRUG ACTIVITIES
DoD’s Drug Interdiction and Counter-Drug Activities fund (DoD CN) supports                                                                      DoD CN
efforts to stabilize Afghanistan by combating the drug trade and related activi-
ties. The DoD CN provides support to the counter-narcotics effort by supporting
military operations against drug traffickers; expanding Afghan interdiction opera-                                                       DoD
tions; and building the capacity of Afghan law enforcement—including Afghan
Border Police—with specialized training, equipment, and facilities.22                                                        DoD CN FUNDS TERMINOLOGY
   Figure 3.10 shows DoD CN appropriations by fiscal year. DoD reported that
cumulative obligations and disbursements as of March 31, 2011, increased by                                                  DoD reported DoD CN funds as appropriated,
almost $116.51 million over cumulative obligations and disbursements as of                                                   obligated, or disbursed.
December 31, 2010.23 Figure 3.11 provides a cumulative comparison of amounts                                                 Appropriations: Total monies available for
appropriated, obligated, and disbursed for DoD CN projects.                                                                  commitments
                                                                                                                             Obligations: Commitments to pay monies
                                                                                                                             Disbursements: Monies that have been
                                                                                                                             expended

                                                                                                                             Source: DoD, response to SIGAR data call, 4/13/2010.




FIGURE 3.10                                                  FIGURE 3.11

DOD CN APPROPRIATIONS BY                                     DOD CN FUNDS, CUMULATIVE COMPARISON
                                                             ($ BILLIONS)
FISCAL YEAR ($ MILLIONS)

$400                                                         $1.55                                            Appropriated
                                                                                                              $1.55
                                                                                                              Obligated
$350                                                                                 Appropriated             $1.55
                                                             $1.50                   $1.51
                                                                                                              Disbursed
$300                                                                                                          $1.55

                                                             $1.45
$250
                                                                                     Obligated
                                                                                     $1.43
$200
                                                             $1.40                   Disbursed
                                                                                     $1.43
$150

                                                             $1.35
$100

 $50

   $0                                                           $0
        2004 05 06 07 08 09 10 11a                                    As of Dec 31, 2010            As of Mar 31, 2011a

Notes: Numbers affected by rounding. Data may include         Note: Numbers affected by rounding.
inter-agency transfers.                                       a. FY 2011 funds reflect only amounts made available under
a. FY 2011 funds reflect only amounts made available under    continuing resolutions, not amounts made available under
continuing resolutions, not amounts made available under      P.L. 112-10.
P.L. 112-10.                                                  Sources: DoD, response to SIGAR data call, 4/15/2011.
Source: DoD, response to SIGAR data call, 4/14/2011.




                   REPORT TO THE UNITED STATES CONGRESS                     I   APRIL 30, 2011                     47
                                                        STATUS OF FUNDS




                                                        ECONOMIC SUPPORT FUND
                               ESF                      Economic Support Fund programs advance U.S. interests by helping countries
                                                        meet short- and long-term political, economic, and security needs. ESF programs
                                                        support counter-terrorism; bolster national economies; and assist in the develop-
                              USAID                     ment of effective, accessible, independent legal systems for a more transparent
                                                        and accountable government.24 P.L. 112-10 placed limitations on FY 2011 ESF funds
ESF FUNDS TERMINOLOGY
                                                        made available for assistance to Afghanistan by restricting obligations until DoS and
                                                        USAID certify and report to the Committees on Appropriations that the GIRoA is
USAID reported ESF funds as appropriated,               “demonstrating a commitment to reduce corruption and improve governance.”25
obligated, or disbursed.                                   As of March 31, 2011, USAID reported that the total cumulative funding for ESF
Appropriations: Total monies available                  amounted to more than $11.14 billion.26 Figure 3.12 shows ESF appropriations by
for commitments                                         fiscal year. Of this amount, more than $9.57 billion had been obligated, of which
Obligations: Commitments to pay monies                  nearly $7.38 billion had been disbursed.27
Disbursements: Monies that have been                       USAID reported that cumulative obligations as of March, 31, 2011, increased
expended
                                                        by almost $1.53 million since December 31, 2010. Cumulative disbursements as of
Sources: OMB, response to SIGAR data call, 4/19/2010;   March 31, 2011, increased by more than $644.17 million over cumulative disburse-
USAID, response to SIGAR data call, 4/15/2010.
                                                        ments as of December 31, 2010.28 Figure 3.13 provides a cumulative comparison of
                                                        the amounts appropriated, obligated, and disbursed for ESF programs.

                                                        FIGURE 3.12                                                  FIGURE 3.13


                                                        ESF APPROPRIATIONS BY FISCAL YEAR                            ESF FUNDS, CUMULATIVE COMPARISON
                                                        ($ BILLIONS)                                                 ($ BILLIONS)



                                                                                                                                          Appropriated                    Appropriated
                                                        $3.5                                                         $11.0
                                                                                                                                          $11.14                          $11.14

                                                        $3.0                                                         $10.0
                                                                                                                                          Obligated                       Obligated
                                                                                                                                          $9.57                           $9.57
                                                        $2.5                                                          $9.0


                                                                                                                      $8.0
                                                        $2.0
                                                                                                                                                                          Disbursed
                                                                                                                      $7.0                                                $7.38
                                                        $1.5                                                                              Disbursed
                                                                                                                                          $6.74
                                                                                                                      $6.0
                                                        $1.0


                                                        $0.5


                                                          $0                                                            $0
                                                               2002 03 04 05 06 07 08 09 10 11a                               As of Dec 31, 2010             As of Mar 31, 2011a

                                                        Notes: Data may include inter-agency transfers. Numbers       Notes: Data may include inter-agency transfers. Numbers affected
                                                        affected by rounding. Updated figures reported by USAID       by rounding. USAID did not report an increase in amount
                                                        resulted in a slight decrease in FY 2009 appropriations.      appropriated for ESF under continuing resolutions for FY 2011.
                                                        a. FY 2011 funds reflect only amounts made available under    a. FY 2011 funds reflect only amounts made available under
                                                        continuing resolutions, not amounts made available under      continuing resolutions, not amounts made available under
                                                        P.L. 112-10.                                                  P.L. 112-10.
                                                        Sources: USAID, response to SIGAR data call, 4/14/2011;       Sources: USAID, response to SIGAR data call, 4/14/2011; H.R.
                                                        H.R. 4899, FY 2010 Supp. Appropriations Bill, 7/29/2010.      4899, FY 2010 Supplemental Appropriations Bill, 7/29/2010.




                                                           48                         SPECIAL INSPECTOR GENERAL               I     AFGHANISTAN RECONSTRUCTION
                                                                STATUS OF FUNDS




INTERNATIONAL NARCOTICS CONTROL & LAW ENFORCEMENT
The U.S. Bureau of International Narcotics and Law Enforcement Affairs (INL)                                                                                                 INCLE
manages the International Narcotics Control and Law Enforcement (INCLE)
account, which supports several INL program groups, including police, counter-
narcotics, and rule of law and justice.29 P.L. 112-10 placed limitations on FY 2011                                                                                           DoS

INCLE funds made available for assistance to Afghanistan by restricting obligations
until DoS and USAID certify to the Committees on Appropriations that the GIRoA is                                                    INL FUNDS TERMINOLOGY
“demonstrating a commitment to reduce corruption and improve governance.”30
   INL reported that the FY 2011 Continuing Appropriations Act provided nearly                                                       INL reported INCLE and other INL funds
$7.98 million for INCLE initiatives, bringing the total cumulative funding for                                                       as allotted, obligated, or liquidated.
INCLE to over $2.86 billion.31 Figure 3.14 displays INCLE allotments by fiscal                                                       Allotments: Total monies available
year. Of this amount, nearly $2.55 billion had been obligated, of which more than                                                    for commitments
$1.79 billion has been liquidated.32                                                                                                 Obligations: Commitments to pay monies
   INL reported that cumulative obligations as of March 31, 2011, increased                                                          Liquidations: Monies that have been expended
by almost $76.24 million over cumulative obligations as of December 31, 2010.                                                        Source: DoS, response to SIGAR data call, 4/9/2010.
Cumulative liquidations as of March 31, 2011, increased by more than $38.47 mil-
lion over cumulative liquidations as of December 31, 2010.33 Figure 3.15 provides a
cumulative comparison of amounts allotted, obligated, and liquidated for INCLE.

FIGURE 3.14                                                  FIGURE 3.15


INCLE ALLOTMENTS BY FISCAL YEAR                              INCLE FUNDS, CUMULATIVE COMPARISON
($ MILLIONS)                                                 ($ BILLIONS)



$700                                                         $3.0
                                                                                       Allotted                      Allotted
                                                                                       $2.86                         $2.86
$600
                                                                                                                     Obligated
                                                             $2.5                      Obligated                     $2.55
$500                                                                                   $2.47


$400
                                                             $2.0

$300                                                                                   Liquidated                    Liquidated
                                                                                       $1.75                         $1.79

$200                                                         $1.5


$100


  $0                                                           $0
       2002 03 04 05 06 07 08 09 10 11a                                 As of Dec 31, 2010            As of Mar 31, 2011a

Notes: Numbers affected by rounding. Data may include        Notes: Numbers affected by rounding. Data may include inter-agency
inter-agency transfers.                                      transfers. FY 2011 funds reflect amounts made available under
a. FY 2011 funds reflect only amounts made available under   continuing resolutions. Updated data resulted in a lower disbursement
continuing resolutions, not amounts made available under     figure than that reported as of 12/31/2010.
P.L. 112-10.                                                 a. FY 2011 funds reflect only amounts made available under continuing
                                                             resolutions, not amounts made available under P.L. 112-10.
Sources: DoS, response to SIGAR data call, 4/12/2011; H.R.
4899, FY 2010 Supplemental Appropriations Bill, 7/29/2010.   Sources: DoS, responses to SIGAR data call, 4/12/2011; H.R. 4899,
                                                             FY 2010 Supplemental Appropriations Bill, 7/29/2010.




                   REPORT TO THE UNITED STATES CONGRESS                     I   APRIL 30, 2011                         49
                                            STATUS OF FUNDS




                                            INTERNATIONAL RECONSTRUCTION
SIGAR AUDIT                                 FUNDING FOR AFGHANISTAN
                                            In addition to assistance provided by the United States, the international com-
This quarter, SIGAR released two audits     munity provides a significant amount of funding to support Afghanistan relief
related to programs or initiatives funded   and reconstruction efforts. As noted in previous SIGAR quarterly reports, most
by international donor trust funds. For     of the international funding provided is administered through trust funds.
details on SIGAR’s performance audit        Contributions that are provided through trust funds are pooled and then distrib-
of Afghanistan’s National Solidarity        uted for reconstruction activities. The two main trust funds are the Afghanistan
Program see Section 1, p. 4. For details    Reconstruction Trust Fund (ARTF) and the Law and Order Trust Fund for
on SIGAR’s audit of MoI personnel           Afghanistan (LOTFA).34
systems used to pay the salaries of the
ANP—which are mostly funded by the          Contributions to the Afghanistan Reconstruction Trust Fund
LOTFA—see Section 1, p. 9.                  The ARTF is the largest contributor to the Afghan operational and develop-
                                            mental budgets. From 2002, to March 20, 2011, according to the World Bank, 32
                                            donors had pledged nearly $4.71 billion, of which nearly $4.24 had been paid in.
                                            Contributions are divided into two funding channels—the Recurrent Cost (RC)
                                            Window and the Investment Window.35 Figure 3.16 and Figure 3.17 show contri-
                                            butions for solar year (SY) 1389—the Afghan fiscal year, which runs from
                                            March 21 to March 20—by donor and status.
SIGAR AUDIT                                     According to the World Bank, as of March 20, 2011, more than $2.29 billion of
                                            ARTF funds were disbursed to the GIRoA through the RC Window to assist with
In an ongoing audit, SIGAR is focusing
                                            recurrent costs such as salaries of civil servants. The RC Window supports the
on the use and accountability of U.S.
                                            operating costs of the GIRoA because domestic revenues continue to be insuf-
funds contributed to the ARTF. For more
                                            ficient to support its recurring costs. To ensure that the RC Window receives
information, see Section 1, p. 19.
                                            sufficient funding, donors to the ARTF may not “preference” (earmark) more
                                            than half of their annual contributions for desired projects.36
                                                The Investment Window supports the costs of development programs. As of
                                            March 20, 2011, the World Bank reported 17 active projects with a combined
                                            commitment value of more than $635.19 million, of which approximately $559.42
                                            million had been disbursed. In SY 1388 and 1389, investment commitments
                                            exceeded recurrent cost commitments.37

                                            Contributions to the Law and Order Trust Fund for Afghanistan
                                            The LOTFA is in its sixth phase, which began in January 2011 and will end in
                                            March 2013. The new phase places an increased emphasis on developing capac-
                                            ity in the Ministry of Interior. The LOTFA is the primary donor channel for paying
                                            the salaries of the ANP. The fund also provides financial support for training and
                                            capacity building efforts.38




                                              50               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                      STATUS OF FUNDS




FIGURE 3.16                                                                                                          FIGURE 3.17

ARTF CONTRIBUTIONS FOR SY 1389 BY DONOR, AS OF MARCH 20, 2011 ($ MILLIONS)                                           ARTF CONTRIBUTIONS FOR SY 1389,
                                                                                                                     AS OF MARCH 20, 2011
                                                                                                                     Proportion of Amounts Paid In to
                                              Total Commitments: $1,065           Total Paid In: $610
                                                                                                                     Amounts Committed ($ MILLIONS)

   United States                              265                                                              590
                                                                                                                                    Total Commitments: $1,065
 United Kingdom 24                            120
         Germany         65        65
                                   a
          Norway        48      38
          Canada        38    45                                                                                                              Paid Ina
                                                                                                                                              $610
         Australia 28 28
     Netherlands        33 33
          Sweden        33 33                                                                                                                 Remaining
            Spain 28 28                                                                                                                       $455
           EC/EU 26 26
            Japan 0 20
          Finland        8/18                                                                                        Note: Numbers affected by rounding.
                                                                                                                     a. Includes $9.6 million that Norway paid in above the
           Others        16/22                                                                                       amount it pledged for SY 1389.
                                                                                                                     Source: World Bank, “ARTF: Administrator’s Report on
                    0                   100           200             300                400            500    600   Financial Status as of March 20, 2011,” p. 1.


                                                            Paid In         Commitments
Notes: Numbers affected by rounding. EC/EU = European Commission/European Union.
a. Norway paid in more than it pledged for SY 1389.
Source: World Bank, “ARTF: Administrator’s Report on Financial Status as of March 20, 2011,” p. 1.


                                                                                                                     FIGURE 3.18
   As of March 31, 2011, commitments to the LOTFA through Phase V amounted
                                                                                                                     CONTRIBUTIONS TO LOTFA BY DONOR
to approximately $1.50 billion; additional contributions through the end of
                                                                                                                     COUNTRY SINCE 2002 (PERCENT)
Phase VI are estimated to amount to $1.40 billion, according to the European
Commission.39 Together, the United States, the European Union, and Japan have
contributed approximately 80% of LOTFA funding since its establishment in May
2002, as shown in Figure 3.18.
                                                                                                                                     United States
   Beginning in 2011, the Afghan Ministry of Finance has agreed to cover 3% of                                                       37%                 EC/EU
                                                                                                                                                         25%
police base salaries and 60% of police food allowances from the GIRoA’s general
budget, according to the European Commission. This amount will increase to
                                                                                                                                       Others
7.5% of salaries and 73% of food allowances in 2012.40                                                                                                Japan
                                                                                                                                       15%
                                                                                                                                                      18%

                                                                                                                                                     Germany
                                                                                                                                                     5%

                                                                                                                     Notes: Numbers affected by rounding. EC/EU = European
                                                                                                                     Commission/European Union.
                                                                                                                     Source: EC, “Afghanistan, State of Play, January 2011,”
                                                                                                                     3/31/2011.




                    REPORT TO THE UNITED STATES CONGRESS                      I    APRIL 30, 2011             51
TITLE OF THE SECTION




 52    SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                   SECURITY




SECURITY
As of March 31, 2011, the U.S. Congress had appropriated more than $34.8 billion
to support the Afghan National Security Forces (ANSF).41 Most of these funds
(nearly $33.3 billion) were appropriated through the Afghanistan Security
Forces Fund (ASFF) and provided through the Combined Security Transition
Command - Afghanistan (CSTC-A) to build, equip, train, and sustain the ANSF.42
Of the $33.3 billion appropriated for the ASFF, approximately $28.1 billion had
been obligated, and $24.8 billion had been disbursed as of March 31, 2011.43
   On April 15, 2011, President Obama signed the Department of Defense
(DoD) and Full-Year Continuing Appropriations Act of 2011. This law
appropriated more than $11.6 billion for the ASFF through the end of FY
2011—nearly $6.2 billion more than the ASFF total reported by DoD for the
quarter ending March 31, 2011.44 These additional funds are not reflected in the
amounts identified throughout this section.
   As part of its FY 2012 budget request, the U.S. Department of Defense
(DoD) requested $107.3 billion for Operation Enduring Freedom. That amount
included $0.5 billion for the Afghanistan Infrastructure Fund (AIF)—used for
high-priority infrastructure projects in support of the U.S. counter-insurgency
strategy—and $12.8 billion for training and equipping the ANSF.45
   CSTC-A is responsible for managing the use of funds from the ASFF.
According to a March 2011 report by the DoD Office of Inspector General,
however, the NATO Training Mission (NTM-A)/CSTC-A lacks enough special-
ized personnel to initiate, manage, and oversee the rapidly growing number
of contractors and effectively manage the use of ASFF funds.46 CSTC-A has
requested additional personnel to help oversee the growing number of con-
tractors; these additional personnel are set to deploy this summer, according
to DoD.47
   Training the ANSF remains a top priority for U.S. commanders, according
to NTM-A.48 As of April 3, 2011, according to DoD, 32 nations are contribut-
ing 1,296 trainers and have pledged an additional 742, leaving a shortfall of
770.49 Canada plans to begin withdrawing combat forces in 2011 but will keep
approximately 750 trainers and 200 support personnel in Afghanistan on a
training mission.50 DoD noted, however, that these 750 Canadians will not
have the skill sets needed to fill all of the training positions, so a shortfall
will remain.51




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2011      53
                                                           SECURITY




                                                              As noted in SIGAR’s January 2011 quarterly report, a declaration by the heads
                                                           of NATO member nations pointed to early 2011 as the starting point for transi-
                                                           tioning security responsibilities to the Government of the Islamic Republic of
                                                           Afghanistan (GIRoA). The Lisbon Summit Declaration also announced the goal
                                                           of complete transition in 2014.52 According to DoD, the formal process began on
                                                           March 22, 2011, when President Hamid Karzai announced that transition would
                                                           begin in three provinces (Panjshir, Bamyan, and most of Kabul) and four districts
                                                           (Herat, Lashkar Gah, Mazar-e Sharif, and Mehter Lam). Although no specific
                                                           transfer date had been determined, DoD stated that these transfers are expected
                                                           to begin on June 22, 2011.53
                                                              According to DoD, the transition of responsibility for security requires the
                                                           achievement of four conditions:54
                                                           • The ANSF is capable of shouldering security tasks.
                                                           • A level of security is achieved that allows Afghans to pursue their daily
                                                              activities.
                                                           • Local governance is able to ensure that security is not undermined as the
                                                              ISAF presence is reduced.
                                                           • ISAF is able to reduce its numbers as ANSF capabilities increase and threat
                                                              levels remain constant or diminish.

                                                           SECURITY GOALS
Established in 2008, the Joint Coordination                This quarter, the force strength of the ANSF was 284,952. Of the total, 159,363
and Monitoring Board is the coordination                   were in the Afghan National Army (ANA), according to U.S. Central Command
body between the GIRoA and the interna-                    (CENTCOM), and 125,589 were in the Afghan National Police (ANP), accord-
tional community.                                          ing to ISAF.55 On January 16, 2011, the Security Standing Committee of the Joint
Source: Congressional Research Service, “United Nations
                                                           Coordination and Monitoring Board recommended increases in the ANSF’s
Assistance Mission in Afghanistan: Background and Policy   authorized strength by November 2012: from 171,600 to 195,000 for the ANA and
Issues,” 12/27/2010, accessed online 4/11/2011.
                                                           from 134,000 to 170,000 for the ANP.56 Table 3.1 shows changes in strength since
                                                           last quarter against goals.




                                                           TABLE 3.1


                                                           STRATEGIC PRIORITIES FOR SECURITY
                                                           Priority      Current Target                       Status                                   Change Since Last Quarter
                                                           Afghan        134,000 troops by 10/2010            159,363 troops (as of 3/20/2011)                           +9,810
                                                           National      171,600 troops by 10/2011
                                                           Army          195,000 troops by 11/2012a
                                                           Afghan        109,000 personnel by 10/2010         125,589 personnel (as of 3/2011)                         +10,005
                                                           National      134,000 personnel by 10/2011
                                                           Police        170,000 personnel by 11/2012a
                                                           Note: Numbers affected by rounding.
                                                           a. Recommended, not yet approved.
                                                           Sources: CENTCOM, response to SIGAR vetting, 4/16/2011; ISAF-IJC, ANP PERSTAT, 3/20/2011.




                                                              54                          SPECIAL INSPECTOR GENERAL            I   AFGHANISTAN RECONSTRUCTION
                                                                   SECURITY




SECURITY HIGHLIGHTS
This quarter, the ANSF and coalition forces made progress against insurgents
in the northern and southern regions. In an important development, the GIRoA
announced extensions for and restrictions on private security companies (PSCs)
operating in Afghanistan.

Regional Progress
In his March 2011 quarterly report, the United Nations (UN) Secretary-General
observed that the number of districts controlled by insurgents decreased this
quarter. He noted that joint ANSF and ISAF operations in Kunduz and Balkh
had displaced insurgent elements; however, these elements are expanding into
previously uncontested areas in these provinces.57 In Kabul, the ANSF continued
to limit insurgent attacks. In the southern provinces, the ANSF and coalition
forces continued to report progress in stabilizing areas formerly controlled by
insurgents. The Secretary-General stated that insurgents have responded to these
successes with an asymmetric campaign of violence and intimidation.58
   As noted in SIGAR’s January 2011 quarterly report, anti-government elements
expanded into the northern parts of the country during late 2010. This quarter, in
the northern and western provinces, increased pressure by ANSF and coalition
forces resulted in more insurgents seeking to join reintegration programs. The
Secretary-General noted that insurgents are now targeting those who choose to
reconcile and reintegrate with the GIRoA.59

New PSC Strategy
President Karzai announced a plan to disband PSCs and transfer protection
responsibilities to the Afghan Public Protection Force (APPF), which operates
under the Ministry of Interior (MoI), by the end of 2010.60 As noted in SIGAR’s
                                                                                        SIGAR AUDIT
April 2010 quarterly report, the APPF provides security for local communities,          SIGAR is conducting an audit of the
key infrastructure projects, and facilities used by international organizations.        U.S. Army Corps of Engineers (USACE)
Members of the force, which has operated since 2009, are nominated by village           contract with Global Strategies Group,
councils and trained by the ANP. In March 2011, the Secretary-General reported          a PSC that provides security and
that this plan had been delayed by difficulties in transitioning from existing con-     protective services for USACE personnel
tracts with PSCs. He noted that all parties were working to disband PSCs without        in Afghanistan. This is the first-ever audit
adversely affecting the security of international organizations or the ability of the   to examine expenditures for the security
international donor community to deliver aid.61                                         services that USACE requires in order
   On March 15, 2011, the GIRoA released its strategy for transitioning from            to safely oversee its reconstruction
PSC-led to APPF-led provision of security by March 20, 2012. According to the           projects. For details, see Section 1,
strategy, PSCs that are licensed to operate by the MoI may continue to perform          page 16.
security services for diplomatic and ISAF missions and projects; however, PSCs
performing security services for development and humanitarian projects must be
replaced by the APPF by March 20, 2012. The MoI, ISAF, and U.S. Embassy Kabul
will conduct periodic assessments of the strategy’s effectiveness and the capacity
of the APPF to assume its new security roles. All PSCs that provide services in




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2011         55
SECURITY




TABLE 3.2


CONTRACTOR PERSONNEL WORKING FOR DOD IN AFGHANISTAN
                       During 1st Quarter FY 2010           During 1st Quarter FY 2011              One-Year Difference
                                PSC             Total              PSC              Total              PSC               Total
                         Contractors      Contractors       Contractors       Contractors       Contractors        Contractors
U.S. Citizens                     114          10,016                250           19,381               +136            +9,365
Third-Country                     409          16,551                731           21,579               +322            +5,028
Nationals
Afghan Nationals              13,916           80,725            17,938            46,523             +4,022           -34,202
Total                        14,439         107,292             18,919            87,483            +4,480            -19,809
Sources: CENTCOM, “Contractor Support of U.S. Operations in the USCENTCOM Area of Responsibility, Iraq, and Afghanistan,”
1/19/2011, accessed online 4/15/2011; CENTCOM, “Contractor Support of U.S. Operations in the USCENTCOM Area of
Responsibility, Iraq, and Afghanistan,” 2/2010, accessed online 4/15/2011.




Afghanistan are limited by the MoI to 500 personnel or, in special cases, no more
than 1,000. PSCs that fail to meet these and other requirements could face fines,
seizures of equipment, and other penalties.62
    This quarter, CENTCOM reported that during the first quarter of FY 2010,
there were 18,919 PSC personnel working for DoD in Afghanistan out of a total
of 87,483 contractors. This includes 4,480 more PSC personnel than during the
first quarter of FY 2010, as shown in Table 3.2.63

SECURITY INCIDENTS
In his March 2011 report, the UN Secretary-General stated that the number of
security incidents in Afghanistan continued to be significant. In January 2011,
there were 1,664 security incidents—most of which involved armed clashes or
improvised explosive devices—compared with monthly averages of 1,620 in
2010, and 960 in 2009. The Secretary-General also stated that, at the end of 2010,
suicide attacks occurred at an average of 2.8 per week compared with 2.6 per
week in 2009. During the reporting period, 20 suicide attacks and 33 assassina-
tions occurred in the city of Kandahar alone.64
   This quarter, insurgents continued to target GIRoA and ANSF institutions, the
UN Secretary-General noted. In January 2011, the deputy governor of Kandahar
was killed in a suicide attack. The following month, two large police stations
were attacked in Kandahar. A February 19, 2011 suicide attack targeted a bank
in Jalalabad while civil servants—many of them ANSF personnel—were picking
up their pay.65 That attack killed 40 Afghans and injured more than 70, accord-
ing to the U.S. Embassy Kabul.66 On January 28 and February 14, 2011, suicide
attacks in Kabul killed 10 civilians and injured 17; the second attack killed 2
armed guards who tried to stop the attackers.67 On April 1, 2011, demonstrators
responding to the burning of the Koran in Florida attacked the UN compound in
Mazar-e Sharif, killing three UN Mission workers and four guards.68 On April 15,
2011, the chief of the Kandahar police was assassinated in a suicide attack that
also killed two of his officers.69




   56                         SPECIAL INSPECTOR GENERAL                 I   AFGHANISTAN RECONSTRUCTION
                                                                          SECURITY




Afghan soldiers attending the ANA Non-Commissioned Officers Academy await training at
Forward Operating Base Thunder. A major goal of U.S. reconstruction policy is to build the
capacity of Afghan forces to take over responsibility for security in 2014. (U.S. Navy photo,
PO1 Mark O’Donald)


AFGHAN NATIONAL ARMY
As of March 31, 2011, the United States had appropriated approximately
$20.8 billion, obligated $17.9 billion, and disbursed $15.9 billion of ASFF funds
to build and sustain the ANA.70 DoD and DoS have requested an additional
$7.5 billion for ANA development in FY 2011, according to GAO.71
   Since the effort began in 2002, the United States has been the leading con-
tributor of funds for development of the ANA. U.S. funds are used for the key
elements of the development effort:72
• equipment and transportation, including procurement of weapons, vehicles,
    and communications gear
• infrastructure projects, such as construction of garrisons, depots, and train-
    ing facilities
• training and operations, such as the establishment of training institutions and
    hiring of contractors to provide specialized training
• sustainment, including payment of ANA salaries and maintenance of vehicles
    and facilities

ANA Strength
As of March 31, 2011, the ANA’s strength was 159,363 personnel—an increase
of 9,810 since December 21, 2010—according to CENTCOM. Of this number,
128,862 fill positions in the field.73 The ANA’s goal is to reach 171,600 personnel
by October 2011; the Joint Coordination and Monitoring Board is considering a
goal of 195,000 by November 2012.74




              REPORT TO THE UNITED STATES CONGRESS        I   APRIL 30, 2011               57
                                                                     SECURITY




FIGURE 3.19                                                                                                                      FIGURE 3.20

ANA PERSONNEL STRENGTH, SELECTED COMPONENTS,                                                                                     ANA PERSONNEL PRESENCE, SELECTED
ON MARCH 20, 2011                                                                                                                COMPONENTS, ON MARCH 20, 2011 (PERCENT)



   205th Corps                                     12,811                                              4,638            17,449    205th Corps                 73                    14 13

   203rd Corps                                     12,719                                        2,944         15,663             203rd Corps                     81                 7 11

   201st Corps                               10,644                                 2,505       13,149                            201st Corps                     81                 8 11

   215th Corps                       7,450                            4,151            11,601                                     215th Corps                64                12        24

   207th Corps                      7,307                         2,218    9,525                                                  207th Corps                  77                   12 12

   209th Corps                    6,410                   1,851      8,261                                                        209th Corps                  78                    9 13

  111th Capital                  6,094                1,484 7,578                                                                111th Capital
                                                                                                                                                                  80                 10 10
       Division                                                                                                                       Division

   SOF Division              4,905               2,035      6,940                                                                 SOF Division                71                9        21

                  0                          5,000                        10,000                     15,000                                      0      20        40      60        80        100


                                               Present for Duty            Assigned but Not Present for Duty                                         PDY               AWOL              Other

Notes: SOF = Special Operations Force. Assigned but not present for duty = on medical, training, or authorized leave,            Notes: Numbers affected by rounding. PDY = present for
as well as absent without leave.                                                                                                 duty. AWOL = absent without leave. Other = on medical,
                                                                                                                                 training, or authorized leave.
Source: ISAF-IJC, ANA PERSTAT, 3/20/2011.
                                                                                                                                 Source: ISAF-IJC, ANA PERSTAT, 3/20/2011.




                                                                          The force structure of the ANA has four components:75
                                                                     •    Ministry of Defense (MoD) and general staff personnel, who are responsible
                                                                          for developing, fielding, and ensuring the operational readiness of the ANA
                                                                     •    sustaining institutions and intermediate commands that support the MoD
                                                                     •    combat forces, the operational arm of the ANA
                                                                     •    Afghan Air Force personnel, who support both ANA and ANP forces
                                                                         Of the total strength, most are combat forces assigned to the ANA’s six corps,
                                                                     its Special Operations Force, and its 111th Capital Division. As of March 20, 2011,
                                                                     there were 90,166 personnel assigned to these forces, according to a recent
Each ANA corps or division has one to four
                                                                     assessment by the ISAF Joint Command (IJC).76 This is an increase of 4,362
brigades. A typical brigade consists of a
                                                                     personnel since the end of last quarter.77 However, the number of troops assigned
headquarters unit, a garrison support unit,
four infantry battalions, one combat sup-                            does not necessarily equal the number of troops present for duty, as shown in
port battalion, and one combat services                              Figure 3.19. This quarter, troops absent without leave (AWOL) comprised 7% to
support battalion. ANA infantry battalions                           14% of these forces, as shown in Figure 3.20.
are referred to as kandaks and consist of                                According to the IJC’s February 22, 2011 report from the Commander’s Unit
approximately 800 personnel each.                                    Assessment Tool (CUAT), the ANA has shown noticeable improvement this
                                                                     quarter in reducing its AWOL and present-for-duty rates. This improvement was
Source: GAO, “Afghanistan Security: Afghan Army Growing, but         also reflected in ISAF reports later in the quarter.78 For example, for the ANA’s six
Additional Trainers Needed; Long-term Costs Not Determined,”
GAO-11-66, 1/27/2011, p. 43.                                         corps, its Special Operations Force, and its 111th Capital Division, more troops



                                                                          58                         SPECIAL INSPECTOR GENERAL      I   AFGHANISTAN RECONSTRUCTION
                                                                                                  SECURITY




FIGURE 3.21

ANA TRAINING GRADUATES BY PROGRAM


    Total Graduates: 22,446                                                              Other Training Programs: 2,454


                                   NCO                                Up-Armored
                                                                                                                      902
                                   Development                     HMMWV Training
                                   3,070
                                                                  Officer Candidate                             731
    Basic                                                                    School
    Warrior                        Other Training
                                                                          Pre-Branch
    Training                       Programs                                                               532
    15,005                         2,454                            Literacy Training

                                                                        Mujahedeen                201
                                   Direct Accessiona              Integration Course
                                   NCO Course                          Military Skills
                                   1,917                                                     88
                                                                   Instructor Course
                                                                                         0              500       1,000

Notes: NCO = non-commissioned officer. HMMWV = high-mobility, multi-purpose wheeled vehicle.
a. This 12-week course prepares high school graduates for deployment as NCOs.
Source: CENTCOM, response to SIGAR data call, 4/1/2011.




were present for duty and fewer troops were AWOL on March 20, 2011, than on
December 30, 2010. Most notably, the present-for-duty rate of the 203rd Corps
increased from 63% to 81%.79
   Last quarter, as noted in SIGAR’s January 2011 report, the CUAT identified two
kandaks that had demonstrated the ability to operate independently. According
to the IJC, however, the rating of “independent” was recently redefined to reflect
a more realistic level of operational effectiveness. Because of this change, the
CUAT assessed only one ANA unit as “independent,” as of April 14, 2011. A rating
of “effective with advisors” was achieved by 52 of the ANA’s 157 kandaks. The
IJC noted that this was an increase of 9 units since its previous CUAT report.80
   In addition to combat forces, the ANA is fielding “enabler” or combat support
units that require significant, specialized assistance in partnering, training, and
logistics. The IJC stated that some of these units arrived at their Corps short of
personnel, equipment, tools, vehicles, and other necessities.81
                                                                                                                            SIGAR AUDIT
ANA Training
As of March 31, 2011, the United States had appropriated approximately                                                      SIGAR is conducting an audit focused
$2.0 billion, obligated $1.6 billion, and disbursed $1.5 billion in ASFF funds for                                          on the management of a number of
ANA operations and training.82                                                                                              projects to build ANSF infrastructure
   This quarter, 22,446 ANA personnel graduated from a wide range of training                                               at the Kabul Military Training Center.
programs funded by the ASFF, according to CENTCOM. Of that number, 3,070                                                    For more information, see Section 1,
graduated from development courses for non-commissioned officers, and 731                                                   page 14.
graduated from courses for new officers, as shown in Figure 3.21.83



                  REPORT TO THE UNITED STATES CONGRESS                     I   APRIL 30, 2011                          59
SECURITY




ANA Literacy
The IJC and NTM-A recognize the need for providing members of the ANSF with
literacy training. Many specialty positions—particularly in medicine, intelligence,
logistics, and explosive ordnance disposal—remain vacant because of a shortage
of literate candidates. NTM-A’s literacy program is attempting to eliminate that
shortage, according to the IJC.84
    Efforts by the United States and its coalition partners to increase and improve
literacy throughout the ANA have been extensive, according to CENTCOM. To
shape literacy policy and determine priorities for training, NTM-A’s literacy team
regularly engages with the director of the MoD’s Religious and Cultural Affairs
Office. The literacy team also mentors the director on effectively communicating
the importance of literacy throughout the ANA. For example, in November 2010,
the team helped create a directive mandating literacy training as part of the ANA’s
basic training curriculum. The number of grade 1 level graduates has increased
greatly since then, according to CENTCOM. The classes teach students to read in
Pashtu or Dari; classes are held in the spoken language of the students.85
    CENTCOM does not estimate a literacy rate for the ANA itself. However, it
estimated the overall literacy rate of the ANSF at approximately 28%.86

Women in the ANA
As of February 4, 2011, according to CENTCOM, 300 women serve in the ANA:
195 officers and 105 enlisted personnel. Most of the officers (75%) are assigned
to medical roles, and about half (51%) of the enlisted personnel are assigned to
logistics roles. Most of the women in the ANA entered the service in the mid-
1980s and received little to no training, according to CENTCOM. Most of them
are illiterate, and few have ever been promoted.87
    Last year, the ANA released two policies detailing actions required to reach
its recruitment target, CENTCOM noted. In January 2010, the MoD issued an
order to increase the recruitment of women into the ANA; it was followed by
another order in February 2010, to better facilitate the training, use, and assign-
ment of female recruits. NTM-A/CSTC-A has established an Integration and
Human Rights working group to address ANSF-wide issues and discuss efforts to
increase the integration of women, according to CENTCOM. NTM-A/CSTC-A has
also drafted guidance that directs each component of NTM-A to consider gender
integration issues in all future actions.88

ANA Infrastructure
As of March 31, 2011, the United States had appropriated approximately $4.0 bil-
lion, obligated $3.2 billion, and disbursed $2.5 billion of ASFF funds for ANA
infrastructure.89
   This quarter, 24 new ANA infrastructure projects were awarded (valued at
$317.9 million), 54 were ongoing ($873.9 million), 12 were completed ($133.4 mil-
lion), and 2 were terminated ($55.8 million), according to CENTCOM.90 These
projects entail constructing and supplying buildings and equipment for ANA




  60               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                                                 SECURITY




support, redeployment, and operations—including barracks, headquarters,
training buildings and ranges, administrative spaces, warehouses and storage
buildings, and maintenance facilities.91

ANA Equipment
As of March 31, 2011, the United States had appropriated approximately
$9.0 billion, obligated $7.7 billion, and disbursed $7.1 billion of ASFF funds for
ANA equipment and transportation.92
   From January 1 to March 31, 2011, the ANA fielded 9,448 weapons (valued                                                            Pseudo-FMS: an adaptation of the Foreign
at $20.0 million), 1,163 vehicles ($390.8 million), and 6,617 pieces of commu-                                                        Military Sales (FMS) Program, DoD’s
nications equipment ($37.3 million), according to CENTCOM.93 Most of the                                                              government-to-government method for sell-
equipment fielded by the ANA came from the United States, funded through the                                                          ing U.S. defense equipment, services, and
ASFF in pseudo-FMS purchases.94                                                                                                       training. In contrast to the traditional FMS,
                                                                                                                                      the funds used by DoD to purchase weap-
   Of the $17.9 billion in ASFF for ANA development, the largest portion—about
                                                                                                                                      ons to train and equip the ANSF draw on
$7.0 billion (39%)—has been used for equipment purchases, according to an audit
                                                                                                                                      the Congress’s appropriation for the ASFF.
report published this quarter by the U.S. Government Accountability Office.95                                                         As in the traditional FMS, pseudo-FMS
   As of January 5, 2011, NATO and the international community have equipped                                                          procurements are overseen by the Defense
the ANSF with over 450,000 weapons and over 50 aircraft, according to NTM-A/                                                          Security Cooperation Agency.
CSTC-A. Coalition forces have purchased and provided the following items:96
• equipment, such as M16 rifles, 9mm pistols, high-mobility multipurpose
    wheeled vehicles (HMMWVs), and light tactical vehicles                                                                          Sources: GAO, “Afghanistan Weapons Accountability,” GAO-09-
                                                                                                                                    267, accessed online 10/14/2010; DSCA, “Foreign Military
• aircraft, such as C-27 cargo planes and Mi-17 helicopters                                                                         Sales,” accessed online 10/16/2010.

• specialized equipment, such as night-vision goggles and radios
    In its recent audit of ANA costs, the GAO analyzed the types of equipment
provided to a standard ANA infantry battalion and the costs associated with that
equipment. The GAO found that the total cost to equip an infantry battalion is                                                      FIGURE 3.22

nearly $22 million.97 Of that amount, about 80% is used for transportation and 11%                                                  COST OF EQUIPMENT PROVIDED TO TYPICAL
is used for weapons, as shown in Table 3.3. The cost of outfitting a typical ANA                                                    ANA SOLDIER ($)
soldier is $2,995, more than 80% of which is the cost of body armor and an M16
rifle, as shown in Figure 3.22.
                                                                                                                                                          Total: $2,995
TABLE 3.3


EQUIPMENT PROVIDED TO STANDARD ANA INFANTRY
BATTALION AND ASSOCIATED COSTS                                                                                                                     Body Armor        M16 Rifle
                                                                                                       Cost              Share of                  $1,431            $976
Type of Equipment                                                                              ($ Millions)             Total (%)
Transportation (trucks, HMMWVs, ambulances, water trailers, forklifts, etc.)                           17.6                    80
                                                                                                                                                                     Uniforms
Weapons (M16 and sniper rifles, pistols, machine guns, grenade launchers,                                2.4                   11                                    $422
mortars, etc.)
Communications (radios, base stations, switchboards, tactical field phones, etc.)                        1.8                    8                        Gear
Other (generators, mobile kitchens, binoculars, compasses, tool kits, etc.)                              0.2                    1                        $166
Total                                                                                                 22.0                   100
                                                                                                                                    Note: Numbers affected by rounding.
Note: Numbers affected by rounding.
                                                                                                                                    Source: GAO, “Afghanistan Security: Afghan Army Growing,
Source: GAO, “Afghanistan Security: Afghan Army Growing, but Additional Trainers Needed; Long-term Costs Not Determined,” GAO-11-
                                                                                                                                    but Additional Trainers Needed; Long-term Costs Not
66, 1/27/2011, p. 9.                                                                                                                Determined,” GAO-11-66, 1/27/2011, p. 8.




                  REPORT TO THE UNITED STATES CONGRESS                        I   APRIL 30, 2011                         61
SECURITY




U.S. Support for the Ministry of Defense
DoD has used contractors to fill mentoring and training functions in the MoD.
In 2005, the Afghan National Security Sector Development and Fielding Program
contract was awarded to MPRI to “provide dedicated, in-depth mentoring, train-
ing, subject matter expertise, and programmatic support to CSTC-A staff and
the Afghan MoD.”98 From September through November 2010, responsibilities
for this contract transitioned from MPRI to DynCorp, which was awarded the
contract by the U.S. Army Research, Development, and Engineering Command
on August 24, 2010. This quarter, DynCorp was paid $15 million for its services,
according to CENTCOM. The program has a budget of $60 million for FY 2011
and $60 million for FY 2012.99
   DoD also uses its own personnel to build core competencies at the MoD and
forge long-term relationships between U.S. and Afghan officials.100 Since July
2010, the MoD Advisor (MoDA) program has matched senior DoD civilians with
counterparts in similar positions at the MoD.101 The expertise of these MoDA
personnel covers a range of functions:102
 • defense policy and strategy
 • force planning and resource allocation
 • personnel and readiness management
 • civil-military and inter-agency operations
 • doctrine, training, and education
 • acquisition and procurement
 • logistics and infrastructure management
 • military health sector development
 • human rights and gender integration
 • intelligence policies and organization
 • information technology management and education
 • legal authority and legitimacy
   In a March 2011 audit report, the DoD Office of Inspector General (DoD OIG)
found that NTM-A/CSTC-A lacked the expertise required to develop key security
functions at the MoD—a priority mission focus—and that the expertise pro-
vided by contractors was insufficient to quickly build MoD capacity in critical
areas. In addition, DoD OIG found that without additional MoDA support, the
development of the MoD could be delayed and thus jeopardize the timely accom-
plishment of key objectives of the U.S. counter-insurgency strategy.103
   However, DoD OIG found that the MoDA program has been effective in build-
ing capacity in the MoD. According to its report, NTM-A/CSTC-A regards MoDA
mentors as invaluable assets and has requested approximately 100 additional
MoDA personnel to fill key mentoring positions in the MoD and the MoI.104
CENTCOM noted that it expects to have 80 to 85 MoDA personnel serving in
these positions by September 30, 2011.105
   According to CENTCOM, 305 mentors and advisors were assigned to the MoD
as of March 31, 2011. Of this number, 67 are U.S. or coalition government person-
nel and 238 are DynCorp contractors.106




  62               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                                                         SECURITY




AFGHAN NATIONAL POLICE
As of March 31, 2011, the United States had appropriated approximately
$12.3 billion, obligated $10.0 billion, and disbursed $8.8 billion of ASFF funds to
build and sustain the ANP.107 For FY 2012, DoD has requested $5.7 billion to build                                                            SIGAR AUDIT
and sustain the ANP, 39% more than the FY 2011 request of $4.1 billion.108
                                                                                                                                              In its April 2011 audit of ANP
   Since 2002, the UN Development Programme (UNDP) has disbursed nearly
                                                                                                                                              personnel management systems,
$1.26 billion from the Law and Order Trust Fund for Afghanistan (LOTFA). As
                                                                                                                                              SIGAR found that it is difficult to
noted in SIGAR’s audit of ANP payroll and personnel accountability, the funds
                                                                                                                                              accurately determine ANP workforce
from LOTFA are used to reimburse the GIRoA for ANP payroll and other costs.109
                                                                                                                                              strength and payroll costs because
                                                                                                                                              the systems and databases that
ANP Strength                                                                                                                                  the ANP uses to track personnel
This quarter, the total force strength of the ANP was 125,589, according to the                                                               are decentralized, incomplete, and
IJC.110 Of that number, 66,927 were assigned to the Afghan Uniformed Police                                                                   unverified. For more information on
(AUP), 19,865 were assigned to the Afghan Border Police (ABP), and 9,348                                                                      this audit, see Section 1, page 9.
were assigned to the Afghan National Civil Order Police (ANCOP), as shown
in Table 3.4. The ANP’s goal is to reach 134,000 personnel by October 2011; the
Joint Coordination and Monitoring Board is considering a goal of 170,000 by
November 2012.111

ANP Local Initiatives
The Afghan Local Police (ALP) initiative is the MoI’s community watch program.
ALP members serve under the local district police chief; they are nominated by a
shura council, vetted by the Afghan intelligence service, and trained by and part-
nered with personnel from the ANP, the ANA, and U.S. Special Forces, according
to DoD. The initiative enables local communities to protect themselves in areas
that lack a significant ISAF or ANSF presence. As of this quarter, 77 districts are
participating in the ALP initiative, with 34 contingents fully operational. On aver-
age, each district is authorized to have 300 ALP members.112


TABLE 3.4


ANP FORCE STRENGTH, AS OF MARCH 2011
                                                                 Authorized                 Assigned to                Not Assigned to
                                                                   (Tashkil)            Tashkil Positions             Tashkil Positions
ANP (Total Strength: 125,589)                                       122,000                       115,979                         9,610b
Breakdown By ANP Component
AUP                                                                  72,817                         66,927                               —
ABP                                                                  21,466                         19,865                               —
ANCOP                                                                11,276                           9,348                              —
Other Units                                                          16,441a                        19,839a                              —
Note: — = not available.
a. Includes personnel assigned to MoI headquarters, anti-crime, training, counter-narcotics, logistics, medical, fire, and customs units;
numbers based on difference between authorized and assigned totals for the ANP and for each ANP component.
b. Includes over-tashkil and initial-entry students still in training but not 7,605 non-tashkil personnel assigned to units funded by other
sources and not 761 personnel assigned to the Afghan Public Protection Force.
Source: ISAF-IJC, ANP PERSTAT, 3/2011.




                    REPORT TO THE UNITED STATES CONGRESS                            I   APRIL 30, 2011                            63
SECURITY




   According to DoD, a conventional U.S. infantry battalion has been dispatched
to assist in the effort to support the expansion of the ALP initiative.113 In addi-
tion, the United Nations Assistance Mission in Afghanistan (UNAMA) is advising
both the GIRoA and ISAF on community-based police initiatives, including the
ALP, to ensure that appropriate outreach actions are taken and command and
control arrangements are in place before new ALP units are established. The
UN Secretary-General reported that the MoI approved the next phase of the ALP
initiative in February 2011, allowing for the recruitment of up to 15,700 new ALP
members.114

ANP Training
As of March 31, 2011, the United States had appropriated approximately
$2.6 billion, obligated $1.9 billion, and disbursed $1.8 billion of ASFF funds for
ANP training and operations.115
   This quarter, 12,198 ANP personnel graduated from 37 training programs,
according to CENTCOM. Coalition partners were responsible for 34 of these pro-
grams, and 2 companies (DynCorp and Xe Services LLC) for the remaining 3. The
countries responsible for the most training programs were Germany (6), Italy (4),
Jordan (4), and Canada (3).116

ANP Literacy
From October 2009 to February 2011, the United States spent nearly $9.8 mil-
lion on literacy training for the ANP, according to CENTCOM. This quarter,
CENTCOM did not provide SIGAR with current ANP literacy rates; however,
CENTCOM did provide a set of assumptions (see “ANA Literacy”) and a literacy
rate for the entire ANSF (28%).
   In previous quarters, NTM-A/CSTC-A had estimated low rates of literacy
for the ANP. For example, as noted in SIGAR’s October 2010 quarterly report,
CSTC-A estimated that about 4.5% of ANP personnel are literate, based on ran-
dom tests and sampling. Last quarter, NTM-A stated that a November 2010 test
administered to 7,771 new ANP personnel revealed a literacy rate of only 2.24%
and that a test of 1,456 ANCOP recruits revealed a rate of 0.27% (only 4 received
passing grades).117
    NTM‐A/CSTC‐A has established a short-term goal for the ANSF of 100,000
personnel in literacy training by July 2011; 44,700 are expected to be ANP person-
nel. CENTCOM noted that setting goals based on numbers of trainees instead of
results minimizes the risk of cheating or rushing students through. This approach
also enables commanders in the field to appropriately prioritize training require-
ments and mission needs.118
   NTM-A’s literacy team regularly engages with the MoI on literacy policy
and training issues. For example, NTM-A helped create a literacy directive for
the ANP Chief of Operations and Security, which was awaiting signature as of
April 1, 2011. According to CENTCOM, this policy will lengthen the training
time devoted to literacy training. In addition, compulsory literacy lessons have




  64                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                   SECURITY




been added to all initial training for new recruits. This action, coupled with the
increase in ANP recruiting, has significantly increased the number of person-
nel attending literacy classes. As in the literacy training for the ANA, the ANP
are taught to read Pashtu or Dari; classes are held in the spoken language of the
students.
   According to CENTCOM, adding literacy lessons to the initial training of ANP
produced these results:119
 • 17,327 of 19,525 students passing at grade 1 level (approximately 89%)
 • 10,658 of 11,843 passing at grade 2 level (approximately 90%)
 • 6,275 of 7,256 passing at grade 3 level (approximately 86%)
   Unlike the rest of the ANP, the ANCOP goal is for all personnel to be literate
at a grade 3 level, according to CENTCOM. To achieve this goal, ANCOP leaders
have lengthened the time that trainees spend developing literacy during their ini-
tial training. As of April 4, 2011, CENTCOM stated that more than 2,000 ANCOP
NCOs have had literacy training this quarter.120

Women in the ANP
As of March 31, 2011, according to CENTCOM, 1,094 women were serving in the
ANP. CENTCOM included in the total only officers, NCOs, and enlisted person-
nel—those who perform police duties. The number does not include civilian
personnel (264 as of December 31, 2010, as noted in SIGAR’s January 2011
quarterly report). This quarter, the number of female enlisted and NCO person-
nel—the largest groups of women in the ANP—increased while the number of
female officers decreased, since December 31, 2010:121
• 164 officers (down from 185)
• 511 NCOs (up from 430)
• 419 enlisted (up from 362)
   In 2009, the MoI set a goal of recruiting 1,000 women into the ANP each year
until 2014, according to CENTCOM. For solar year (SY) 1390, which started on
March 20, 2011, the MoI has approved 2,865 positions for women: 1,320 patrol-          Tashkil: Lists of personnel and equipment
women, 836 NCOs, and 709 officers. The MoI tashkil (staffing authorization             requirements used by the MoD and MoI
document) for SY 1390 will identify the gender-specific staffing needs for every       that detail authorizedstaff positions and
position.122                                                                           equipment items, in this case for the ANA
   In 2010, as noted in SIGAR’s last quarterly report, the MoI created an ANP          and the ANP. The word means “organization”
Female Recruiting Directorate to focus on the recruitment of women. According          in Dari.
to CENTCOM, this directorate includes an office at MoI headquarters, female
recruiters assigned to regional headquarters, and two female recruiters assigned
                                                                                     Source: GAO, GAO-08-661, “Afghanistan Security,” 6/2008,
to each province. To support the ANP in this effort, CSTC-A has a Recruiting         p. 18.

Assistance Team, which includes female advisors, to advise the Female Recruiting
Directorate. To further assist in recruitment, two Female Engagement Teams are
being established in the northern and central regions. CENTCOM also stated that
CSTC-A and IJC police mentors will provide video footage of women in the ANP
to the Government Media and Information Center to be used in a recruitment
commercial for broadcast on television.123



            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2011        65
                                           SECURITY




                                           ANP Infrastructure
                                           As of March 31, 2011, the United States had appropriated approximately
                                           $2.7 billion, obligated $2.1 billion, and disbursed $1.5 billion of ASFF funds for
SIGAR AUDIT                                ANP infrastructure.124
                                              This quarter, 24 new ANP infrastructure projects were awarded (valued at
SIGAR has conducted six audits of
                                           $87.4 million), 152 were ongoing ($637.3 million), 27 were completed ($76.3 million),
projects to build infrastructure for the
                                           and 2 were terminated ($12.1 million), according to NTM-A/CSTC-A. These proj-
ANP and ANA, and two additional
                                           ects comprised district and company headquarters, and command, logistical, and
infrastructure audits are under way. For
                                           training centers.125
more information on ongoing audits,
see Section 1, page 14.
                                           ANP Equipment
                                           As of March 31, 2011, the United States had appropriated approximately $3.7 billion,
                                           obligated $3.1 billion, and disbursed $2.9 billion of ASFF funds for ANP equip-
                                           ment and transportation.126
                                              From January 1 to March 31, 2011, the ANP fielded 7,240 weapons (valued at
                                           $5.3 million), 1,170 vehicles ($99.2 million), and 2,938 pieces of communications
                                           equipment ($1.5 million), according to CENTCOM. This equipment was procured
                                           internationally through pseudo-FMS purchases and locally through the Kabul
                                           Regional Contracting Center.127
                                              The AK-47 rifle is the primary weapon of the Afghan Uniform Police and the
                                           ABP, which together make up more than 69% of the ANP’s strength.128 According
                                           to CENTCOM, the cost of an AK-47 rifle is $1,250, including fees and transpor-
                                           tation.129 Rocket-propelled grenade (RPG) launchers are also authorized for
                                           personnel at the district and precinct levels. However, in a recent audit report,
                                           DoD OIG identified a shortage of RPG rounds at those levels. In addition, DoD
                                           OIG interviews with members of ANP units revealed that those units were
                                           encountering insurgents who were armed with higher-quality AK-47s and more
                                           RPGs, as well as heavy machine guns, mortars, and other weapons.130

                                           U.S. Support for the Ministry of Interior
                                           According to CENTCOM, the MoI ministerial mentoring and training program
                                           provides U.S. and coalition experts for police development in a number of fields:
                                           personnel, intelligence, logistics, communications, force generation and manage-
                                           ment, finance, medical, engineering, acquisition, legal, public affairs, and strategy
                                           and policy.131 In December 2010, the U.S. Army Research, Development, and
                                           Engineering Command awarded DynCorp a contract to provide these experts for
                                           24 months, according to CENTCOM. MPRI, which had the original contract, will
                                           remain in a transitioning capacity until April 30, 2011.
                                              The MoI mentoring and training program is one of four contracts rolled into
                                           a larger, two-year, $718 million contract for ABP training, Afghan civilian advi-
                                           sory services, and embedded police mentors.132 The MoI program has a budget
                                           of $46 million for FY 2011 and $46 million for FY 2012. This quarter, the costs of
                                           the contract totaled $8.8 million, according to CENTCOM.




                                             66                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                                               SECURITY




   As of March 31, 2011, there are 282 mentors/advisors assigned to the MoI.
Of this number, 119 are U.S. government personnel, including MoDA mentors,
43 are international or coalition government personnel, and 120 are DynCorp
or MPRI contractors.133

U.S. FORCES
According to U.S. Forces - Afghanistan (USFOR-A), 109,391 U.S. forces were
serving in Afghanistan as of March 31, 2011—7,519 more than the number
identified last quarter. These forces were assigned as follows:134
 • 83,425 to ISAF
 • 3,215 to NTM-A/CSTC-A
 • 12,244 to USFOR-A
 • 10,507 to other assignments (unspecified)

REMOVING UNEXPLODED ORDNANCE
Since 2002, DoS has provided more than $172.5 million for conventional weapons
destruction and humanitarian assistance with demining.135 According to DoS, the
Conventional Weapons Destruction program provides direct funding to five Afghan
non-governmental organizations (NGOs), five international NGOs, and one U.S.
company (DynCorp International) for three purposes:
• sustained clearance operations
• removal and mitigation of abandoned and at-risk conventional weapons
• development of host nation technical and managerial capacity
   This assistance also includes the destruction of excess, unserviceable, and at-risk
ANSF weapons and ordnance, according to the DoS Political-Military Affairs’ Office
of Weapons Removal and Abatement (PM-WRA), which manages the program in
Afghanistan.136 The PM-WRA stated that, from January 1 to December 31, 2010, more
than 25.7 million square meters of land had been cleared by DoS-funded implement-
ing partners, as shown in Table 3.5. This accounts for more than 12% of the 205.5
million square meters of land that have been cleared since 1997.137

TABLE 3.5


CONVENTIONAL WEAPONS DESTRUCTION PROGRAM METRICS, JANUARY 1–DECEMBER 31, 2010
                                                                                                                                                             Estimated
                                                                                                                                Minefields Cleared   Contaminated Area
Date Range                     AT/AP Destroyed                 UXO Destroyed              SAA Destroyed     Fragments Cleared                 (m2)      Remaining (m2)
1/1–3/31/2010                               2,455                       1,943                    129,557             603,957           6,475,318          664,235,000
4/1–6/30/2010                               2,853                    249,946                     217,901             968,887           4,464,926          659,770,000
7/1–9/30/2010                               3,922                    270,793                   1,196,158            1,710,708          9,108,108          650,662,000
10/1–12/31/2010                             2,219                    100,866                   1,204,036            3,549,023          5,704,116          641,000,000
Total                                    11,449                    623,548                   2,747,652           6,832,575          25,752,468          641,000,000
Notes: AT/AP = anti-tank/anti-personnel ordnance. UXO = unexploded ordnance. SAA = small-arms ammunition.
Source: DoS, PM-WRA, response to SIGAR data call, 3/28/2010.




                  REPORT TO THE UNITED STATES CONGRESS                      I   APRIL 30, 2011                 67
SECURITY




COUNTER-NARCOTICS
Since 2002, the United States has appropriated more than $4.5 billion for counter-
narcotics initiatives in Afghanistan. Most of these funds were appropriated
through the DoS International Narcotics Control and Law Enforcement (INCLE)
fund (nearly $2.9 billion) and the DoD Drug Interdiction and Counter-Drug
Activities (DoD CN) fund (more than $1.5 billion).138 DoD CN funds are used for a
range of purposes; the largest amounts, as of March 31, 2011, were for the follow-
ing activities and initiatives:
 • Air mobility outside the continental United States ($373.3 million): provides
   equipment, infrastructure, operations and maintenance, and training sup-
   port for counter-narcotics missions in Afghanistan
 • Intelligence and technology ($332.5 million): provides analytical, equipment,
   and operations and maintenance support for the joint U.S./U.K. Interagency
   Operations Coordination Center, the Combined Joint Interagency Task Force
   (CJITF) Shafafiyat and CJITF Nexus, and the Judicial Wire Intercept Program
 • Counter-narcotics training for the ABP ($180.8 million): supports tactical
   training, mentors, and advisors for the ABP and Customs Police
 • Training for the Counter-Narcotics Police of Afghanistan (CNPA)
   ($106.5 million): supports trainers, mentors, and advisors, and provides
   equipment, infrastructure, and operations and maintenance support for the
   CNPA and its specialized units
 • Air mobility within the continental United States ($103.4 million): provides
   equipment, infrastructure, and operations and maintenance to support
   U.S.-based English language and flight training for MoI aviation personnel
   assigned to the Air Interdiction Unit
 • Other program support ($101.7 million): supports analysts and trainers,
   transportation, and operations and maintenance for various programs in
   support of counter-narcotics programs in Afghanistan

Counter-Narcotics Events
This quarter, the GIRoA conducted several interdiction operations that
resulted in arrests and seizures of contraband, and the U.S. Drug Enforcement
Administration (DEA) and its Afghan counterparts continued to conduct inves-
tigations, according to DoD. In addition, U.S. military and law enforcement
focused on partnering with and building the capacity of Afghan counter-
narcotics forces. The GIRoA coordinates with the UN Office on Drugs and
Crime (UNODC) and the DoS Bureau of International Narcotics and Law
Enforcement Affairs (INL) to implement programs that sustain and monitor
poppy-free provinces.139
   On January 31, 2011, the Ministry of Counter-Narcotics and the UNODC
released the results of the 2011 Opium Winter Rapid Assessment Survey. In the
opium-producing regions of the south, west, and east, poppy starts to germi-
nate in the winter. According to the UNODC, the survey results indicate that
a slight decrease in poppy cultivation can be expected in some provinces in




  68               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                         SECURITY




A joint operation of Afghan and international security forces seized a cache of narcotics and
killed two insurgents on February 10, 2011, in Nimroz province. From January 1 to March 16,
2011, the ANSF and ISAF conducted 76 narcotics interdiction operations. (DoD photo)

2011 despite the current high price of opium. This decrease, coupled with a
prolonged drought in the south, may lead to another year of reduced produc-
tion. Moreover, the UNODC noted that an assessment of farmers allows for
“cautious optimism” that cultivation and production will not be as high as
previously expected.140

U.S. Counter-Narcotics Assessment
The narcotics trade threatens Afghanistan’s political stability and economic
growth and strains the GIRoA’s capacity to deal with internal security prob-
lems, according to INL. It also undermines U.S. efforts to help Afghanistan
wage the counter-insurgency effort. According to INL, suppressing the drug
trade requires a combined, “whole of government” effort that addresses coun-
ter-insurgency, counter-narcotics, development, and governance. A cornerstone
of the U.S. counter-narcotics strategy is to provide sustainable, licit alternatives
to opium poppy.141
   Agriculture remains the major source of income for most Afghans, INL
pointed out, and opium poppy cultivation remains a common and competitive
crop, especially in rural and insecure areas.142 According to the USAID Office of
Agriculture, the Taliban pressures farmers to produce opium in order to finance
insurgent activities. Moreover, the farm-gate price for opium is higher than that
for other crops; in Helmand, for example, the price of opium is more than six
times the price of wheat per unit area of land.143
   The USAID Office of Agriculture noted that markets for alternatives to
poppy will continue to strengthen as genuine stability is achieved in the
country and the influence of the Taliban is reduced. In addition to a continued



              REPORT TO THE UNITED STATES CONGRESS       I   APRIL 30, 2011             69
SECURITY




effort to increase the risk of opium production and disrupt the opium market
chain, growers will have a strong incentive to move to alternative products
that can provide better household income for their families. Also, demand for
manual labor should remain strong because the alternative crops are harvested
by hand.144

U.S. Counter-Narcotics Efforts
Illegal narcotics are a significant source of funding for Afghanistan’s insur-
gency. According to INL, U.S. counter-narcotics efforts in Afghanistan focus not
only on stemming the flow of illegal drugs but also on denying the Taliban and
other insurgent groups a key source of funding. INL stated that the revised U.S.
Counter-Narcotics Strategy for Afghanistan calls on U.S. agencies to work with
Afghanistan’s regional neighbors to further disrupt insurgency-narcotics net-
works and eliminate safe havens for narcotics traffickers. Part of this effort is
a continued dialogue under the U.S.-Russia Bilateral Presidential Commission,
and an engagement of all regional partners to combat the drug trade through
international and multilateral forums.145
    INL supports programs of the Afghan Ministry of Counter-Narcotics (MCN)
to reduce poppy supply throughout the cultivation cycle. The MCN’s Counter-
Narcotics Public Information program informs Afghan leaders and citizens
about the dangers of narcotics cultivation, trade, and use through direct
engagement, radio, TV, and print media. Although the campaign is a year-round
effort, particular emphasis is placed on it during the pre-planting season (July
to September).146
    According to DoD, agriculture development programming, in combina-
tion with improved security, has enabled farmers located in areas near major
population centers to move away from narcotics cultivation. The success of
programs that provide incentives to farmers depends on improved security and
the presence of a law enforcement deterrent. DoD noted that poppy cultivation
is occurring in increasingly fewer areas.147

Interdiction Operations
This quarter, most interdiction activities were conducted in the south and
southwest, where most opiates are grown, processed, and smuggled out of
Afghanistan, according to DoD. In the east and north, the ANSF carried out
slightly fewer operations than it did last quarter.148
   From January 1 to March 16, 2011, the ANSF partnered with ISAF to
conduct 76 narcotics interdiction operations, according to DoD. These opera-
tions resulted in 76 arrests and led to the seizure of a range of narcotics
contraband:149
• 41,945 kg of hashish
• 11,854 kg of opium
• 4,636 kg of morphine




  70               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                  SECURITY




• 2,347 kg of heroin
• 851 kg of narcotic-related chemicals
   U.S. forces continued to provide transportation, intelligence, airlift, and
quick reaction support, and the U.S. Drug Enforcement Administration (DEA)
continued to mentor specialized Afghan counter-narcotics units, DoD noted. In
addition, the U.S. intelligence community continued to provide targeting and
analysis support at the strategic, operational, and tactical level.150
   INL stated that it supports the Counter-Narcotics Police of Afghanistan
(CNPA) by providing operations and maintenance support for the CNPA’s
Technical Investigative Unit, National Interdiction Unit, and Sensitive
Investigative Unit. Recent accomplishments include the following:151
• National Interdiction Unit officers are now able to conduct their own
   operations, request warrants, and execute them. Evidence gathered by the
   Technical Investigative Unit through court-ordered surveillance operations
   increased the number of large-scale drug trafficking and related corruption
   cases that were brought to the Criminal Justice Task Force.
• During 2010, the CNPA, with mentors from the DEA, conducted more than
   100 operations and seized more than 11 metric tons of heroin—a 700%
   increase from the 2009 level.
• In February 2011, the DEA and the CNPA, supported by INL helicopters,
   seized more than 4 metric tons of morphine base during a series of raids in
   Achin district in Nangarhar.
• In 2010, interdiction operations by the United Kingdom, other ISAF partners,
   the CNPA, and the DEA seized 55,000 kilograms of opium; 74,468 kilograms
   of hashish; 34,354 liters of liquid chemical precursors used in production;
   and 2,319 kilograms of morphine.




           REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2011    71
TITLE OF THE SECTION




 72    SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                       GOVERNANCE




GOVERNANCE
As of March 31, 2011, the United States had provided more than $16.16 billion to
support governance and development in Afghanistan, as shown in Appendix B.
Building the capability of the Afghan government to govern effectively remains
critical to U.S. efforts. This quarter, U.S.-funded programs continued to address
persistent problems related to capacity, corruption, rule of law, and effective
administration. Security improvements enabled some local governance initia-
tives to progress, although these gains remain fragile. Protections for vulnerable
women also made some progress in policy discussions.

KEY EVENTS THIS QUARTER
This quarter, the Wolesi Jirga was seated, following a protracted delay after the
elections, but confrontations between it and the executive branch persisted. The
mandate of the United Nations Assistance Mission in Afghanistan (UNAMA) was
extended with new policies emphasizing greater control of the country’s future
by the Government of the Islamic Republic of Afghanistan (GIRoA). In addition,
the push for reconciliation and reintegration continued, but no major negotiation
breakthroughs took place.

Seating of the Wolesi Jirga
Serious internal disputes over the results of the September 2010 parliamentary
elections continued throughout this quarter. President Hamid Karzai inaugurated
the Wolesi Jirga on January 26, 2011, after reaching an agreement with newly
elected members and unsuccessful candidates who had protested the election
results. However, the inauguration did not prevent the Special Court created
by President Karzai in December 2010 and the Attorney General’s Office (AGO)
from continuing their investigations into the elections. The Independent Election
Commission (IEC), the U.S. Department of State (DoS), and UNAMA expressed
concerns about the effects of the AGO’s actions on the independence of electoral
institutions.152 DoS noted that any inappropriate pressure could undermine the
credibility of the elections.153
   On February 14, 2011, AGO investigators and police officers entered the head-
quarters of the IEC in Kabul and ordered the sealing of ballot boxes and the IEC’s
data center, according to the March 2010 quarterly report of the United Nations
(UN) Secretary-General.154




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2011        73
GOVERNANCE




   On February 20, 2011, the Attorney General suspended the IEC’s chief execu-
tive officer and one of its commissioners for “insufficient cooperation” with
the Special Court; however, the IEC contended that the Attorney General had
no legal authority to suspend these personnel. The Wolesi Jirga denounced
the Special Court as illegal and stated it would not accept any recount results.
According to DoS, members of the Wolesi Jirga continue to be uneasy about the
effect of future Special Court activities.155
   As of March 31, 2011, the Special Court had conducted recounts in 23 prov-
inces and accused some Wolesi Jirga members of electoral fraud. According to
DoS, some members believe that the President will overturn the election, and oth-
ers believe that the court will be used to sway the Wolesi Jirga on key issues.156
   Although the new Wolesi Jirga includes a number of strong opposition fig-
ures, its makeup may not have a significant effect on the balance of power in
the Afghan government, according to DoS. Members spent much of January and
February 2011 trying to elect a speaker, for example, because candidates from
both sides had difficulty assembling coalitions.157

Election Administration
Operational, material, and training support for the IEC is provided through
funding from the U.S. Agency for International Development (USAID). USAID
is funding programs to sustain the progress that has been made in building the
GIRoA’s electoral capacity. This support will also help the IEC develop a post-
elections operational plan that focuses on voter registration and boundary
delimitation and demarcation. District elections cannot occur until the GIRoA
properly demarcates the district boundaries. DoS noted that it would also sup-
port the establishment of an electoral reform commission, in line with Kabul
Conference commitments. According to DoS, the controversies surrounding the
election indicate that the GIRoA should consider broader electoral reform.158
    On January 31, 2011, the Electoral Complaints Commission (ECC) completed
its legally mandated term in support of the parliamentary elections and ceased
operations. The ECC turned over to the IEC all archived violations of electoral
law and challenges to the eligibility of nominated candidates, according to
UNAMA.159
    The UN Development Programme (UNDP) plans to continue its support for
building Afghanistan’s electoral capacity by consolidating electoral institutions,
maintaining institutional memory, planning for sustainability, and increasing
the independence of these institutions within the GIRoA, according to the UN
Secretary-General. The goal of this support is to create electoral institutions
that are more technically and operationally capable of supporting elections and
are therefore less dependent on international support.160 In late January 2011,
international partners started a review of lessons learned; according to DoS, the
review’s progress has been delayed because of the turmoil surrounding the elec-
tion results.161




  74               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                         GOVERNANCE




UNAMA Extension
On March 22, 2011, the UN Security Council unanimously approved an extension
of the UNAMA mandate until March 23, 2012. UNAMA, which has existed since
2002, has 30 agencies, funds, and programs that contribute to the improvement
of governance, development, and security in all 34 provinces.162
   In the lead-up to the extension of the mandate, the GIRoA was adamant
in expressing its desire to take on “full” control of Afghanistan’s governance,
development, and security by the end of 2014.163 The GIRoA made a series of
requests to the UN Security Council outlining how the UNAMA mandate should
emphasize transition to full Afghan ownership and leadership, including the
following:164
 • To make the election process sustainable and effective, Afghans should own
    it. The GIRoA welcomed UNAMA’s capacity-building and technical assistance
    on elections but noted that is not sustainable in an Afghan-led, democratic
    process.
 • Greater emphasis should be placed on aligning aid with Afghan National
    Priority Programs and channeling it through the GIRoA budget.
 • The GIRoA should lead the reconciliation and reintegration process; how-
    ever, it may request diplomatic and operational support from UNAMA.
 • A recalibrated UNAMA coordination strategy with ISAF should emphasize
    the transition to Afghan-led stabilization efforts.
 • Through its co-chairmanship of the Joint Coordination and Monitoring
    Board, UNAMA should promote coherence in the international community’s
    support for an Afghan-led development strategy.
 • A comprehensive review of the UNAMA mandate and the UN’s role in
    Afghanistan should be conducted before the Bonn Conference at the end of
    2011.
 • Greater overall synergy is desirable in UN operations, programs, and funding
    in Afghanistan.
   In its mandate extension, UNAMA agreed to support the GIRoA in accordance
with the London and Kabul communiqués, with a particular focus on improv-
ing the coordination of international efforts in governance and development
assistance, as well as in civilian and military operations. UNAMA also decided to
support efforts to increase direct assistance through the GIRoA and to increase
the transparency and effectiveness of the GIRoA’s use of such assistance. UNAMA
reaffirmed that it should have a leading role in future international electoral
support when requested by the GIRoA. UNAMA also requested that the Secretary-
General conduct a complete review of UN support by the end of 2011.165
   Afghanistan’s representative to the UN said the extension of the mandate reaf-
firmed the international community’s commitment and also highlighted the need
to transition to greater Afghan ownership and leadership. The representative also
noted that the mandate streamlined the UN’s operations to fit with Afghan priori-
ties.166 Following the April 1 attack on the UN compound in Mazar-e Sharif, UNAMA
said it would continue activities in the country in this delicate and crucial period.167




             REPORT TO THE UNITED STATES CONGRESS    I   APRIL 30, 2011           75
                                                     QUARTERLY HIGHLIGHT




ANTI-CORRUPTION                                                                                  HOOAC
                                                                                                 The High Office of Oversight and Anti-Corruption
This quarter, DoS expressed significant concern about
                                                                                                 (HOOAC), which is charged with combating govern-
continued corruption in Afghanistan. It stated that the
                                                                                                 ment corruption, has not made any significant prog-
GIRoA could better deter corruption by removing high-
                                                                                                 ress, according to USAID. USAID attributed this failure
level officials who have not effectively ensured govern-
                                                                                                 to lack of will on the part of top leaders to engage
ment accountability, and by paying higher salaries for
                                                                                                 seriously in the effort.172
prosecutors. DoS also stressed the importance of
                                                                                                    USAID supports the HOOAC with technical assis-
strengthening anti-corruption laws by drafting specific
                                                                                                 tance through a contract with Management Systems
sentencing guidelines.168
                                                                                                 International that began in October 2010. The
   According to DoS, “Criminal patronage networks
                                                                                                 program has a maximum value of $27.7 million over
of corrupt individuals connected to senior Afghan
                                                                                                 three years, according to USAID. The UNDP, the UN
officials, weak institutions, slow governance reforms,
                                                                                                 Office on Drugs and Crime, and USAID have provided
inadequate anti-corruption laws, and political impunity
                                                                                                 technical assistance, including training programs, to
have essentially halted progress on fighting corruption
                                                                                                 improve the HOOAC since its inception in 2008.173
in Afghanistan.”169 DoS stated that it has not seen a
                                                                                                    The HOOAC’s efforts to improve the asset decla-
serious commitment by the Attorney General to fight
                                                                                                 rations process for government officials have been
corruption and bring senior officials to justice, not-
                                                                                                 mostly symbolic and ineffective, according to DoS. As
ing that no prosecutions of high-level officials were
                                                                                                 of March 31, 2011, only 1,900 of the 3,600 officials
completed this quarter. In November 2010, the AGO
                                                                                                 required to file declarations had done so, and only
announced an investigation of at least 20 senior offi-
                                                                                                 70 of those had been published. DoS noted several
cials, including 2 current cabinet members. Only one
                                                                                                 deficiencies in the declarations and their verifica-
individual under investigation has been arrested—the
                                                                                                 tion, including the lack of a requirement to declare
former Minister of Transportation. There has yet to be
                                                                                                 property held for the benefit of a government offi-
a prosecution for any official under investigation, and
                                                                                                 cial in someone else’s name. Because that type of
the names and details have not been made public.170
                                                                                                 property is not captured in the declaration, President
   DoS also pointed to the recent pardons of senior
                                                                                                 Karzai stated his entire assets at less than $30,000,
police commanders for corruption charges as
                                                                                                 according to DoS.174
examples of the significant challenges to consistent
enforcement of anti-corruption laws. It noted, however,
                                                                                                 Anti-Corruption Unit
that the Attorney General had recently announced
                                                                                                 This quarter, the AGO allowed U.S. Department of
measures to remove unqualified officials and to
                                                                                                 Justice (DoJ) mentors to resume their work with Anti-
provide adequate salaries for prosecutors in order to
                                                                                                 Corruption Unit (ACU) prosecutors. The mentors had
reduce incentives for corruption.171
                                                                                                 ceased work in July 2010 after the fallout from the
                                                                                                 bribery investigation of Karzai advisor Muhammad
 “There is no denying the challenges                                                             Zia Salehi. DoS stated that DoJ mentors have limited
our civilian efforts face in Afghanistan.                                                        their previous mentorship role and focused only on
                                                                                                 providing technical assistance. According to DoS,
 Corruption remains a major problem.                                                             Afghan prosecutors have expressed concerns about
    Fighting fraud and waste is one                                                              being seen as working too closely with the DoJ.175
        of our highest priorities.”                                                                 As of March 31, 2011, the ACU has submitted 416
                          —U.S. Secretary of State Hillary Clinton                               cases to the courts, including 149 cases of misuse
                                                                                                 of power and 71 cases of bribery. It has also issued
Source: DoS, “Remarks, Secretary of State Hillary Clinton, Launch of the Asia Society’s
                                                                                                 eight warrants to prevent high-level officials from leav-
Series of Richard C. Holbrooke Memorial Addresses,” 2/18/2011.                                   ing the country.176



                                                            76                            SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                  QUARTERLY HIGHLIGHT




GIRoA ANTI-CORRUPTION REPORTING STRUCTURE



      High Office of Oversight                                      Office of                                                                  Criminal Justice Task
        and Anti-Corruption                                       the President
                                                                                              Ministry of Justice
                                                                                                                                                   Force (CJTF)
             (HOOAC)


           Control and Audit                                  Attorney General’s                Supreme Court
             Office (CAO)                                           Office




    Anti-Corruption Unit (ACU)                               National Directorate                  Ministry of                                   Major Crimes Task
                                                                  of Security                       Interior                                      Force (MCTF)



Sources: CJTF, “Welcome to the CJTF Website,” accessed online 1/16/2011; HOOAC, “Who We Are?” accessed online 1/16/2011; INL, “Afghanistan Program Overview,” accessed
online 1/14/2011; INL, response to SIGAR data call, 1/6/2011; U.S. Embassy Kabul, “Afghanistan Celebrates Anti-Corruption Day,” 12/15/2010; DoS, “Clinton: Afghans Face Critical
Moment With Karzai’s Second Term,” 11/19/2010; DoJ, “Attorney General Travels to Afghanistan for Meetings with U.S., Afghan Officials,” 6/30/2010; SIGAR, Audit 10-8, “Afghanistan’s
Control and Audit Office Requires Operational and Budgetary Independence, Enhanced Authority, and Focused International Assistance to Effectively Prevent and Detect Corruption,”
4/9/2010; DoS, “Advancing Freedom and Democracy Reports,” 5/2009.



Major Crimes Task Force                                                                        Control and Audit Office
Investigations by the Major Crimes Task Force (MCTF)                                           The Control and Audit Office (CAO) is responsible
focus primarily on senior-level corruption. In addition                                        for auditing the financial performance of the GIRoA’s
to training provided by international organizations, the                                       agencies. According to DoS, the CAO lacks both the
U.S. Federal Bureau of Investigation and U.S. Army                                             independence and the capacity needed to perform its
provide investigation training to the MCTF.177                                                 functions, and little progress was made this quarter
   As of March 31, 2011, the MCTF had won 10                                                   to develop its capabilities. DoS stated that Afghan law
major convictions, and more than 100 investigations                                            does not give the CAO enough independent authority.
were pending. According to DoS, in 2010 the MCTF                                               The CAO has indicated to DoS that most of the cases
registered 162 arrests, 22 of them related to corrup-                                          it sends to the AGO are returned without any action
tion. DoS stated that although the MCTF has made                                               having been taken.179
progress, its efforts to fight corruption have fallen
short because of influence from the AGO and the
President’s Office.178



    SIGAR AUDIT                                                                                     SIGAR AUDIT
    SIGAR is conducting an audit of the success of U.S. efforts                                     SIGAR’s audits of the HOOAC and the CAO found that neither
    to strengthen the capabilities of the Major Crimes Task                                         office had sufficient independence or authority to be an ef-
    Force to combat corruption. For more information, see                                           fective anti-corruption or audit institution. For more informa-
    Section 1, page 17.                                                                             tion, see www.sigar.mil.




                  REPORT TO THE UNITED STATES CONGRESS                      I   APRIL 30, 2011                         77
                                                              GOVERNANCE




                                                              RECONCILIATION/REINTEGRATION
                                                              In 2010, the GIRoA—with international political and programmatic support—
                                                              began a renewed push to reconcile and reintegrate insurgents and their leaders.
                                                              This quarter, those efforts continued to move forward, although no major break-
                                                              throughs took place.

                                                              High Peace Council
                                                              This quarter, the High Peace Council conducted a large number of formal and
                                                              informal events, according to DoD. The Council did not share the details of all of
                                                              these events with the International Security Assistance Force (ISAF) or publicly
                                                              acknowledge them because of the need to protect the identity of participants.
                                                              The Council used these events to improve awareness of and support for the
The High Peace Council’s Financial                            peace process, according to the UN Secretary-General.180 DoS stated that it has
Oversight Committee comprises representa-                     not yet seen any evidence that insurgent leaders have been willing to change
tives from the Ministry of Finance, the chief                 their positions.181
executive officer of the APRP, and repre-                        The GIRoA has established 25 Provincial Peace Councils, according to DoD.182
sentatives from two donors; the two donor
                                                              Initially, these Councils will conduct outreach, build public confidence in rein-
positions rotate. The Committee reports to
                                                              tegration and reconciliation, negotiate, and resolve grievances. Members of the
the Joint Secretariat.
                                                              committees include public officials, and community and religious representatives.183
Source: UN Secretary-General, “The Situation in Afghanistan      Progress has also been made in the implementation of the Afghan Peace and
and Its Implications for International Peace and Security,”
3/9/2011, p. 6.                                               Reintegration Plan (APRP). With assistance from the UNDP, the Joint Secretariat
                                                              developed financial assistance procedures for 8 provinces and was developing
                                                              them for 13 more, according to DoD.184 The Secretary-General’s report noted that
                                                              the Council’s Financial Oversight Committee had approved seven reintegration
                                                              projects: six will establish cells in ministries and departments to support the
                                                              development of the reintegration program, and one is a de-mining project that
                                                              employs reintegrees in its workforce.185

                                                              Women’s Rights and Reconciliation
                                                              Because the reconciliation process involves bringing groups that oppose women’s
                                                              rights into peace talks, much attention has been paid to the place of women’s
                                                              rights in negotiations. According to USAID and DoS, concerns about curtailment
                                                              of women’s rights have been incorporated into U.S. government requirements for
                                                              support of the APRP. For example, reconciled Taliban must agree to abide by the
                                                              Afghan Constitution, including its provisions on the rights of women and minori-
                                                              ties. The U.S. Secretary of State has said that the United States supports the
                                                              participation of Afghan women at all levels of the reconciliation process.186
                                                                 According to USAID, the United States has promoted the involvement of
                                                              women across the board in a number of ways, including the following:187
                                                              • helping the 9 women of the 69-member High Peace Council to strengthen
                                                                  their role in the Council
                                                              • providing political advocacy at national and provincial levels
                                                              • supporting civil society initiatives to ensure that the APRP includes female
                                                                  participants




                                                                78                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                       GOVERNANCE




• working with a women’s rights nongovernmental organization (NGO)—the
  Women, Peace, and Security Working Group—that is assisting in the GIRoA’s
  formulation of an action plan to include women at all levels of reconciliation
   According to USAID, women have been involved in the APRP in several ways.
A dedicated gender advisor to the Joint Secretariat of the APRP works to ensure
that women’s issues are accounted for in major decisions and policies and assists
female Council members in their advocacy efforts. In addition, female Council
members are sometimes included in the Council’s domestic and international
public outreach campaigns. Furthermore, the Council recently instructed the
Provincial Peace Councils that their membership must include at least three
women. The GIRoA has also allowed the Afghan Women’s Network and the Afghan
Civil Society Forum to monitor the formation of the Provincial Peace Councils and
provide recommendations to ensure that the reconciliation process is inclusive.188

U.S. Assistance for Reconciliation and Reintegration
As of March 31, 2011, the United States, the United Kingdom, Japan, and
Germany have pledged approximately $234 million to support the APRP, includ-
ing the activities of the High Peace Council. Approximately $110 million of the
pledged funds had been received by the end of the quarter. The Ministry of
Finance (MoF) is still developing plans to distribute funds at the sub-national
level; therefore, the Afghan financial mechanisms to support reintegration do not
yet function, according to DoD.189
    To ensure that the reconciliation process moves forward, the United States
is funding the reintegration and reconciliation activities through the Afghan
Reintegration Program (ARP).190 As of March 31, 2011, total U.S. commitments
for the ARP were just under $4 million. This funding has supported several
outreach shuras and the provincial and district peace councils. To support
reintegration activities, in the FY 2011 National Defense Authorization Act, the
Congress provided the Secretary of Defense the authority to use up to $50 million
from funds available to DoD—with the concurrence of the Secretary of State.191

Progress of Reintegration
This quarter, the Secretary-General noted an increase in the pace at which
anti-GIRoA insurgents have attempted to reintegrate into Afghan society.192 As
of March 31, 2011, about 700 former insurgents were enrolled in the three-stage
reintegration process, according to DoS.193 According to DoD, most reintegrees
were in the initial outreach and demobilization phases and had not yet reached
the final stage—the community recovery stage—as of March 31, 2011.194 The UN
Secretary-General reported a number of reasons that more members of the insur-
gency and militia were willing to lay down their arms, including frequent security
operations in northern and western provinces, outreach by provincial authori-
ties, and the GIRoA’s demonstrations of leadership.195




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2011       79
GOVERNANCE




   Most areas of the country did not have Provincial Peace Councils or sup-
porting Provincial Joint Secretariats as of March 31, 2011. Provincial governors
had nominated members for 25 Provincial Peace Councils, but the High Peace
Council had approved and formalized only 6. Eight Provincial Joint Secretariat
Teams had been established; they are tasked with assisting reintegration at the
working level. According to DoD, almost every provincial governor was work-
ing with the APRP, and their participation had not triggered any violence against
them.196 However, the Secretary-General reported that, in response to reintegra-
tion efforts, insurgents have amplified their attacks to intimidate those who are
considering reintegration.197
   According to DoD, Afghan officials will continue to travel to spread awareness
of the APRP. In addition, the Joint Secretariat is working with inter-agency repre-
sentatives in Kabul to improve the final phase of reintegration by strengthening
the connections between reintegrees and their communities.198

PROVINCIAL AND DISTRICT GOVERNANCE
The planned drawdown of the International Security Assistance Force (ISAF)
has had little effect on the ability to recruit and maintain local leaders, according
to DoS. As of March 31, 2011, Regional Commands - South and Southwest have
been able to identify candidates for leadership positions and were working with
provincial leaders to build governing capacity. Regional Command - West identi-
fied a wide range of challenges that leaders face in filling positions, including
Kabul politics, nepotism, corruption in the appointment process, district isola-
tion, sub-standard facilities for district officials, and insecurity.199

Southern Afghanistan
According to DoS, the GIRoA is slowly re-establishing district governance in
Kandahar after many of its districts were cleared of insurgents in late 2010. All
District Support Teams (DSTs) in Kandahar have reported increased mobility
for government officials to operate. However, DSTs in Panjwai and Spin Boldak
reported to DoS that not all tribal elders had returned to their villages and that
only a limited number of key leaders were present. Both DSTs reported to DoS
that the creation of district councils had gained support and may draw key lead-
ers back to their villages.200
   Improved security has enabled the GIRoA to extend its authority and establish
improved local governance in Helmand province, according to the commanding
general of Regional Command - Southwest. As of January 25, 2011, represen-
tatives of the provincial government were present in 11 of the province’s 14
districts, according to the U.K. senior representative in southern Afghanistan.201
Progress was most evident in central Helmand, where six central districts had
district councils. In Marjah, about 1,100 voters turned out on March 2, 2011, and
elected 35 members to the community council. No security incidents occurred,
despite insurgent threats to disrupt the elections.202 According to DoD, the turnout
indicated that the community had rejected the insurgency and accepted the




  80                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                       GOVERNANCE




GIRoA’s authority in the area.203 The Helmand Provincial Reconstruction Team
(PRT) reported to DoS that provincial and district offices continue to strengthen
their administration and have engaged with the DSTs and the PRT.204
   One result of improved security is greater freedom of movement, accord-
ing to both DoD and DoS.205 Local government officials can now travel by road
between all of Helmand’s central districts, according to DoS. The central districts
are the most heavily populated in the province. The situation in several outlying
districts—Musa Qala, Sangin, Kajaki, and Naw Zad to the north and Khan-e Shin
to the southwest—remained difficult, requiring officials to travel by air. DoS also
noted that although key leaders are still in the process of returning to villages
after violence drove some away, important elders in some areas are re-engaging
with government institutions.206

Northern Afghanistan
In the northern provinces of Kunduz, Takhar, and Balkh, the GIRoA has main-
tained stability this quarter, according to DoS. Although the governors in these
provinces have taken steps to increase governmental control, tensions between
ethnic groups in some areas continue to challenge lasting stability.207
   DoS noted that the Pashtun governor of Kunduz, a confidant of President
Karzai, had taken firm control of managing development, enhancing ANSF secu-
rity operations, and expanding engagement with U.S. officials. The governor of
Takhar, an ethnic Tajik, has cultivated political connections across ideological and
ethnic lines and governmental levels. DoS stated that the governor travels widely
throughout the province to enlist support from leaders and the public for ANSF
and ISAF. He has also led delegations of provincial line ministers to areas cleared
of insurgents to meet their constituents and discuss their needs. In Balkh, the
governor is an effective, hands-on administrator and extremely popular, accord-
ing to DoS; he also has a great amount of influence in the greater northern region.
The governor’s active control of the appointment process has, however, alienated
some of the Pashtun minority leadership and created tensions.208
   All PRTs in the region reported that U.S. development and stabilization efforts
were helping build local government capacity. DoS noted positive engagement
with Community Development Councils and the District Development Assembly
in implementing multiple projects in Kunduz and Takhar.209

U.S. Assistance for Public Administration Reform
The United States is supporting public administration reform at local and provin-
cial levels through the Village Stability Operations (VSO) program, the civilian
uplift, and PRT and DST efforts.

Village Stability Operations Program
The DoD’s VSO program works in conjunction with the Afghan Local Police
program to deploy Afghan and U.S. personnel into rural areas to establish con-
nections between villages and district and provincial government institutions,




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2011         81
                                             GOVERNANCE




                                             according to DoD. The VSO also helps villagers stand against insurgents and
                                             provides development assistance. The VSO draws on DoD-managed funds—the
                                             Commander’s Emergency Response Program and the Afghanistan Security
                                             Forces Fund. DoD noted that “a relatively small amount of dedicated funds are
                                             used.”210 The program has significantly reduced Taliban influence in its areas of
                                             operations, according to DoD.211

                                             Civilian Uplift
                                             According to DoS, the number of U.S. civilian personnel in Afghanistan has
                                             increased significantly in the past two years—from 261 in January 2009 to 989 in
SIGAR AUDIT                                  February 2011. DoS has proposed to increase the number of civilians to 1,350 by
                                             2012.212 As of March 31, 2011, the uplift had made it possible to staff more than
SIGAR is conducting a joint audit with
                                             150 field positions, including PRTs, DSTs, regional platforms (civilian equivalents
the DoS Office of Inspector General on
                                             of regional commands), and numerous task force units and provincial offices.213
the implementation of the civil uplift, as
                                                According to USAID, the civilian uplift has enabled the United States to
well as the sustainability of deploying
                                             improve the GIRoA’s capacity at the sub-national level. To support counter-
additional civilians to Afghanistan. For
                                             insurgency efforts, the uplift has focused primarily on vital areas that have large
details, see Section 1, page 18.
                                             populations and economies.214

                                             PRTs, DSTs, and Security
                                             Security threats to PRTs and DSTs are the main challenges to their operations,
                                             according to DoS. Insurgents have sought to blunt the effects of the teams’
                                             efforts. DoS noted that Afghan officials at the local level are concerned about


                                             FIGURE 3.23

                                             U.S. DST STAFFING BY PROVINCE

                                                                December 2010: 73                                                      Projected 2011: 150




                                                                                  No DST          0–6          7–13         14–20           21+

                                             Notes: Staffing is as of 12/31/2010. Projected staffing subject to adjustment for evolving security and other conditions.
                                             Source: DoS, response to SIGAR data call, 4/13/2011.




                                                82                          SPECIAL INSPECTOR GENERAL                  I   AFGHANISTAN RECONSTRUCTION
                                                                                    GOVERNANCE




what the transition of responsibility will mean in terms of their security and
access to assistance funding. It also noted that developing the capability of
many government officials to implement governance and development efforts
remains a significant challenge. Implementing partners and NGOs have not fully
coordinated with PRT and DST efforts, which has hampered local governance
initiatives and caused duplication of efforts. Despite these challenges, PRTs and
DSTs had been able to implement the District Delivery Program, an Afghan-led
initiative to expand the presence of the government in recently secured districts,
in 14 districts and gain approval in 21 additional districts, as of March 31, 2011.215
DST personnel increases for 2011 are planned primarily for the south and east, as
shown in Figure 3.23. U.S. PRT staffing is projected to increase substantially in
2011, as shown in Figure 3.24.
   To coincide with President Karzai’s requirement to phase out PRTs and DSTs,
DoS noted that DSTs could be merged with PRTs, which would then be merged
into larger regional platforms, reducing the overall U.S. presence. Before that
transition takes place, PRTs and DSTs will shift their focus from basic service
delivery to training and capacity development, according to DoS, which noted
that transitions and any closures will depend on security conditions.216

PUBLIC ADMINISTRATION REFORM
The GIRoA’s inability to fill civil servant positions in the most insecure provinces
continues to hinder improvements in local government. According to USAID,
some districts have not had a government presence for more than a generation.

FIGURE 3.24

U.S. PRT STAFFING BY PROVINCE

                  December 2010: 123                                                       Projected 2011: 175




                           No U.S. Personnel          No PRT          0–6           7–13        14–20           21+

Notes: Staffing is as of 12/31/2010. Projected staffing subject to adjustment for evolving security and other conditions.
Source: DoS, response to SIGAR data call, 4/13/2011.




                   REPORT TO THE UNITED STATES CONGRESS                         I   APRIL 30, 2011                          83
                                                                     GOVERNANCE




FIGURE 3.25                                                          It noted that government hiring in provinces must be accelerated if Afghanistan
                                                                     is to develop a self-sustaining government. According to USAID, the number of
PROPORTION OF CIVIL SERVICE
                                                                     civil servants working at the provincial and district levels in the 14 most unsta-
POSITIONS VACANT, SELECTED
                                                                     ble provinces remains far below the level required for effective government.
PROVINCES (PERCENT)
                                                                     Southern and eastern provinces faced the most difficulties in staffing, as shown
                                                                     in Figure 3.25. In 11 of those provinces, according to February 2011 statistics,
                                                                     more than 40% of the ministry tashkils are unfilled, and many of the most impor-
                                                                     tant positions for enabling service delivery are vacant.217
                                                                         According to USAID, the GIRoA faces the following challenges in recruiting
                                                                     local officials:218
                                                                      • lack of financial, technical, and logistical support
                                                       No data        • lack of security at the provincial level
                                                       30–40          • weak human resource functions
                                                       41–55
                                                       56–70          • low salaries, lack of hazard and overtime pay
                                                       71–85          • strong anti-government propaganda
                                                                        The U.S. Department of the Treasury (Treasury) also noted the GIRoA’s
Notes: Numbers affected by rounding. Data reflects the               dependence on the international donor community for financial assistance and
percentage of tashkil positions not filled by either civil service
or contracted employees in the ministries of Education,              public financial management, stating that the GIRoA has much work to do to
Agriculture, Interior, Public Health, Finance, and Communication
and Information Technology, as well as the Independent               improve its technical capacity. Although the Afghanistan Civil Service Institute
Directorate of Local Governance. USAID provided statistics for
only the 14 most insecure provinces.
                                                                     trained 16,000 people in 2010, many of those trained lack practical experience in
Source: USAID, response to SIGAR data call, 4/1/2011.                financial management. Furthermore, once new hires have gained experience in
                                                                     government systems, they are often recruited by international donors and NGOs,
                                                                     which can pay higher wages than the GIRoA can offer.219
                                                                        Through the Insecure Provinces Recruitment Strategy, the United States has
                                                                     partnered with GIRoA ministries and the Civil Service Commission (CSC) to
                                                                     improve their ability to provide services in provinces where security is poor. This
                                                                     strategy, developed in fall 2010, identifies several ways to improve recruitment:220
                                                                      • Maintain the recent improvements in stability provided by security services.
                                                                      • Improve gender awareness training, strengthen recruitment of women into
                                                                         government, and provide flexible work programs to accommodate their fam-
                                                                         ily and housing requirements.
                                                                      • Introduce strong provincial human resources units.
                                                                      • Raise salaries.
                                                                      • Increase the number of secure housing units for civil servants.
                                                                      • Conduct job fairs.
                                                                        From December 2010 through March 31, 2011, the United States supported
                                                                     the Independent Administrative Reform and Civil Service Commission (IARCSC)
                                                                     and the Independent Directorate of Local Governance in conducting a series of
                                                                     activities, including job fairs in Kandahar, Uruzgan, and Zabul that resulted in the
                                                                     hiring of 322 civil servants. USAID noted that the success of the Kandahar event
                                                                     resulted from improvements in security, the availability of secure housing, a tem-
                                                                     porary lowering of educational and experience requirements, and support from
                                                                     the USAID’s Afghanistan Civil Service Support (ACSS) program and ISAF.221




                                                                       84                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                               GOVERNANCE




   In addition, as of March 31, 2011, the CSC was developing provincial human
resource offices to improve governmental human resource functions. The CSC,
through the Provincial Affairs Directorate, was also developing a model province
to use as the basis for a Center of Excellence for Sub-National Governance.222

Budget Administration
On March 12, 2011, the Meshrano Jirga officially presented the national budget
to the Wolesi Jirga. The budget totals Af 210.7 billion—more than double the
Af 92 billion in revenue that the MoF estimated it would collect in FY 2011.223
The Meshrano Jirga approved the budget in February 2011, but the Wolesi Jirga
rejected it, according to DoS. As this report went to press, the final budget had
not yet been resubmitted.224

Budget Execution
The GIRoA’s budget is broken into two categories: the core budget (including
operating and development budgets) and the external budget (which covers
security and development expenses and is entirely funded by international assis-
tance).225 The core budget receives funding from multiple sources; trust funds
constitute a significant portion of international contributions to it.226

OPERATING BUDGET
The proposed core operating budget is Af 150.0 billion for solar year (SY) 1390,
which runs from March 21, 2011, to March 20, 2012. The operating budget rose in
each of the last three solar years, from Af 78.2 billion in SY 1387 to Af 116.5 bil-
lion in SY 1389, as shown in Figure 3.26. The operating budget consists mainly of
recurrent costs such as wages and salaries.227


FIGURE 3.26

OPERATING BUDGET EXECUTION, SY 1387–1389 (Af BILLIONS)


1389                                                  111.2                                                    5.3 116.5

1388                                         88.0                                         11.5    99.5

1387                                69.2                                 9.0    78.2

       0                          30                        60                          90                         120


                                           Expenditures             Unexpended Funds

Notes: Numbers affected by rounding. US$1 = Af 46.23. SY = solar year, which runs from March 21 to March 20.
Source: Treasury, response to SIGAR data call, 4/5/2011.




                  REPORT TO THE UNITED STATES CONGRESS                     I   APRIL 30, 2011                        85
GOVERNANCE




TABLE 3.6


OPERATING BUDGET EXECUTION, FIVE LARGEST MINISTRY BUDGETS, SY 1387–1389
                                                      Approved Budget              Expenditures                Execution Rate
Ministry                                                  (Af Billions)             (Af Billions)                         (%)
Interior                                                           64.7                    61.1                              94
Defense                                                            60.6                    60.1                              99
Education                                                          49.1                    47.9                              98
Martyrs, Disabled, and Social Affairs                              14.7                    13.6                              93
Finance                                                             8.1                        7.9                           97
Note: Numbers affected by rounding.
Source: Treasury, response to SIGAR data call, 4/5/2011.



FIGURE 3.27

DEVELOPMENT BUDGET EXECUTION, SY 1387–1389 (Af BILLIONS)


1389                      45.4                                               65.0                               110.4

1388                     43.6                                                    77.4                                    121.0

1387                       45.4                                             62.6                               108.0

       0                              30                      60                          90                           120


                                            Expenditures             Unexpended Funds

Notes: Numbers affected by rounding. US$1 = Af 46.23. SY = solar year, which runs from March 21 to March 20.
Source: Treasury, response to SIGAR data call, 4/5/2011.




   During this period of budgetary growth, the GIRoA managed to execute 91%
of its core operating budget. The largest ministerial operating budgets all had
execution rates of at least 93%, as shown in Table 3.6.228

DEVELOPMENT BUDGET
The proposed core development budget for SY 1390 is Af 65.9 billion. In the
preceding three solar years, development budgets ranged from Af 108 to
Af 121 billion. From SY 1387 through SY 1389, the GIRoA’s execution of the core
development budget averaged 40%. The development budget is made up of capital
expenditures in governance, rule of law, infrastructure, education, health, agricul-
ture and rural development, social protection, and private sector development.229
The overall execution rate of the development budget remained low, as shown in
Figure 3.27. Execution rates ranged from a high of 42% in SY 1387 to a low of 36%
in SY 1388. There is significant variance in the rate for individual ministries, as
detailed in Table 3.7. 230
   As noted in previous SIGAR quarterly reports, the GIRoA consistently
has difficulty executing the development budget. In a February 2011 a press



    86                        SPECIAL INSPECTOR GENERAL               I   AFGHANISTAN RECONSTRUCTION
                                                                               GOVERNANCE




conference, the Deputy Minister of Finance attributed the problems in execut-
ing the 2010 development budget to the lack of security, the late approval of the
budget by the National Assembly, insufficient agency capacity, bureaucracy, and
organizational interference.231

Budgeting Capacity
The GIRoA’s weakness in planning and budgeting stems from difficulties in suf-
ficient consultation and coordination between primary budgetary units of the
central government and their subordinates at the provinces and districts, accord-
ing to Treasury. Even though provincial directorates hold primary responsibility
for executing operating budgets, the central government plans for, rather than
with, the local governments. In addition, unspent funds from dormant develop-
ment projects are often carried forward, with the expectation that funding for
those earmarked projects will still be provided by the donor.232
    Treasury’s Office of Technical Assistance (OTA) works with GIRoA ministries
to improve their capacity to develop procedures for budget execution and moni-
toring, including support to the MoF to improve the budgeting capacity of civil
servants in the provinces. The OTA identified a number of accomplishments this
quarter, including helping the MoF develop and deliver training on budgeting,
advising the MoF on communication improvements, and training PRTs on assist-
ing line directorates.233
    Treasury identified a number of recommendations on how the GIRoA could
improve its budgeting practices:234
 • Improve the planning process by having all documents ready to begin the
    procurement process.
 • Use a multi-year budget instead of a single-year budget to give more leeway to
    manage delays and eliminate the need to carry funds forward from year to year.
 • Strengthen capacity at the provincial level.
 • Increase knowledge of budgeting.

TABLE 3.7


DEVELOPMENT BUDGET EXECUTION, FIVE LARGEST MINISTRY BUDGETS,
SY 1387–1389
                                                           Approved Budget           Expenditures     Execution Rate
Ministry                                                       (Af Billions)          (Af Billions)              (%)
Rural Rehabilitation and Development                                   75.6                  31.8                42
Public Works                                                           69.0                  25.8                37
Energy and Water                                                       40.0                  17.3                43
Education                                                              28.1                  11.4                41
Public Health                                                          20.6                  11.3                55
Note: Numbers affected by rounding.
Source: Treasury, response to SIGAR data call, 4/5/2011.




                  REPORT TO THE UNITED STATES CONGRESS                     I   APRIL 30, 2011                87
GOVERNANCE




Budget Transparency
Last quarter, the International Budget Partnership (IBP), a project of the U.S.-
based Center on Budget and Policy Priorities, released its 2010 Open Budget
Survey, which rated Afghanistan’s budget transparency as “minimal” (21 out
of 100). This was a 13-point improvement from its last survey, taken in 2008,
which rated the budget transparency as “scant.” The IBP said the publication by
the GIRoA of certain budget documents had helped improve budget transpar-
ency. However, the survey report criticized the GIRoA for not publishing the
Executive’s Budget Proposal, which the IBP considers the most important bud-
get document in government. The IBP also noted that the technical capacity of
MoF staff has improved as a result of the international community’s assistance.
Metrics used in the survey included current budgeting practices and transparent,
participatory, and accountable budget systems.235

Capacity Building for Public Administration
The United States is helping to develop the GIRoA’s capacity through a number
of programs to improve the work of ministries, local and provincial governments,
and the civil service.

Foreign Affairs Institutional Reform
This quarter, USAID began implementing the Foreign Affairs Institutional Reform
program for the GIRoA. The program is expected to cost more than $9.6 million
in its first year and more than $25.3 million if both option years are implemented.
The program has three objectives:236
 1. Enhance the capacity of Ministry of Foreign Affairs (MoFA) officials to per-
    form policy and administrative duties.
 2. Improve the functioning of MoFA headquarters and Afghan diplomatic and
    consular missions.
 3. Provide the MoFA with the equipment and business operations needed to
    accomplish objectives 1 and 2.
USAID noted early successes in its initial program meetings with GIRoA coun-
terparts to strategize and plan implementation and gain support for the program,
including the creation of the work plan, performance monitoring plan, and
branding plan.237

Afghanistan Civil Service Support
USAID’s Afghanistan Civil Service Support (ACSS) program works in partner-
ship with the Independent Administrative Reform and Civil Service Commission
(IARCSC) to reform the civil service and train its members. As of January 2011,
the program had expended more than $196 million and was scheduled to be com-
pleted on May 31, 2011, although a $19.5 million cost extension until fall 2011 was
under review. The ACSS is intended to raise the skill levels of civil servants so that
ministries are better able to modernize, institutionalize, and harmonize common




  88                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                       GOVERNANCE




administrative systems across the government. According to USAID, the ACSS
has led to an expansion of merit-based appointments of senior civil servants, the
piloting of a management information system for human resources, and improve-
ment of the performance appraisal system.238

Performance-Based Governors’ Fund
As noted in previous SIGAR quarterly reports, USAID’s Performance-Based
Governors’ Fund is designed to promote the ability of governors to manage key
functions of their offices and extend community outreach programs, including
conducting shuras. The program is administered by the Asia Foundation. As of
March 31, 2011, more than $16.3 million had been obligated for the program, and
more than $13.5 had been disbursed.239 A $75 million, 18-month extension was
under review.240
   According to USAID, the program has been particularly successful in Badghis
province. The province’s governor has used the program to involve various
government offices in decision-making and create a small district government
fund for the planning and budgeting processes.241 According to DoS, PRTs in
Kunduz and Takhar reported that $25,000 per month from the Performance-
Based Governors’ Fund helps provincial leadership maintain an operational
budget and allows governors to quickly respond to constituents’ requests.242
Underperforming provinces included Parwan, Panjshir, and Baghlan, according
to USAID. Performance in these provinces suffered from a lack of understand-
ing of the purpose of the fund, low capacity at the provincial level, ineffective
oversight by elected provincial bodies, and poor planning.243

Afghanistan Municipal Strengthening Program
As of March 31, 2011, USAID had obligated $21 million and expended approxi-
mately $14 million for the Afghanistan Municipal Strengthening program.
Program staff members work with provincial municipalities to improve their
capacity to provide essential public services. The program has established an         SIGAR AUDIT
integrated financial system in Pashtu that tracks revenue generation, land titling,
and payroll for Kandahar City, according to USAID. Payroll processing now takes       SIGAR’s audit of Afghanistan’s National
three hours to complete, instead of the three days it took before the project.244     Solidarity Program focused on efforts to
   Major challenges in implementing the program include the targeting of munici-      build the capacity of local governments
pal staff by insurgents. Furthermore, the presidential decree banning private         by electing community development
security companies resulted in uncertainties that constrained staff movements         councils and training them to manage
and halted the implementation of virtually all programs for about two months          small-scale projects. For more informa-
until a contingency plan was approved. In addition, difficulties in staffing and      tion, see Section 1, page 4.
attendance for municipal personnel created challenges. USAID also noted resis-
tance from some mayors to program activities that were intended to improve
transparency and accountability.245




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2011        89
GOVERNANCE




USAID Initiative To Promote Afghan Civil Society
From the program award in October 2010 through March 31, 2011, USAID has
obligated more than $8 million to the Initiative to Promote Afghan Civil Society.
The program enables Afghan citizens to participate more effectively in the politi-
cal process, solve community problems, and demand good governance from
their leaders. USAID noted that the program has selected representatives for its
national advisory committee and finalized its operational and strategic frame-
work. In addition, the program announced several open solicitations for small
grants to civil society organizations. According to USAID, the program suffered
delays and difficulties in staffing because of the issue with private security
contractors.246

JUDICIAL REFORM AND RULE OF LAW
Within the Afghan judicial system, provincial and district courts have the most
urgent needs for improvements in recruitment and capacity, according to USAID.
In some areas, these courts may be undermined by “shadow courts” created by
insurgents. Such courts have been a major source of power and legitimacy for
insurgents in the districts they occupy.247
   According to USAID, improving the poor capacity of rule-of-law institutions
in insecure provinces requires the GIRoA and the United States to take a number
of steps:248
 • Improve coordination between governors and the Ministry of Justice (MoJ).
 • Develop a plan to organize judges and courts in districts that have been
    cleared of insurgents.
 • Offer assistance to the MoJ and the Judicial Selection Panel to help hire or
    reassign judges.
 • Support community judges that are appointed by shuras.
 • Appoint community judges and train them on the rule of law.

Criminal Procedure Code
In March 2011, the Taqnin—the MoJ’s legislative drafting body—completed its
preliminary review of the Criminal Procedure Code (CPC) and shared it with the
international community. The draft contains substantial changes from the June
2009 draft finalized by the Criminal Law Reform Working Group, according to the
DoS Bureau of International Narcotics and Law Enforcement Affairs (INL).
   A review of the Taqnin’s draft by the Working Group, which INL’s Justice
Sector Support Program staff co-chairs, found problematic inconsistencies with
the Afghan Constitution and international standards that INL believes must be
addressed. As of March 31, 2011, the Working Group was drafting a summary of
recommendations for the Taqnin to review.249




  90               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                       GOVERNANCE




FinTRACA
This quarter, according to Treasury, the Financial Transactions and Reports
Analysis Center of Afghanistan (FinTRACA) continued to make steady prog-
ress in receiving, analyzing, and disseminating reports of suspicious financial
transactions. As of March 31, 2011, FinTRACA had initiated 21 investigations
of purported money laundering. Five of these cases had been sent to the AGO
for prosecution under the GIRoA’s anti-money laundering and anti-terrorism
financing laws. Using electronic information obtained from commercial banks,
FinTRACA has developed a database of politically exposed persons—senior
public officials and their families and financial partners—to assist banks in con-
ducting due diligence on the accounts of such people.
   Treasury noted that FinTRACA also now has software that enables sharing
information electronically and securely with law enforcement agencies. The OTA
had maintained a resident advisor at FinTRACA through December 2010; as of
March 31, 2011, it was reviewing a replacement.250

U.S. SUPPORT FOR THE JUDICIAL SYSTEM
The United States has several programs for improving the Afghan judicial
system. Efforts include training lawyers, judges, and investigators, as well as
improving informal and formal legal processes by educating the public and sup-
porting dispute resolution events.

U.S. Justice Sector Support Program
Operating under INL, the Justice Sector Support Program (JSSP) aims to develop
the capacity of the Afghan criminal justice system. Program staff members work
with Afghan justice professionals, including prosecutors, and encourage coor-
dination between defense attorneys and other professional staff in the justice
system.251
   This quarter, 139 Afghan prosecutors, defense attorneys, judges, and crimi-
nal investigators graduated from JSSP legal training programs.252 The JSSP also
added to the number of U.S. and local Afghan lawyers on its staff, growing from
107 in December 2010 to 127 in March 2011, according to INL. The JSSP’s goal
remains to build a staff of 158.253
   As of March 31, 2011, INL was drafting guidelines for an extension of the JSSP
based on experiences in the preceding year. Anticipated changes include moving
some functions into the U.S. Embassy’s portfolio.254
   This quarter, INL announced a $4.7 million grant for a new program to
improve access to justice for Afghans. The grant was awarded to Global Rights,
an international human rights organization focused on capacity-building.
According to DoS, the program is intended to strengthen the practical skills of
future legal and human rights defenders and improve access to justice for family
law clients. Through the program, students and professors from law schools and
Sharia law institutions will receive training in human rights and women’s rights




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2011       91
GOVERNANCE




at the Nangarhar, Herat, and Mazar universities. Legal advice bureaus will also
be established to improve access to family courts in Mazar-e Sharif and three
provinces—Kabul, Herat, and Nangarhar.255

Rule of Law and Stabilization Program
USAID’s Rule of Law and Stabilization program has two components: formal and
informal. As of March 31, 2011, each component has expended almost $10 million,
and the two programs together are expected to expend a total of $9.5 million
to complete their efforts. According to USAID, the two components have
three goals:256
 • Build the capacity of the judiciary and law schools.
 • Strengthen public awareness of law.
 • Increase stability through support of the informal justice system.
   This quarter, USAID noted that the formal program conducted a moot court
competition for faculty from five law and Sharia law institutions and initiated
a mock trial program to train new judges. USAID also partnered with INL, the
European Union Police, and the German Police Project Team to open an 11-week
judicial training program. The formal program distributed 100,000 copies of legal-
awareness materials to the public, and it used judicial inspection teams to reduce
the court backlog in Paktika province by 73 cases.257
   USAID intends to extend the formal component’s contract until June 2012. In
that time, USAID plans to accomplish the following:258
 • Complete the year-long training program for new judges.
 • Continue to train judges in the areas around the four regional justice centers
   that are supported by the U.S. government.
 • Expand the Supreme Court’s judicial inspection tours to additional
   provinces.
 • Improve the operation of faculties from law and Sharia institutions.
   In January 2011, the informal component was assessed to have made signifi-
cant progress toward the program goals. According to USAID, the assessment
showed increased public awareness of legal rights and a strengthened bond
between the formal and informal elements in the justice sector. Program activi-
ties in the east and the south this quarter included numerous meetings on legal
rights with village elders—meetings that included women—to help resolve
disputes.259
   USAID extended the end date of the informal program from March 18 to
July 18, 2011. For the remainder of the contract, USAID plans to expand the
program into four new areas in the south and east. USAID stated that it is also
developing plans for a potential follow-on program.260




  92               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                       GOVERNANCE




Rule of Law Field Force - Afghanistan
DoD’s Rule of Law Field Force - Afghanistan (ROLFF-A) supports the Afghan jus-
tice and correctional system through various efforts, including capacity building
for the High Office of Oversight for Anti-Corruption (HOOAC), the MoJ, and the
Supreme Court. As of March 31, 2011, the ROLFF-A was providing security, com-
munications, transportation, and infrastructure support to the GIRoA to establish
justice centers in secured areas. The ROLFF-A is also working with the MoJ and
the MoI to build the Chel Zeena Criminal Investigative Center in the Saraposa
prison near Kandahar City. The Center will provide training in professional,
evidence-based investigations and prosecutions of detainees.261

Detention Center Transition
U.S. efforts to train and equip the GIRoA to take control of the detention facility
in Parwan continued this quarter, according to DoD. As of March 31, 2011, the
Combined Joint Interagency Task Force 435 (CJIATF-435) and the ROLFF-A had
trained more than 100 Afghan National Army military police, and 700 more were
in training.262
                                                                                      Prisoners at the detention facility in Parwan
    As noted in SIGAR’s January 2011 quarterly report, the first transfer of a        include criminals as well as insurgent
detention housing unit to Afghan control took place on January 17, 2011. No           leaders whom Afghan authorities classified
additional detention housing unit transfers occurred this quarter. Two additional     as national security threats and trans-
units are scheduled to be completed in April and June 2011. Those units will be       ferred from other Afghan prisons in order
transferred to the control of the Afghan National Security Forces when those          to segregate them from the general prison
forces are trained and equipped to operate them. After that transfer takes place,     population, according to DoD.
Afghans—with substantial U.S. oversight—will be responsible for detention
                                                                                      Source: OSD, response to SIGAR data call, 4/1/2011.
housing units containing approximately 1,200 beds.263
    In dealing with detainees, the U.S. government and the GIRoA promote the
concept of reintegrating through the APRP, according to DoD. As of March 31,
2011, the GIRoA had taught reintegration courses, including basic skills training,
to 320 detainees. Because the reintegration program is in its early stages, DoD
was not yet able to assess the recidivism rate.264
    On April 5, 2011, the MoD and the CJIATF-435 signed a Memorandum of
Agreement on reintegration that established a vocational training program for
insurgent detainees at the detention facility in Parwan who agree to renounce
the insurgency. In the agreement, according to U.S. Central Command, the
CJIATF-435 agreed to create the program, and the GIRoA agreed to sustain
it following the transition at the detention facility in Parwan. The Ministry of
Education will also assist in the training by approving courses and identifying
instructors.265




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2011         93
GOVERNANCE




Indefinite Detentions
As of March 31, 2011, the GIRoA was still reviewing the practice of detaining
insurgents for indefinite periods. According to DoS, these deliberations were still
in their early stages. President Karzai had not yet publicly expressed his opinion
on a detention system, but he did indicate that any future scheme should include
a reconciliation program.266 According to DoD and DoS, the U.S. position is that
the GIRoA should detain insurgents in a manner that is consistent with Afghan
and international law. The law of armed conflict could allow for detention with-
out trial, according to DoD.267 DoS noted that the U.S. government is encouraging
the GIRoA to swiftly develop a legal process for this matter, because the lack of
a process hinders U.S. efforts to transfer responsibility for the operations at the
detention facility in Parwan.268

Provincial Prisons
INL funds the Corrections System Support Program (CSSP), which partners
with the GIRoA to develop a humane, secure, and safe corrections system that
meets international standards and Afghan cultural requirements. The CSSP
took over responsibility for support and mentoring for the Saraposa provincial
prison in Kandahar; the Correction Service of Canada had previously held that
responsibility.269
   INL also completed the renovation of an industries building at the Pol-i-
Charkhi prison. With the aid of CSSP mentors, the Central Prisons Directorate
at Pol-i-Charkhi has instituted enhanced visitation search procedures that entail
screening at five points. With the CSSP’s assistance, the prisoner classification
that began in 2010 had been completed for almost one-third of all prisoners as of
March 31, 2011.270
   INL identified widespread challenges that face the corrections system,
including a dramatically increasing population, lack of funding, crumbling
infrastructure, low staffing levels, inconsistent power supplies, and poor commu-
nications between facilities and headquarters in Kabul.271

ACCESS TO INFORMATION
Key aspects of good governance include a fair and free press and a knowledge-
able public. Freedom of the press remains an issue in Afghanistan. According to
USAID, despite relative freedom, journalists face threats, beatings, torture, and
intimidation. USAID supports independent media through its Afghanistan Media
Development and Empowerment Project, which regularly monitors and reports
on media freedom and threats to journalists.272
   DoS and USAID are promoting the use of mobile technologies to improve
governance by enhancing access to information, according to USAID. In March
2011, USAID launched the Mobile Khabar-Mobile Telephone News Service, which




  94               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                       GOVERNANCE




collects news and information and delivers on-demand content to users. USAID
predicted that once the service is operational, Afghans will be able to access
radio broadcasts and other audio content through mobile phones at little or
no cost. The program is operated by the Access to Information Foundation, an
Afghan-led organization. Mobile technology can also enhance public administra-
tion. USAID noted that it is conducting a program to pay government salaries
through mobile phones for 113 district councilors in Nangarhar through the
Afghan Social Outreach Program.273

HUMAN RIGHTS
The issue of human rights in Afghanistan has continued to be a focus of U.S.
efforts. This section provides updated information on specific human rights
issues in Afghanistan related to detentions, displaced persons, women’s shelters,
and children’s rights.

Detainees and Prisoners
This quarter, arbitrary detentions by Afghan law enforcement and security forces
continued to undermine the rule of law and adversely affect public perception of
the justice and security systems, according to the UN Secretary-General. UNAMA
continued to receive allegations of mistreatment, prolonged detention without
charge or trial, and detainment without access to legal counsel in facilities run
by the National Directorate of Security and the MoJ. However, the Secretary-
General noted that detention conditions have improved in some facilities,
especially those in which capacity-building and infrastructure projects have been
carried out.274

Displaced Persons
On March 28, 2011, the UN High Commissioner on Refugees (UNHCR) issued its
annual report on asylum-seeking trends. In 2010, Afghans were the second-
largest group of asylum-seekers in the world—with 24,800 claims—according
to the UNHCR’s survey of claims submitted in the United States, Europe, and
selected non-European countries. This number represents a 9% decrease from
2009, when Afghanistan led the world with 27,200 claims. In 2010, Germany
(5,900) and Sweden (2,400) were the main destination countries for Afghans; the       Asylum-seeker: an individual who has
United States received 548 asylum applications from Afghans in 2010, about the        sought international protection and whose
same as in 2009. 275                                                                  claim for refugee status has not yet been
                                                                                      approved. In Afghanistan, asylum-seeking
   The drop in asylum-seekers could be a result of the recent tightening of
                                                                                      is caused mainly by lack of security, poor
immigration laws in destination countries, according to the UNHCR and the
                                                                                      socio-economic conditions, and pessimism
Afghan Ministry of Refugees and Repatriation. In recent years, hundreds of            about the future.
Afghans have been deported from Europe and Australia. On January 17, 2011, the
GIRoA and Australia signed a Memorandum of Understanding (MOU) on asylum
issues. UNAMA noted that although Australian authorities believe that the MOU       Source: UNAMA, “Afghan asylum-seekers hit by tighter immigra-
                                                                                    tion rules,” 3/31/2011; UNHCR, “Asylum Levels and Trends in
allows the deportation of rejected asylum-seekers, the GIRoA disagrees and has      Industrialized Countries 2010,” 3/28/2011.

accused Australia of misinterpreting the agreement.276




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2011      95
                                                        GOVERNANCE




                                                           Most Afghan refugees and asylum seekers still reside in Central Asia; large
                                                        numbers live in Iran (approximately 900,000) and Pakistan (approximately
                                                        2 million), according to the UNHCR. More than 110,000 Afghan refugees returned
                                                        to Afghanistan in 2010, a sharp increase from 2009 when more than 54,000
                                                        returned.277 DoS stated that it did not begin any NGO programs for Afghan refu-
                                                        gees or obligate any funding for NGO refugee programs during the quarter that
                                                        ended March 31, 2011.278

                                                        Gender Equity
                                                        The rights of women in Afghan society continue to be a controversial topic
                                                        between the international community and the GIRoA. This quarter, the issue of
    SIGAR AUDIT                                         women’s shelters became a particular point of contention.
    A 2010 SIGAR audit called for in-
    creased coordination to meet congres-               Women’s Shelters
    sional directives to address and report             The GIRoA has demonstrated mixed views on women’s shelters, reflecting
    on the needs of Afghan women and                    the contentiousness of women’s rights in Afghan culture, according to USAID.
    girls. For details, see www.sigar.mil.              Important protections for women were provided through the 2009 Law for the
                                                        Elimination of Violence Against Women and the GIRoA’s 2008–2018 National
                                                        Action Plan for the Women of Afghanistan. But a draft shelter regulation released
                                                        in January 2011 raised concern, according to USAID, because it would threaten
                                                        U.S. funding, would be hindered by a lack of capacity, and would restrict access
                                                        for women in need.279
                                                           The draft regulation called for the Ministry of Women’s Affairs (MoWA) to
                                                        take over the 11 NGO-run shelters in Afghanistan, 3 of which are funded by
Some Afghans view shelters as foreign-run               DoS through INL. INL is also funding three new shelters, set to open in May. If
institutions that encourage women to run
                                                        enacted, this draft regulation would have led to the closure of all INL-funded
away from their families, seek divorce, or
                                                        shelters and dramatically reduced access to shelters for vulnerable women.280
take other culturally unacceptable actions.
                                                           According to DoS, the MoWA backtracked significantly from this controversial
Slanderous statements about shelters have
been broadcast on Afghan television—for                 draft. On April 2, the regulation was heavily revised at the Taqnin. This revised
example, that shelters are fronts for pros-             draft reflected input from MoWA leadership, the international community, shelter
titution. NGOs that operate shelters have               NGOs, and civil society organizations. It would establish a shelters directorate
been growing concerned about the effect                 within the MoWA to oversee NGO-run shelters and to open MoWA government
that such claims have on their operations,              shelters in the future. USAID noted that the MoWA’s own Priority Program
safety, and public opinion.                             Restructuring (PPR) goals allow it to exercise only monitoring and evaluation
                                                        functions. DoS noted that the U.S. government, NGOs, and the international com-
Source: USAID, response to SIGAR data call, 4/1/2011.
                                                        munity will continue to work with the MoWA on this sensitive issue.281
                                                           Following the issuance in December 2010 of a UNAMA report, “Harmful
                                                        Traditional Practices and Implementation of the Law on the Elimination of
                                                        Violence against Women,” the United Nations Population Fund (UNFPA), in
                                                        coordination with the MoI and the European Union Police, produced a train-
                                                        ing manual on preventing violence against women. According to the UN




                                                          96               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                       GOVERNANCE




Secretary-General, Afghanistan’s police academy has integrated this manual into
its training curriculum.282

Children’s Rights
On January 30, 2011, the GIRoA and the UN signed a child protection plan that is
intended to end the recruitment and use of children in the Afghan army, intel-
ligence services, and local police forces—a practice that put the Afghan National
Police on the UN’s list of organizations that commit “grave violations against
children in armed conflict.”283 The plan requires the GIRoA to improve verifica-
tion of recruits’ birth registration and age, and to investigate and prosecute those
who recruit minors. The Secretary-General said this plan was an important first
step in a broader campaign to improve the lives of children by inhibiting harm-
ful practices like under-age recruitment, violence toward children, sexual abuse,
attacks against schools and hospitals, abductions, and denial of humanitarian
access.284 UNAMA viewed the plan as an ambitious undertaking, and the inter-
national community will need to provide reliable, sustainable, and long-term
support if the campaign is to succeed.285
   According to the Secretary-General, the High Peace Council committed to
support the adoption of the child protection plan. The Council recognized that
the reintegration of children should be a goal of the APRP. It also recognized the
need to engage in discussions with non-state actors about the immediate release
of any children within their ranks.286




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2011         97
TITLE OF THE SECTION




 98    SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  ECONOMIC AND SOCIAL DEVELOPMENT
  As of March 31, 2011, the U.S. government had provided more than $16.6 billion
  to support governance and economic development in Afghanistan, as shown
  in Appendix B. As noted in SIGAR’s January 2011 quarterly report, economic
  growth in the country is highly dependent on the security and reconstruction
  spending financed by international donors. This quarter, however, the lack of
  a new International Monetary Fund (IMF) program for Afghanistan—owing
  to concerns about Kabul Bank—forced some donors to delay payments to the
  Afghanistan Reconstruction Trust Fund (ARTF) or reconsider direct assis-
  tance commitments to the Government of the Islamic Republic of Afghanistan
  (GIRoA).
     In another important development, the GIRoA reached an agreement to allow
  private security contractors (PSCs) guarding reconstruction projects to continue
  to operate for another year. This was a key issue for many private companies
  and non-governmental entities that are implementing reconstruction projects.
  This section provides a summary of these developments, as well as progress
  this quarter in delivering essential services, building critical infrastructure, and
  strengthening Afghan capacity.

  LEADING INDICATORS
  This quarter, the Afghan economy continued to grow, but inflation also increased.
  The crisis in the banking sector remained unresolved, although progress was
  reported in efforts to conduct forensic audits of the Kabul and Azizi banks.
  Congressional concerns over the capacity of GIRoA ministries to account for
  U.S. funds were reflected in the many restrictions to direct assistance included in
  the FY 2011 U.S. budget. For more information on details of the FY 2011 budget
  related to foreign assistance, see Section 2.

  GDP and Economic Growth
  GDP grew a strong 8.2% for the Afghan fiscal year that ended March 20, 2011
  (solar year [SY] 1389), according to the most recent development outlook from
  the Asian Development Bank. As previously noted by SIGAR, the key drivers of
  growth are spending on security and development. The Bank expects the Afghan
  economy to continue to grow by 8–9% for the next two fiscal years, provided that
  international assistance continues, the agriculture and services sector do well,
  the mining sector develops, and the Kabul Bank crisis is resolved.287



              REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2011         99
                                                          ECONOMIC AND SOCIAL DEVELOPMENT




                                                          Inflation
                                                          Inflation in the Afghan economy rose this quarter because of rising world food
                                                          prices, monetary expansion, and a jump in fuel prices following an Iranian oil and
                                                          gas blockade. Overall, total inflation increased from 5% in July 2010 to 18.4% in
                                                          January 2011, according to the IMF.288 The ADB also reported inflationary pressures,
                                                          noting that food prices in February 2011 were 20.9% higher than a year earlier.289
                                                             The rate of inflation was exacerbated by an Iranian blockade that prevented
                                                          oil and gas tankers from moving through Iranian territory to deliver fuel sup-
                                                          plies to Afghanistan.290 In addition, Iran imposed fees on the tankers that were
                                                          forced to wait at its border, according to Radio Free Europe/Radio Liberty.291
                                                          Following negotiations with Iran, Afghan officials announced that the issue had
                                                          been resolved. According to a NATO publication, the GIRoA signed an agree-
                                                          ment pledging to buy a portion of its future gas and diesel supplies from Iran.292
                                                          Afghanistan has no oil refinery of its own; Iran already supplies about 30% of
                                                          Afghanistan’s refined oil products.293 The economic impact of the blockade was
                                                          a sharp rise in fuel prices in Afghanistan, especially in the western part of the
                                                          country, according to the U.S. Department of State (DoS).294

                                                          BANKING
                                                          This quarter, developments in the banking sector were dominated by discussions
  Extended Credit Facility (ECF): Formerly                between the IMF and the GIRoA over a new Extended Credit Facility (ECF)
  known as the Poverty Reduction and                      program for Afghanistan. The previous ECF program expired in September 2010.
  Growth Facility, the ECF provides financial             An ECF is an important benchmark for international donors: many countries will
  assistance to countries with protracted                 not provide reconstruction funding to Afghanistan unless an IMF-approved loan
  balance-of-payments problems. The IMF                   program is in place.295
  created the ECF as part of a broader re-                   Approximately $70 million in disbursements from the ARTF’s incentive pro-
  form to make the IMF’s financial support                gram (for economic governance and policy reforms) could be withheld if no IMF
  more flexible and better tailored to the                program is in place, according to the United Nations (UN) Secretary-General.
  specific needs of each nation.
                                                          Future disbursements from the ARTF Recurrent Cost financing window could
                                                          be affected, and many bilateral donors might have to suspend or redirect their
Source: IMF, “Factsheet: IMF Extended Credit Facility,”   assistance if the situation is not resolved.296
3/31/2011.
                                                             The IMF has made it clear, however, that it will not consider a new ECF
                                                          program for Afghanistan until the Central Bank (DAB) resolves the crisis at the
                                                          Kabul Bank with a transparent, credible, and fully financed plan of action.297
                                                          According to the IMF, a GIRoA plan to address the crisis at Kabul Bank should
                                                          include these components:298
                                                           • clear communication to explain the steps that will be taken to deal with the
                                                             bank and protect the banking system
                                                           • assurances that any illegal behavior or fraud will be prosecuted under the law
                                                           • receivership for the bank, followed by a process to rapidly sell it off or wind
                                                             it down
                                                           • recapitalization of DAB with government resources
                                                            Negotiations between the IMF and the GIRoA were proceeding very slowly,
                                                          according to the U.S. Department of the Treasury (Treasury). As of March 31,



                                                           100                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
Economic and Social development




  2011, no agreement had been reached.299 An IMF official noted that discussions
  were also under way about the revenue targets that the GIRoA may need to set in
  order to address the losses from Kabul Bank.300 The ADB notes that DAB, as the
  lender of last resort, has guaranteed $400 million of Kabul Bank’s deposits, but
  that more may be needed.301 The cost of resolving the Kabul Bank crisis is likely
  to have a significant impact on the GIRoA’s budget, according to Treasury.302
  The total amount of fraudulent loans diverted to Kabul Bank insiders is still
  unknown; however, it may be as much as $850 million, according to a March 16,
  2011 review by the U.S. Agency for International Development (USAID) Office of
  Inspector General (OIG).303

  Building Capacity To Regulate Banks
  Since 2003, USAID/Afghanistan has implemented a number of capacity-building
  projects to help DAB better regulate the banking sector, according to the USAID
  OIG review. These projects included the $92 million Economic Growth and                  SIGAR AUDIT
  Governance Initiative (EGGI), $9.8 million of which was obligated to provide seven
                                                                                           SIGAR is conducting an audit of the
  years of technical assistance to DAB’s Directorate for Financial Supervision.304 After
                                                                                           banking sector that will assess the con-
  the crisis at Kabul Bank became public, U.S. officials became concerned about the
                                                                                           trols that U.S. agencies have in place
  lack of effectiveness of the EGGI-provided training, which had failed to help identify
                                                                                           to track U.S. funds as they flow through
  or prevent the near collapse of the Kabul Bank. According to the review, USAID
                                                                                           the Afghan economy. In addition, the
  asked OIG to determine whether USAID staff or the EGGI contractor had been neg-
                                                                                           audit will examine the challenges facing
  ligent in failing to report indicators of fraud at Kabul Bank.305 For more information
                                                                                           U.S. efforts to improve the capacity of
  on the results of the USAID OIG review, see Section 4.
                                                                                           the Afghan financial sector. For more
     As previously noted by SIGAR, the largest share of the salary payments to the
                                                                                           information, see Section 1, page 18.
  Afghan National Security Forces and civil servants is paid through the electronic
  funds transfer network of Kabul Bank. These payments are continuing without
  interruption, according to Treasury, but alternate delivery mechanisms are being
  explored. A new request for proposals for alternative delivery mechanisms
  was scheduled to be released this quarter. According to Treasury, however, this
  process has been delayed for six months while other types of systems are being
  considered, such as cell phone–based payment systems.306

  Audits of Commercial Banks
  As noted in SIGAR’s January 2011 quarterly report, restrictions placed by DAB on
  forensic audits of the Kabul and Azizi banks led Treasury to withdraw its pro-
  posed $10 million of funding for those audits. This quarter, according to Treasury,
  the U.K. and Canadian governments agreed to fund these audits in coordination
  with the IMF. DAB has completed a technical review of the three bids it received
  from independent auditing firms to perform this work and found two of them
  acceptable. The audits are scheduled to begin in April 2011 and to be completed
  in approximately 26 weeks.307




              Report to the united states congress   I   April 30, 2011          101
                                                              ECONOMIC AND SOCIAL DEVELOPMENT




                                                                 In addition, the World Bank will finance prudential audits of 10 other Afghan
  Prudential audit: an examination of a                       banks. DAB is also responsible for selecting two independent auditing firms to
  bank’s policies and procedures to assess                    perform this work, based on World Bank guidelines, according to Treasury. The
  credit, liquidity, and operational risks.                   selection criteria established by the World Bank include minimum experience
                                                              requirements for the firms and the members of their audit teams, specific stan-
                                                              dards for the size of the firms, and a requirement that the firms be ISO-certified.
Source: FDIC, “Laws, Regulations, Related Acts,” 7500-FRB
Regulations, Part 206.3 (prudential standards), accessed
                                                              According to Treasury, the prudential audits are scheduled to begin in September
online 4/6/2011.                                              2011 and will take approximately 26 weeks. The results will be reported to DAB,
                                                              the World Bank, and the IMF.308

                                                              Anti-Money Laundering Activities
                                                              This quarter, Treasury designated the New Ansari Money Exchange—an Afghan
                                                              hawala headquartered in Kabul—as a major vehicle for money laundering by
                                                              international narcotics traffickers in the Middle East and South Asia. The New
                                                              Ansari Money Exchange is Afghanistan’s largest money-changing firm, with opera-
                                                              tions throughout Afghanistan and the United Arab Emirates.309 It transfers billions
                                                              of dollars out of the country through its Dubai subsidiaries to international and
                                                              U.S. financial institutions. As part of this designation, Treasury froze the U.S.-based
                                                              assets of 15 individuals associated with this network. U.S. citizens are now prohib-
                                                              ited from engaging in financial or commercial transactions with the New Ansari
                                                              Money Exchange or the 15 individuals associated with it. The Exchange laundered
                                                              money for major traffickers in opium, heroin, and morphine in the region.310

FIGURE 3.28
                                                              REVENUE COLLECTION
DOMESTIC REVENUE AND OPERATING                                According to the Asian Development Bank, the GIRoA’s tax collection has been
EXPENDITURES AS SHARE OF GDP,                                 increasing steadily, from approximately 7.5% of GDP in 2006 to 9.8% in 2010;
SY 1387–1389 (PERCENT)                                        however, this revenue falls far short of what is needed to operate the govern-
                                                15.1          ment. Figure 3.28 shows MoF estimates that highlight this gap. The Bank
  15%                                                         reported that the GIRoA continues to rely on international assistance, not only
                                 12.4
                  11.5                                        to close the gap between operating costs and revenue but also to fund nearly all
  10%                      9.0
                                          9.7                 of its development budget.311
            6.9

    5%
                                                              DIRECT ASSISTANCE
                                                              The U.S. government is committed to increasing the amount of U.S. assistance
                                                              channeled directly to GIRoA ministries if reforms are made and corruption is
    0%                                                        addressed. The goal is to provide 50% of U.S. assistance directly. To lay the ground-
             1387            1388           1389
                                                              work for direct assistance, the MoF launched the Public Financial Management
                                                              Assessment project this quarter, according to Treasury. This assessment will review
              Domestic Revenue
              Operating Expenditure                           the staffing, processes, and procedures in each ministry. PKF LLP, an international
Notes: Numbers affected by rounding. SY = solar year, which   accounting firm headquartered in the United Kingdom, has presented a plan for
runs from March 21 to March 20.
Source: MoF, “1390 National Budget Statement Draft,”
                                                              these assessments to international donors. Once the plan is approved by donors,
2/2011, pp. 12, 26.                                           teams of consultants will assess 14 ministries over 38 weeks. According to Treasury,
                                                              the assessments will be used to design action plans to address the weaknesses in
                                                              each ministry’s capacity to handle increased donor funding.312



                                                                102                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




     As of March 31, 2011, Treasury had nine advisors providing technical                                                          Fourteen GIRoA ministries will be
  assistance to the ministries of Finance, Interior, and Transportation and Civil                                                  assessed for their capacity to manage
  Aviation.313 Seven of them are deployed full-time to Afghanistan. The nine advi-                                                 direct assistance:
  sors provide assistance in four areas:314                                                                                        •  Finance
  • strengthening budget and financial accountability                                                                              •  Mines
  • combating economic crimes and corruption                                                                                       •  Public Works
  • building internal audit capacity and increasing non-tax revenues                                                               •  Rural Rehabilitation and Development
  • achieving debt relief and improving debt management                                                                            •  Education
                                                                                                                                   •  Higher Education
     According to DoS, the U.S. government supports the goal President Karzai                                                      •  Public Health
  outlined in a speech on March 22, 2011, to transition all military and economic                                                  •  Justice
  development functions and structures to Afghan control. This includes Provincial                                                 •  Urban Development
  Reconstruction teams (PRTs), through which some international assistance                                                         •  Transportation and Civil Aviation
  funds are channeled, bypassing the central government. DoS stated that interna-                                                  •  Counter-Narcotics
  tional donors that use PRTs as a funding platform are examining the new policy                                                   •  Communications

  to determine how to continue to provide assistance at the local level.315                                                        •  Energy and Water
                                                                                                                                   •  Agriculture, Irrigation, and Livestock

  EMPLOYMENT                                                                                                                       Source: Treasury, response to SIGAR data call, 4/5/2011.

  USAID has three programs that provide temporary jobs for Afghans through
  Cash-for-Work activities. Table 3.8 shows Cash-for-Work activities reported by
  USAID as of March 31, 2011.

  ESSENTIAL SERVICES
  In a key development this quarter, the international community and coalition
  forces reached an agreement with the GIRoA that will allow PSCs to continue
  to guard development and humanitarian assistance projects for one additional
  year. Many of the implementers of reconstruction projects are private compa-
  nies, non-governmental organizations (NGOs), or other entities that require the
  services of PSCs in order to operate safely in Afghanistan. After President Karzai
  announced a ban on the use of PSCs last year, many of these entities expressed
  their intention to withdraw from Afghanistan, putting at risk millions of dollars in
  unfinished development and humanitarian reconstruction projects.



  TABLE 3.8


  CASH-FOR-WORK JOBS
  Program                                Temporary Jobs Created                           Type of Jobs                                                         Location
  Afghanistan Vouchers for Increased 133,481 jobs (cumulative) since September Irrigation canal rehabilitation, farm-to-market roads, construction             Helmand and Kandahar
  Productive Agriculture (AVIPA)     2009, at an average pay of $6.45 per day of reservoirs, orchard management, tree planting
  Incentives Driving Economic            26,767 jobs (cumulative) since March             Canal cleaning, flood-protection walls, small check dam              Northern, eastern, and
  Alternatives for the North, East,      2009, averaging $184 each annually;              construction, farm-to-market roads                                   western provinces, espe-
  and West (IDEA-NEW)                    $4.9 million in total wages paid                                                                                      cially poppy-prone regions
  Alternative Development                9,460 jobs (cumulative) since March 2008 Canal rehabilitation and cleaning, canal intake and protection        Farah and Uruzgan
  Program/SW (ADP/SW)                                                             wall building, market feeder road rehabilitation, including graveling
  Sources: USAID, “Fact Sheet: IDEA-NEW,” 12/2010; USAID, response to SIGAR data call, 4/4/2011.




                    REPORT TO THE UNITED STATES CONGRESS                     I   APRIL 30, 2011                    103
                                         ECONOMIC AND SOCIAL DEVELOPMENT




                                            In other developments this quarter, the GIRoA’s plans to increase non-tax
                                         revenue to support the aviation sector met with resistance, and the completion
                                         of the last section of the Ring Road was delayed.

                                         New PSC Strategy
                                         In 2010, President Karzai issued a decree that would have banned all PSCs from
                                         Afghanistan by the end of 2010 and assigned their security responsibilities to the
                                         Afghan Public Protection Force (APPF). The United States, which supports the
                                         transition of these responsibilities to an Afghan force in principle, requested a
                                         bridging period to give the Ministry of Interior (MoI) sufficient time to develop
                                         the capacity of the APPF. On March 15, 2011, the GIRoA released a new strategy
                                         that allows PSCs to continue to operate in Afghanistan under certain conditions
                                         and within certain limits.316
                                            PSCs provide services for three main components of the international commu-
                                         nity in Afghanistan:317
                                         • the diplomatic community: embassies and organizations with diplomatic
                                            status, such as police training missions
                                         • International Security Assistance Force (ISAF): fixed sites, convoys, and
                                            construction projects
                                         • development projects: reconstruction and humanitarian assistance
                                            As outlined in the new strategy, PSCs that meet MoI criteria (including a cap on
                                         total numbers) will be allowed to offer services indefinitely to safeguard diplomatic
                                         and ISAF missions and projects.318 PSCs that safeguard development and humani-
                                         tarian assistance projects will be allowed to operate only until March 20, 2012.319
                                         At that time, all private security contracts related to development and humani-
                                         tarian assistance projects will be transitioned to the APPF. If the MoI is unable
                                         to provide a fully trained and equipped APPF that is capable of assuming these
                                         responsibilities by that date, individual PSCs may continue to safeguard develop-
                                         ment and humanitarian assistance projects until the projects are completed.320

                                         Roads
                                         This quarter, the Asian Development Bank announced that it will provide more
SIGAR AUDITS                             than $340 million to complete the last section of the Afghan Ring Road. Figure 3.29
                                         shows the final section, which will connect the towns of Qaisar, Bala Murghab, and
SIGAR has conducted two audits of        Laman in northwestern Afghanistan. When that section is finished, the 2,700-kilo-
projects to build roads and bridges in   meter road will connect the country’s major cities.321 This project aligns with a key
Afghanistan. For details on the com-     goal of the GIRoA’s Silk Road Initiative—to improve transportation corridors that
pleted audits, see www.sigar.mil.        link Afghans with internal and external markets.322 As noted by SIGAR in previous
                                         quarterly reports, the United States and Japan are the two largest contributors to
                                         the Asian Development Bank.323
                                            Security continues to present a major challenge to completing these and other
                                         infrastructure projects. This quarter, , a NATO publication reported that attacks
                                         against engineers and construction workers building roads and other infrastructure
                                         projects are becoming increasingly common in eastern and northern Afghanistan.324




                                          104                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  FIGURE 3.29

  RING ROAD STATUS: FINAL SECTION


                                                                               UZBEKISTAN
                                                                                                                                       TAJIKISTAN   CHINA



                                                                    JOWZJAN
                      TURKMENISTAN                                                                   KUNDUZ              BADAKHSHAN
                                                                                   BALKH                        TAKHAR
       Road section connecting Qaisar,
       Bala Murghab, and Laman
       Length: 233 km                                                                  SAMANGAN
                                                                                                            BAGHLAN
                                                        FARYAB
                                                                     SAR-E PUL                                  PANJSHIR NURISTAN
                                              BADGHIS
                                                                                                     PARWAN      KAPISA      KUNAR
                                                                                    BAMYAN                           LAGHMAN
                                                                                                                KABUL
                                                                                              WARDAK
                HERAT                                                                                                  NANGARHAR
                                                     GHOR                                                  LOGAR
                                                                      DAYKUNDI                               PAKTIYA
                                                                                         GHAZNI
                                                                                                                   KHOWST


                                                                 URUZGAN
                      FARAH
                                                                               ZABUL
                                                                                                      PAKTIKA


                                                                                                                            PAKISTAN
     IRAN                 NIMROZ
                                          HELMAND
                                                            KANDAHAR




            Completed
            Not Completed

  Source: ADB, press release, “ADB Provides $340 Million To Complete Afghan Ring Road,” 1/17/2011.




  Aviation
  In December 2010, the European Union banned all Afghan airlines from its
  airspace because of safety and maintenance concerns. The ban underscored the
  importance of increasing revenue to develop and maintain Afghanistan’s trans-
  portation infrastructure, according to Treasury. To generate revenue to support
  civil aviation, last year the Ministry of Transport and Civil Aviation (MoTCA)
  proposed increasing fees for airline landing, parking, and overflights. The




                   REPORT TO THE UNITED STATES CONGRESS                    I   APRIL 30, 2011                     105
ECONOMIC AND SOCIAL DEVELOPMENT




International Air Transport Association denied the MoTCA’s request to increase
aviation fees; the MoTCA is appealing the decision.325
    Corruption is also affecting Afghan civil aviation. According to Treasury, the
MoTCA launched a criminal investigation of a May 17, 2010 crash of a Pamir
Airways flight, amid allegations of forged security certificates.326 The crash killed
all 44 passengers (including one American) and crew on board the Russian-made
Antonov aircraft.327 This quarter, the Acting Aviation Minister told the media
that Pamir’s purchase document for the aircraft that crashed was a forgery and
that the aircraft’s flight recorders were not functional.328 Pamir Airways is partly
owned by Kabul Bank. The MoTCA has suspended Pamir’s operating certificate
in Afghanistan, according to Treasury.329

Education
Higher education in Afghanistan has suffered from a lack of attention and invest-
ment over the years, according to USAID. To address this need, the Ministry of
Education (MoE) collaborated with Afghan business leaders, private donors,
and the U.S. government to establish the American University of Afghanistan
(AUAF), which opened its doors in 2006. It is the only private, independent, not-
for-profit institution of higher learning in Afghanistan.330
   In 2008, USAID signed a five-year, $42 million cooperative agreement with the
AUAF, of which approximately $16 million had been disbursed as of April 16,
2011.331 These funds support five components of the university’s long-term sus-
tainability plan:332
• undergraduate degree programs in business, information technology, com-
    puter science, political science, and business administration
• the Foundation Studies Program, which offers college preparatory programs
    for high school students to improve their skills in English-language speaking,
    reading, and writing
• professional development training for employees of Afghan ministries, busi-
    nesses, NGOs, and the general public
• partnerships with the American University of Central Asia to develop joint
    programs using modern technology and to expand enrollment to students
    from other countries
• strategies and outreach to develop a diversified revenue stream
As part of its cost-sharing agreement with USAID, the AUAF is required to raise
$29 million.
   According to USAID, the AUAF supports equal educational opportunity for
Afghan women. Approximately 20% of undergraduate and Foundation Studies
students are women.333 As of April 4, 2011, more than 750 students were enrolled;
the first graduation is scheduled for spring 2011.334

Health Services
As noted by SIGAR in previous quarterly reports, USAID is funding the first
national survey of household mortality to cover all 34 provinces in Afghanistan.




 106                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  As of March 31, 2011, USAID had spent $3.5 million on this survey, including
  capacity-building assistance to the Ministry of Public Health.335
     According to DoS, the survey results will provide information on the primary
  causes of maternal, infant, and child mortality, as well as fertility rates and the
  prevalence of contraceptive use. The survey will provide national, regional, and
  some provincial estimates of these key health indicators. Public health officials
  will use these results to measure the progress made since 2003 to reduce mor-
  tality rates among women of reproductive age, infants, and children and also to
  plan future programs to address the issue.336

  INDUSTRY AND NATURAL RESOURCE DEVELOPMENT
  This quarter, efforts continued to increase Afghanistan’s agricultural output and
  develop the nation’s mineral wealth. Also this quarter, the GIRoA and Pakistan
  began meeting to implement a major transit agreement that will facilitate Afghan
  trade with India.

  Agriculture
  Heavy rain and snowfall from January 2011 to early February 2011 eased inter-
  national concerns that below-normal precipitation in fall 2010 had damaged
  prospects for the winter wheat harvest, according to the Food and Agriculture                                             SIGAR AUDIT
  Organization. Spring wheat was planted in March and April 2011.337
     As part of its efforts to increase agricultural yields in Afghanistan, USAID                                           SIGAR is conducting an audit of U.S.
  has several programs to increase Afghan farmers’ access to modern farming                                                 assistance to develop Afghanistan’s
  methods, equipment, and tools. As of March 31, 2011, USAID had distributed 481                                            agriculture sector. The audit is assess-
  four-wheeled tractors in Kandahar through its small grants program. Under its                                             ing, among other things, whether
  mechanization program, 1,322 two-wheeled tractors were distributed to farmers                                             U.S.-funded projects are achieving
  across the country:338                                                                                                    strategic goals. For more information,
  • central region: 308                                                                                                     see Section 1, page 17.
  • western region: 387
  • northern region: 326
  • northeast region: 301
     USAID also distributes higher-yield seed and fertilizer packages to Afghan
  farmers through three programs. Table 3.9 provides the number of voucher pack-
  ages distributed or redeemed this quarter.

  TABLE 3.9


  USAID SEED AND FERTILIZER VOUCHERS DISTRIBUTED OR REDEEMED
  Program        Number of Vouchers, Second Quarter 2011                                         Locations
  AVIPA          49,900 vouchers redeemed for certified wheat seed and fertilizer                Badghis, Faryab, Jowzjan, Balkh, Sar-e Pul, Baghlan, Wardak, Nangarhar,
                                                                                                 Nuristan, Ghazni, Paktika, Logar, Nimroz, Kandahar, Zabul
  AVIPA          74,168 vouchers redeemed for melon, legume, okra, vegetable, corn, and forage   Helmand, Kandahar
  IDEA-NEW       15,701 vouchers distributed for vegetable seeds and fertilizer                  Nangarhar, Kunar, Kunduz, Nuristan, Takhar, Baghlan, Badakhshan, Laghman
  Source: USAID, response to SIGAR data call, 4/4/2011.




                 REPORT TO THE UNITED STATES CONGRESS                  I   APRIL 30, 2011               107
ECONOMIC AND SOCIAL DEVELOPMENT




   As noted by SIGAR in previous quarterly reports, agricultural output in
Afghanistan is highly dependent on seasonable rain and snowmelt because of
the lack of modern water management technology and irrigation resources.
One program to address this lack is USAID’s $20 million Afghanistan Water,
Agriculture and Technology Transfer program (AWATT). As of March 31, 2011,
USAID reported that the AWATT program had installed 500 irrigation water
control devices (turnouts) in Balkh and Nangarhar provinces. These devices cost
approximately $250, last for 20 years, and save water, land, and labor. According
to USAID, this affordable technology has become so popular with Afghan farm-
ers that the Ministry of Agriculture, Irrigation, and Livestock (MAIL) would like
to launch a nationwide delivery program. The AWATT is training MAIL engineers
to plan, design, and install turnouts and teaching users how they work.339

Mining
This quarter, the Minister of Mines announced that the ministry had retained
experts from several internationally respected consulting firms to design and
execute a transparent tender process to help develop Afghanistan’s mineral
wealth. The ministry initiated reforms in the tendering process following alle-
gations that the former minister accepted a bribe in awarding the contract to
develop the giant Aynak copper mine. In announcing the new team, the minister
acknowledged that rebuilding the confidence of international investors was key
to attracting investment in Afghanistan’s mineral sector. The team is sponsored
by the Task Force for Business and Stability Operations (TFBSO) of the U.S.
Department of Defense.340
   During 2010, geologists sponsored by the U.S. Geological Survey, the Afghan
Geological Survey, and the TFBSO categorized Afghanistan’s mineral resources
in 24 specific areas, ranked by security, scale, potential market value, infrastruc-
ture needs, availability, and time needed to develop and bring to market. Each of
these areas is a potential mining district with one or more mineral deposits and
has the potential to contribute to a broad-based mining industry in Afghanistan.341
   Developing the mineral sector is crucial to improving revenue collection and
economic growth. In April 2011, the Asian Development Bank estimated that, if
properly managed, the combined revenue (in early years) from developing the
Aynak copper mine and the Hajigak iron mine could total more than 1% of GDP.342
This quarter, DoS reported that it is working to help the GIRoA set up the legal and
regulatory framework needed to ensure that future mineral extraction will benefit
the entire country, transform the Afghan economy, and raise standards of living.343

Communications
As noted by SIGAR in previous quarterly reports, USAID launched the
$22 million Afghanistan Media Development and Empowerment (AMDEP)
Project to strengthen the development of the free press in Afghanistan. This
quarter, AMDEP awarded five sub-grant agreements, as shown in Table 3.10.




 108                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  TABLE 3.10


  AMDEP SUB-GRANTS AWARDED
  Recipient                                                Purpose of Grant                                                                                           Amount of Grant
  Welfare Association for the Development of Afghanistan   Establish and operate 11 multimedia production centers.                                                        $3,765,497
  Pajhwok Afghan News                                      Provide regional assistance to mass media, including Salam Watandar Radio spinoff and                           $418,050
                                                           television expansion.
  Nai Supporting Afghanistan Open Media                    Establish Nai Institute Media Training and regional training hubs, in support of a variety of media            $2,732,605
                                                           training and mentoring programs.
  Albany Associates International Ltd.                     Provide technical assistance to ministries that regulate the media to address regulatory, licensing, and        $102,304
                                                           policy issues.
  Lhassa Consulting (Alati)                                Provide technical assistance, including identifying areas to locate new or to strengthen existing TV and        $350,000
                                                           radio stations.
  Source: USAID, response to SIGAR data call, 3/31/2011.


  Trade
  As noted in SIGAR’s last quarterly report, Afghanistan and Pakistan reached
  a major breakthrough on trade issues when they exchanged the instruments
  ratifying the Afghanistan-Pakistan Transit Trade Agreement on January 11, 2011.
  Scheduled to take effect on February 12, 2011, the agreement makes it easier for
  Afghan businesses to transport Afghan products through Pakistan to India.344
      To implement this agreement and resolve a number of outstanding issues, the
  Afghanistan-Pakistan Transit Trade Coordinating Authority held its first meet-
  ings on February 11 and 12, 2011. According to USAID, participants discussed
  how to share information on a broad range of customs issues, including tracking
  devices, biometrics, bank guarantees for trucks, and customs security and finan-
  cial guarantees for transit goods. Although progress was made in some areas
  (such as biometrics), representatives of the two countries failed to reach agree-
  ment on key issues related to bank guarantees for trucks, and customs security
  and financial guarantees for cargo. As a result, implementation of the agreement
  has been postponed for up to four months.345
     Following the meetings, the Afghan Chamber of Commerce and Industries
  issued a statement expressing concern about the postponement. According to
  the Chamber, the main issue is the Pakistani requirement that Afghan traders
  pay a financial guarantee of at least 2 million Pakistani rupees (approximately
  $23,800) per container of goods being shipped. The Chamber’s chief executive
  officer noted that, in some cases, the amount of the payment could exceed the
  value of the cargo being transported.346
     The delay in implementing the transit trade agreement comes amid GIRoA
  concerns over falling levels of Afghan exports compared with rising levels of
  imports. According to reports cited in a NATO publication, the Deputy Minister
  of Commerce told the media that during the last six months of 2010, Afghanistan
  exported approximately $120 million of goods and imported approximately
  $1.2 billion of goods.347




                   REPORT TO THE UNITED STATES CONGRESS                I   APRIL 30, 2011                      109
                Maintaining Security
                ANA soldiers and U.S. marines disembark from their
                CH-53E helicopter during Operation Integrity in Helmand
                province on January 15, 2011. The objectives of the
                operation were to cordon off a suspected hotspot for
                Taliban activity, search for weapon and IED caches, disrupt
                enemy logistical operations, and gather census data on
                locals in the Sistani region. (ISAF photo)




110   SPECIAL INSPECTOR GENERAL    I   AFGHANISTAN RECONSTRUCTION
4   OTHER AGENCY
    OVERSIGHT




       111
           OTHER AGENCY OVERSIGHT




   “Really important words. Vertically
aligned visually, centered horizontally.
    Really important words. Vertically
aligned visually, centered horizontally.
    Really important words. Vertically
aligned visually, centered horizontally.
    Really important words. Vertically
aligned visually, centered horizontally.”
                                                        —Person of Interest




           Source: Trusted source Trusted source Trusted source Trusted source Trusted source Trusted source Trusted source Trusted source Trusted
           source Trusted source Trusted source Trusted source




              112                         SPECIAL INSPECTOR GENERAL                  I   AFGHANISTAN RECONSTRUCTION
                               OTHER AGENCY OVERSIGHT




OTHER AGENCY OVERSIGHT
Each quarter, SIGAR requests updates from other agencies on completed and
ongoing oversight activities. These agencies are performing oversight activities in
Afghanistan and providing results to SIGAR:
• Department of Defense Office of Inspector General (DoD OIG)
• Department of State Office of Inspector General (DoS OIG)
• Government Accountability Office (GAO)
• U.S. Army Audit Agency (USAAA)
• U.S. Agency for International Development Office of Inspector General
   (USAID OIG)
The descriptions appear as they were submitted, with these changes for consis-
tency with other sections of this report: acronyms and abbreviations in place of
full names; standardized capitalization, hyphenation, and preferred spellings; and
third-person instead of first-person construction.

COMPLETED OVERSIGHT ACTIVITIES
Table 4.1 lists the nine oversight projects related to reconstruction or security
that the participating agencies reported were completed this quarter.

TABLE 4.1


RECENTLY COMPLETED OVERSIGHT ACTIVITIES OF OTHER U.S. AGENCIES, AS OF MARCH 31, 2011
Agency               Report Number          Date Issued                 Project Title
DoD-OIG              SPO-2011-003           3/3/2011                    Assessment of U.S. Government Efforts To Train, Equip, and Mentor the Expanded Afghan National Police
DoS OIG-MERO         MERO-I-11-02           2/10/2011                   Review of the Department of State’s Contract with PAE To Provide Operations and Maintenance to Afghan
                                                                        Counternarcotics Units in Afghanistan
GAO                  GAO-11-419T            3/3/2011                    Foreign Operations: Key Issues for Congressional Oversight
GAO                  GAO-11-66              1/27/2011                   Afghanistan Security: Afghan Army Growing, but Additional Trainers Needed; Long-Term Costs Not Determined
USAAA                A-2011-0067-ALL        2/22/2011                   Controls Over Vendor Payments Phase II - Afghanistan
USAID OIG            F-306-11-002-P         3/27/2011                   Audit of USAID/Afghanistan’s Construction of Health and Education Facilities Program
USAID OIG            F-306-11-003-S         3/16/2011                   Review of USAID/Afghanistan’s Bank Supervision Assistance Activities and the Kabul Bank Crisis
USAID OIG            F-306-11-002-S         3/7/2011                    Review of Cash Disbursement Practices Employed by Selected USAID/Afghanistan Contractors and Grantees
USAID OIG            F-306-11-001-P         2/13/2011                   Audit of the Agriculture, Water, and Technology Transfer Program
Note: MERO = Middle East Regional Office.
Sources: DoD OIG, response to SIGAR data call, 4/4/2011; DoS OIG-MERO, response to SIGAR data call, 3/31/2011; DoS OIG-MERO, response to SIGAR data call, 3/31/2011; GAO, response to
SIGAR data call, 4/5/2011; USAAA, response to SIGAR data call, 3/25/2011; USAID OIG, response to SIGAR data call, 3/23/2011.




                  REPORT TO THE UNITED STATES CONGRESS                   I   APRIL 30, 2011                      113
OTHER AGENCY OVERSIGHT




U.S. DEPARTMENT OF DEFENSE OFFICE OF
INSPECTOR GENERAL
Assessment of U.S. Government Efforts To Train, Equip, and
Mentor the Expanded Afghan National Police
(Project No. SPO-2011-003, Issued March 3, 2011)
In late 2009, President Obama re-emphasized the importance of building the
Afghan National Security Forces (ANSF) as a priority objective of U.S. national
security and military strategy in Afghanistan. Previously, the coalition’s primary
focus had been to expand the Afghan National Army (ANA). With additional
resource support, the major thrust of the train-and-equip efforts over the past
year has been development of the Afghan National Police (ANP), which is recog-
nized by the International Security Assistance Force (ISAF) and the coalition as
essential to success in the counter-insurgency (COIN) campaign.
   As of July 2010, ISAF had exceeded the milestone set for expanding ANP
forces, reaching 109,000 personnel three months ahead of schedule. In contrast
to the previous police development model, which was based on the urgency of
quickly recruiting and assigning police personnel, the command has adopted a
new model to build a more professional personnel base by requiring all newly
recruited ANP to be trained before being assigned. This new concept has also
avoided contributing to the legacy challenge posed by several tens of thousands
of Afghan Uniformed Police currently serving who have never received basic
training.
   ISAF has taken the initiative to close the ANP logistics capability gap, imple-
menting a logistics infrastructure development plan that is building supply
depots across the regional commands, down to provincial level, that are closer
to forward deployed police units. The command has established ANP develop-
ment as a priority objective and is implementing an aggressive strategy that has
achieved progress with respect to the transformed Training Model; improved
training quality; increased trained personnel and recruitment rate; reduced
personnel attrition; logistics infrastructure development; emphasis on leadership;
progress in mentoring by U.S. tactical units.
   Further, institutional capacity building of the Ministry of Interior (MoI) is
proceeding on numerous lines of development. Under new MoI leadership, it is
expected to be capable of providing more effective management support for the
ANP including in the area of logistics.
   However, ISAF needs to institutionalize the ANP force development/
coordination process between its subordinate commands and document the
ANP force size necessary to execute the COIN strategy. The on-the-ground train-
ers and mentors working to execute ANP fielding plans may be insufficient. In
addition, the untrained ANP personnel, estimated at 40%, threaten the viability
of the ANP. ANP logistics capacity significantly lags operational needs. Finally,
corruption and lack of governance/rule of law impede ANP effectiveness and the
implementation of the COIN strategy.



  114                SPECIAL INSPECTOR GENERAL     I   AFGHANISTAN RECONSTRUCTION
                      OTHER AGENCY OVERSIGHT




U.S. DEPARTMENT OF STATE OFFICE OF INSPECTOR GENERAL–
MIDDLE EAST REGIONAL OFFICE
Review of the Department of State’s Contract with PAE To
Provide Operations and Maintenance to Afghan Counternarcotics
Units in Afghanistan
(Report No. MERO-I-11-02, Issued February 10, 2011)
The objectives of this performance evaluation are to determine (1) the require-
ments and provisions of the contract and task orders; (2) the amount of funding
DoS has obligated and expended to provide embassy facility operations and
maintenance through contracts for fiscal years 2005–2009; (3) the effectiveness
of PAE’s contract performance in providing facility operations and mainte-
nance to Afghan counternarcotics units in Afghanistan; (4) PAE’s controls for
inventorying, recording, and safeguarding U.S. government-furnished equip-
ment and property in Afghanistan, whether the equipment has been properly
accounted for, and the challenges to maintaining accountability; (5) how well
DoS administers and manages the contract and task orders to provide oversight
of PAE’s performance in Afghanistan; (6) whether the contract includes FAR
clause 52.222.50, which provides administrative remedies if, during the term of
the contract, the contractor or subcontractor engage in severe forms of traffick-
ing in persons; and (7) how DoS ensures that costs are properly allocated and
supported.

GOVERNMENT ACCOUNTABILITY OFFICE
During the last quarter, GAO testified before Congress on cross-cutting areas of
U.S. foreign policy as implemented by DoS and USAID and released two reports
pertaining to (1) Army medical personnel requirements for Afghanistan and Iraq
and (2) available trainers and future growth and sustainment costs for the ANA.
• GAO’s testimony before the House of Representatives’ Committee on
   Appropriations’ Subcommittee on State, Foreign Operations, and Related
   Programs focused on cross-cutting areas of U.S. foreign policy as imple-
   mented by DoS and USAID. Since 2002, the United States has invested
   over $130 billion in security, economic, and governance assistance to Iraq,
   Afghanistan, and Pakistan. Regarding Afghanistan and Pakistan, the United
   States has placed an increased focus on providing funding directly to the
   Afghan government and Pakistani organizations. This course of action
   involves considerable risk given the limited capacity of some prospective
   recipients—particularly the Afghan government—to manage and implement
   U.S.-funded programs, thereby highlighting the need for agency controls and
   safeguards over these funds. DoS and USAID rely extensively on contractors
   in Iraq and Afghanistan to support their direct-hire personnel, implement
   reconstruction efforts, and address workforce shortfalls such as insufficient
   numbers of trained agency personnel and the frequent rotations of staff
   posted to these countries. Robust management and oversight of contractor



            REPORT TO THE UNITED STATES CONGRESS      I   APRIL 30, 2011    115
OTHER AGENCY OVERSIGHT




  operations are essential in these challenging environments. However, GAO
  has found oversight to be inadequate at times, thus raising questions about
  the agencies’ ability to ensure accountability for multibillion-dollar invest-
  ments. GAO has made a variety of recommendations to DoS and USAID
  to help improve their foreign operations programs. In particular, GAO has
  recommended that agencies improve planning and performance measure-
  ment of their programs and take steps to enhance accountability of U.S.
  aid. DoS and USAID have efforts under way to implement some of these
  recommendations.
• GAO’s report on available trainers and future growth and sustainment costs
  for the ANA found that between January 2010 and July 2010, the ANA grew
  from 104,000 to 134,000 personnel, reaching the interim growth goal set by
  the Afghan government and international community three months ahead of
  schedule. The ANA has also generally achieved its goal of drawing propor-
  tionally from Afghanistan’s major ethnic groups, with some key exceptions.
  However, the ANA faces challenges, including high rates of attrition—the
  loss of soldiers from the force before they complete their contracts—and
  absenteeism. The Afghan government and international community have set
  an objective of having the Afghan army and police lead and conduct security
  operations in all Afghan provinces by the end of 2014. As of September 2010,
  no ANA unit was assessed as capable of conducting its mission indepen-
  dent of coalition assistance. Efforts to develop ANA capability have been
  challenged by difficulties in staffing leadership positions and a shortage of
  coalition trainers, including a shortfall of approximately 18% (275 of 1,495)
  of the personnel needed to provide instruction at ANA training facilities.
  Neither DoD nor NATO has completed an analysis of ANA sustainment costs.
  Such analysis is important given that, as of January 2010, the International
  Monetary Fund projected that it will take until at least 2023 for the Afghan
  government to raise sufficient revenues to cover its operating expenses,
  including those related to the army—highlighting Afghanistan’s continued
  dependence on external sources of funding. In addition, DoD and NATO stud-
  ies indicate that growth of the ANA beyond the current end goal of 171,600
  may be needed—potentially up to a force size of 240,000 personnel. Any such
  growth will necessitate additional donor assistance. GAO recommends that
  the Secretary of Defense, in conjunction with international partners, take
  steps to eliminate the shortage of trainers; clarify what ANA growth beyond
  the current end goal, if any, is needed; and develop estimates of the future
  funding needed to further grow and sustain the ANA. DoD concurred with
  GAO’s recommendation regarding trainers. DoD partially concurred with the
  need to develop growth and cost estimates for the ANA.




 116              SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                      OTHER AGENCY OVERSIGHT




U.S. ARMY AUDIT AGENCY
Controls Over Vendor Payments Phase II - Afghanistan
(Report No. A-2011-0067-ALL, Issued February 22, 2011)
USAAA performed the audit at the request of the Assistant Secretary of the Army
(Financial Management and Comptroller). Finance offices within Afghanistan
took numerous actions to address the Army’s material weakness relating to the
lack of proper audit trail for commercial payments in a contingency environ-
ment. However, in spite of actions taken, USAAA found that 81% of the vendor
payments reviewed had at least one missing or inaccurate element. Further
additional improvements were needed to address the integrity of the automated
audit trail and the handling of limited depositary accounts because (1) units did
not receive mission specific training before deployment or additional on-site
requested training; (2) working relationships and initiatives between activities in
the fiscal triad were not fully synchronized; (3) and command sometimes did not
enforce regulatory guidance or did not fully incorporate processes in the internal
controls program to monitor operations. Command agreed with the recommen-
dations in the report and initiated corrective actions.

U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT OFFICE
OF INSPECTOR GENERAL
Audit of USAID/Afghanistan’s Construction of Health and
Education Facilities Program
(Report No: F-306-11-002-P, Issued March 27, 2011)
The objective of the audit was to determine whether USAID/Afghanistan’s
program was achieving its main goals of strengthening the Government of the
Islamic Republic of Afghanistan’s (GIRoA’s) ability to provide health services to
its citizens and train competent teachers by constructing provincial hospitals,
midwife training centers, and provincial teacher training colleges.
    While the mission has realized some successes—for example, in strengthening
the capacity of local construction companies and adhering to the international
building code—the program was not on schedule to achieve its main goals. The
audit disclosed the following issues:
 • Construction fell significantly behind schedule. The program was approxi-
    mately 18 months behind schedule and was making slow progress toward
    achieving its goals.
 • Cost and security issues reduced the scope of new construction. Achieving
    the original goals of the agreement was hindered by funding limitations that
    significantly reduced the number of structures to be constructed.
 • The mission approved building religious structures. The mission approved
    the construction of male prayer buildings and female prayer rooms at four
    construction sites, violating a prohibition contained in Title 22 of the Code of




             REPORT TO THE UNITED STATES CONGRESS    I   APRIL 30, 2011      117
OTHER AGENCY OVERSIGHT




    Federal Regulations, Section 205(d). The estimated cost of these structures
    was $258,982.
•   Process needed for release of construction designs. The mission has not
    provided guidance to the International Organization for Migration (IOM)
    on providing completed designs for buildings that will not be constructed
    to the relevant ministry. The mission has not yet provided the completed
    designs for two hospitals and four provincial teacher training centers to the
    Ministries of Education and Public Health.
•   Materials testing did not comply with guidance. IOM did not consistently
    comply with its quality control manual in testing construction materials.
•   Sustainability of facilities is questionable. The ability of the Ministries of
    Education and Public Health to maintain the completed structures is ques-
    tionable because of competing priorities for ministry funds, which could
    further hinder achievement of the program’s main goals.
•   The mission did not carry out required environmental assessments. USAID/
    Afghanistan did not complete an environmental assessment as required.
•   The implementer had no approved marking plan. IOM did not submit a
    branding and marking plan as required by the agreement.
•   A subcontractor incurred unallowable security costs. A construction sub-
    contractor was paying off-duty Afghan Nation Police for security services
    without approval from the mission. However, the amount involved was small:
    approximately $9,200.
•   Repairs to earlier construction program reduce funds available for the cur-
    rent program. Approximately $316,000 that could have been spent on new
    structures was used to refurbish a clinic and reconstruct a school that had
    suffered damage as a result of defective designs and construction under a
    prior USAID/Afghanistan program.
To address these issues, the OIG made 15 recommendations. USAID/Afghanistan
has reached management decisions on all of the recommendations and has com-
pleted final action on six of the recommendations.

Review of USAID/Afghanistan’s Bank Supervision Assistance
Activities and the Kabul Bank Crisis
(Report No. F-306-11-003-S, Issued March 16, 2011)
In early September 2010, rumors and news articles about insider lending and
investments in Dubai real estate led depositors to rush to withdraw funds from
Kabul Bank, the largest bank in Afghanistan. In response to a request by USAID/
Afghanistan, OIG/Afghanistan conducted this review to determine:
 • what opportunities USAID and contractor staff had to learn of fraudulent
   activities at Kabul Bank through USAID’s Economic Growth and Governance
   Initiative and its predecessor, the Economic Growth and Private Sector
   Strengthening Activity
 • how staff learned of the fraud




    118              SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                     OTHER AGENCY OVERSIGHT




• what actions staff members took once they became aware of the fraud
• whether USAID’s oversight of its contractor was adequate
   What opportunities did USAID and contractor staff have to learn of fraudu-
lent activities at Kabul Bank? BearingPoint and Deloitte advisers who were
embedded at the Central Bank had several opportunities to learn about fraudu-
lent activities at Kabul Bank over a span of two years before the run on Kabul
Bank in early September 2010. BearingPoint and Deloitte staff could have been
more aggressive in following up on indications of serious problems at Kabul
Bank. Because contractors did not keep USAID/Afghanistan fully informed of
developments at the Central Bank, USAID staff had fewer opportunities to learn
of the fraud.
   How did USAID staff and its contractors learn of the fraud? Most USAID
staff members interviewed stated that they learned of the fraud through a
Washington Post article in February 2010. One USAID staff member indicated
that the existence of fraud at Kabul Bank was widely believed to exist as early
as 2008, even though no specific evidence of the fraud was available at that time.
According to key Deloitte staff members involved in providing banking supervi-
sion assistance to DAB, they learned of the fraud either through the Washington
Post article published in February 2010 or through the numerous news articles
that appeared almost simultaneously with the run on Kabul Bank in August and
September 2010. However, they acknowledged the existence of indications of
fraud before that date.
   What actions did USAID and contractor staff members take once they
became aware of the fraud? The February 2010 Washington Post article was
widely discussed at the U.S. Embassy, including by officials from USAID and
the U.S. Department of the Treasury (Treasury). Their recollections and per-
ceptions of events differed somewhat. For their part, USAID officials indicated
that they understood that Treasury would take the lead in responding to the
article. Treasury officials, in contrast, indicated that it was difficult for them
to persuade USAID to engage in responding to the article. After the run on
Kabul Bank in September 2010, and after inquiries by the leadership of the U.S.
Embassy, USAID/Afghanistan arranged for a material loss report on Kabul Bank
and a rapid assessment of Deloitte’s performance on the Economic Growth and
Governance Initiative task order.
   Deloitte officials indicated that, in the aftermath of the February 2010 news
article, they began to work with the Central Bank to plan a response. A Central
Bank examination of Kabul Bank, begun in January 2010 and completed in May
2010, found serious control weaknesses that were relevant to the fraud, includ-
ing weak controls over loan approvals and collateral, but the examiners did not
perform any direct verification of loans and did not report any direct evidence of
fraud at Kabul Bank. Neither Deloitte nor the Central Bank provided the exami-
nation report to USAID/Afghanistan until October 2010, when USAID asked
Deloitte for the report.




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2011       119
OTHER AGENCY OVERSIGHT




   Was USAID’s oversight of its contractor adequate? USAID/Afghanistan’s
oversight of the task order with Deloitte was weak. Because the mission was
short-staffed, it did not have adequate technical expertise to recognize the
warning signals at Kabul Bank or to provide adequate direction to Deloitte. As
a result, USAID lost opportunities to take appropriate actions and work with
Deloitte, Treasury, DoS, the Central Bank, and the donor community to contain
the problems at Kabul Bank.

Review of Cash Disbursement Practices Employed by Selected
USAID/Afghanistan Contractors and Grantees
(Report No. F-306-11-002-S, Issued March 7, 2011)
The Office of Inspector General conducted a review to determine whether the
cash disbursement practices by 10 selected USAID/Afghanistan implementing
partners ensured that disbursements were reasonable, allocable, and allowable.
The review found that the cash disbursement practices of the 10 selected USAID/
Afghanistan implementing partners reasonably ensured that their cash expendi-
tures were reasonable, allocable, and allowable.
   OIG made a recommendation that USAID/Afghanistan disseminate the best
practices to its implementing partners in order to minimize their cash transac-
tions to the extent possible.
   The mission agreed with recommendation and issued a letter making all
implementing partners aware of the best practices described in this report.
Additionally, oversight by the Mission’s Agreement Officer’s/Contracting Officer’s
Technical Representatives will continue to ensure that the respective implement-
ing partners strengthen their cash disbursements procedures.

Audit of the Agriculture, Water, and Technology Transfer Program
(Report No. F-306-11-001-P, Issued February 13, 2011)
The objective of this audit was to determine whether the program was achieving
its main goals, which dealt with irrigation water management, agricultural tech-
nology transfer, and institution building. Two and one-half years into the 3-year
program, NMSU had achieved a number of successes introducing new agricul-
tural and water technologies, and many farmers were participating in on-farm
demonstrations of these technologies. Auditors found some evidence of demand
for these new technologies—laser land leveling being the clearest example—but
adoption of the technologies lies in the future. However, the audit noted the fol-
lowing implementation issues:
 • Water Component Focused on Technology Transfer Instead of Governance.
    NMSU demonstrated a number of water-conserving technologies—furrow
    irrigation, raised beds for irrigated crops, seed drills, laser land leveling,
    water gauges, and concrete farm turnouts for irrigation canals. To date,
    however, there is no evidence of adoption of these technologies apart from




  120                SPECIAL INSPECTOR GENERAL      I   AFGHANISTAN RECONSTRUCTION
                    OTHER AGENCY OVERSIGHT




   the demonstrations specifically supported by NMSU, and there has been rela-
   tively little emphasis on improving governance of irrigation water resources.
• Adoption of New Agricultural Technologies Fell Short. In addition to irriga-
   tion technologies, NMSU introduced high-yielding wheat varieties, a system
   of rice intensification, and improved forage crops. NMSU promoted these
   technologies to MAIL extension agents and farmers through demonstra-
   tion plots and field days. However, as with the water-saving technologies
   discussed above, apart from the demonstrations specifically supported by
   NMSU, farmers have not adopted the technologies for use on their own land.
• NMSU Did Not Assess the Effectiveness of Technical Assistance and
   Training. NMSU was responsive to MAIL requests for technical assistance
   and training. For the Irrigation Department, NMSU provided technical assis-
   tance to strengthen information technology infrastructure, and in September
   2010, NMSU hired a water engineer to train and mentor department staff.
   NMSU reportedly trained 516 people, including MAIL employees and faculty
   and students at educational institutions whose graduates often go on to
   work for MAIL. However, the program did not follow up to see whether the
   technical assistance and training activities improved the knowledge, skills,
   and abilities of MAIL employees; whether employees applied these attributes
   successfully in the workplace; or whether MAIL’s institutional performance
   improved as a result.
• Monitoring and Evaluation Shortcomings Reduced the Value of
   Performance Information. NMSU did not submit its first of two perfor-
   mance management plan on time, omitted some required information from
   both performance management plans, did not keep records to substantiate
   reported results, reported some incorrect information, and omitted mention
   of performance challenges from its quarterly reports.
• NMSU Lacked an Approved Branding and Marking Plan. NMSU did not
   submit a branding and marking plan for mission approval until after the
   auditors requested it. Further, NMSU did not consistently mark project deliv-
   erables or pursue a formal branding strategy.
• USAID/Afghanistan Did Not Follow USAID’s Environmental Procedures.
   The mission did not prepare an environmental assessment or an environmen-
   tal impact statement.
   Moreover, officials connected with the program raised concerns that the high
proportion of expenditures in the United States left fewer resources available for
activities in Afghanistan and raised other questions about the financial manage-
ment of the program. To address these issues, the Office of Inspector General
(OIG) contracted with an audit firm to conduct financial audits of NMSU and its
partner universities in the United States. OIG will issue a separate report on the
results of that audit.




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2011      121
                                                OTHER AGENCY OVERSIGHT




                                                ONGOING OVERSIGHT ACTIVITIES
                                                As of March 31, 2011, the participating agencies reported 34 ongoing oversight
                                                activities related to reconstruction in Afghanistan. The activities reported are
                                                listed in Table 4.2 and described in the following sections by agency.

TABLE 4.2


ONGOING OVERSIGHT ACTIVITIES OF OTHER U.S. AGENCIES, AS OF MARCH 31, 2011
Agency         Project Number          Date Initiated    Project Title
DoD OIG        D2011-D000FD-0121.000   3/30/2011         Fees and Surcharges on Intragovernmental Orders Funded by Afghanistan Security Forces Fund Appropriations
DoD OIG        D2011-D00SPO-0172.000   2/14/2011         Development of Afghan National Army Logistics Capability
DoD OIG        D2011-D000JO-0137.000   1/18/2011         Facilities Management Training Provided Under the National Operations and Maintenance Contracts
                                                         in Afghanistan
DoD OIG        D2011-D000AS-0153.000   1/11/2011         Pricing and Oversight of the Afghan National Army Air Corps Pilot and English Language Training Task Order
DoD OIG        D2011-D000AS-0133.000   1/3/2011          Procurement of High-Mobility Multipurpose Wheeled Vehicles and Troop Enclosures for the Afghan National
                                                         Security Forces
DoD OIG        D2011-D000FR-0089.000   11/30/2010        Internal Controls Over Distribution and Reconciliation of Funds for the Afghanistan National Army Payroll
DoD OIG        D2011-D000JB-0068.000   11/17/2010        Requirements Development Process for Military Construction Projects in Afghanistan
DoD OIG        D2011-D000JA-0075.000   11/2/2010         DoD Oversight of the Northern Distribution Network
DoD OIG        D2011-D000AS-0030.000   10/1/2010         Management and Oversight for DoD Acquisition and Support of Non-Standard Rotary Wing Aircraft
DoD OIG/       D2011-D000JA-0009.000   9/30/2010         Audit of the Afghan National Police Training Program (joint audit)
DoS OIG        11AUD3001
DoD OIG        D2010-D000FL-0276.000   9/2/2010          Controls Over the Reporting and Propriety of Commander’s Emergency Response Program Payments
                                                         in Afghanistan
DoD OIG        D2010-D000JA-0165.001   6/21/2010         Implementation of Security Provisions of a U.S. Army Intelligence and Security Command Contract for
                                                         Linguist Support
DoD OIG        D2010-D000JO-0229.000   6/14/2010         Construction of the Detention Facility in Parwan, Afghanistan
DoD OIG        D2010-D000JB-0157.000   3/4/2010          Afghanistan National Army Equipment Maintenance Apprenticeship and Services Program Contract
DoD OIG        D2010-D000JA-0091.000   12/9/2009         Force Protection Programs for U.S. Forces in Afghanistan
DoD OIG        D2009-D00SPO-0115.000   12/17/2008        U.S. and Coalition Efforts to Develop the Medical Sustainment Capability of the Afghan National
                                                         Security Forces
DoS OIG/       11AUD3003               10/2010           Afghanistan Civilian Uplift (joint audit)
SIGAR
DoS OIG-MERO   11-MERO-3013            2/2011            Evaluation of the Bureau of International Narcotics and Law Enforcement Affairs’ Justice Sector Support
                                                         Program Assistance to the Attorney General’s Anti-Corruption Unit in Afghanistan
DoS OIG-MERO   11-MERO-3007            12/2010           Limited-Scope Review of the Needs Assessments and Facilities Conditions for Newly Developed Department of
                                                         State Positions in Afghanistan
DoS OIG-MERO   11-MERO-3003            10/2010           Review of the Bureau of International Narcotics and Law Enforcement Affairs’ Facility Operations and
                                                         Maintenance Support Contract with the Major Crimes Task Force in Afghanistan (Contract Evaluation)
DoS OIG-MERO   11-MERO-3004            9/2010            Review of the Bureau of Population, Refugees, and Migration (PRM) Program Effectiveness To Reintegrate and
                                                         Resettle Afghan Refugees
GAO            120976                  3/31/2011         State Contracting for Conflicted Countries
GAO            351552                  12/9/2010         Marine Corps Equipping Strategies to Reset Equipment
GAO            320815                  11/5/2010         Afghan Capacity Building to Manage Budget and Finances
GAO            351525                  8/26/2010         DoD Task Force for Business and Stability Operations
GAO            351514                  8/4/2010          Army Advise and Assist Brigades




                                                   122                      SPECIAL INSPECTOR GENERAL               I   AFGHANISTAN RECONSTRUCTION
                               OTHER AGENCY OVERSIGHT




TABLE 4.2 (CONTINUED)


ONGOING OVERSIGHT ACTIVITIES OF OTHER U.S. AGENCIES, AS OF MARCH 31, 2011
Agency              Project Number                    Date Initiated       Project Title
GAO                 351489                            8/4/2010             DoD Vetting in Afghanistan
GAO                 320794                            7/21/2010            Accountability of U.S. Direct Assistance to Afghanistan
GAO                 320766                            5/3/2010             U.S. Civilian Presence in Afghanistan
GAO                 351492                            4/30/2010            Afghanistan Logistics Support
USAAA               A-2011-ALL-0342.000               2Q/FY11              Commander’s Emergency Response Program-Afghanistan
USAID OIG           Not provided                      2Q/FY11              Review of USAID/Afghanistan’s Portion of the Embassy Air Program
USAID OIG           Not provided                      2Q/FY11              Audit of USAID/Afghanistan’s Afghanistan Stabilization Initiative – Southern Region
USAID OIG           Not provided                      Not provided         Audit of USAID/Afghanistan’s Support for Increased Electoral Participation in Afghanistan (IEP) and Support to
                                                                           the Electoral Process (STEP) Programs
Sources: DoD OIG, response to SIGAR data call, 4/4/2011; DoS OIG, response to SIGAR data call, 3/31/2011; DoS OIG-MERO, response to SIGAR data call, 3/31/2011; GAO, response to SIGAR data call,
4/5/2011; USAAA, response to SIGAR data call, 3/25/2011; USAID OIG, response to SIGAR data call, 3/23/2011.




DEPARTMENT OF DEFENSE OFFICE OF INSPECTOR GENERAL
DoD continues to face many challenges in executing its Overseas Contingency
Operations (OCO). DoD OIG has identified priorities based on those challenges
and high risks and has responded by expanding its coverage of OCO opera-
tions and its presence in Southwest Asia. Matching the Department’s current
Southwest Asia operational tempo and focus, DoD OIG’s primary oversight focus
is operations in Afghanistan while maintaining the necessary oversight in Iraq
and its remaining operations.
   The DoD OIG–led Southwest Asia Joint Planning Group coordinates and
deconflicts federal and DoD OCO–related oversight activities. The Group held its
16th meeting in February 2011. The Southwest Asia Joint Planning Group issued
the FY 2011 update to the Comprehensive Oversight Plan for Southwest Asia and
Surrounding Areas on March 31, 2011. The FY 2011 plan is organized by subcat-
egories under functional areas to articulate the commonalities of the oversight
community efforts. This oversight plan includes projects that directly impact
efforts in Southwest Asia and surrounding areas. The oversight projects may be
conducted exclusively in theater, require travel into theater, or be conducted
outside the theater such as solely in CONUS.
   In addition to the audits of contracts, subcontracts, and task and deliv-
ery orders for logistical support being conducted, this Comprehensive Plan
addresses other oversight areas, including asset accountability, financial
management, security, human rights, rule of law, and economical and social
development. Participating oversight agencies will continue to coordinate audit
plans through working groups and councils.
   DoD OIG’s ongoing Operation Enduring Freedom–related oversight addresses
the safety of personnel with regard to construction efforts, force protection
programs for U.S. personnel, accountability of property, improper payments,




                  REPORT TO THE UNITED STATES CONGRESS                      I   APRIL 30, 2011                      123
OTHER AGENCY OVERSIGHT




contract administration, distribution and reconciliation of funds for the Afghan
National Army (ANA) payroll; oversight of the contract for training the Afghan
National Police (ANP); logistical distribution within Afghanistan; information
operations, armoring capabilities, and acquisition planning and controls over
funding for the Afghan National Security Forces (ANSF).
   For the first quarter of FY 2011, DoD OIG had 43 ongoing oversight activities
and issued 11 reports that support OEF. Of those 43 ongoing projects, 17 directly
relate to reconstruction or security operations in Afghanistan and are incorpo-
rated in this quarterly report. Of the 11 reports issued, one directly relates to
reconstruction or security operations in Afghanistan as defined by the Special
Inspector General for Afghanistan Reconstruction.

Fees and Surcharges on Intragovernmental Orders Funded by
Afghanistan Security Forces Fund Appropriations
(Project No. D2011-D000FD-0121.000, Initiated March 30, 2011)
DoD OIG is determining what fees and surcharges DoD Components charge on
intragovernmental orders funded by Afghanistan Security Forces Fund appro-
priations. DoD OIG will also evaluate whether the cost data exist to support
those charges.

Development of Afghan National Army Logistics Capability
(Project No. D2011-D00SPO-0172.000, Initiated February 14, 2011)
DoD OIG is determining whether planning and operational implementation of
efforts by U.S./coalition forces to train, advise, and assist in the development
of an enduring logistics sustainability capability for the Afghan National Army
(ANA) is effective. This includes evaluating output/outcome in ANA logistical
and operational organizations resulting from U.S./coalition involvement in devel-
oping Ministry of Defense (MoD)/ANA logistics support processes. In addition,
DoD OIG will determine whether plans, training, preparation, and designated
missions of International Security Assistance Force (ISAF)/U.S. Forces-
Afghanistan, NATO Training Mission-Afghanistan/Combined Security Transition
Command-Afghanistan, and ISAF Joint Command to train, advise, and assist in
the development of an enduring logistics sustainability capability for the ANA are
integrated across all levels of U.S./coalition commands/staffs, as well as with the
MoD, and address ANA operational needs.

Facilities Management Training Provided Under the National
Operations and Maintenance Contracts in Afghanistan
(Project No. D2011-D000JO-0137.000, Initiated January 18, 2011)
DoD OIG is determining whether the vocational training provided under the
National Operations and Maintenance contracts is effective in developing the infra-
structure maintenance capabilities of the Afghanistan National Security Forces.




  124                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                      OTHER AGENCY OVERSIGHT




Pricing and Oversight of the Afghan National Army Air Corps
Pilot and English Language Training Task Order
(D2011-D000AS-0153.000, Initiated January 11, 2011)
DoD OIG is conducting the second in a series of audits relating to the Warfighter
Field Operations Customer Support (FOCUS) contract. In this second review,
DoD OIG is determining whether the U.S. Army Program Executive Office for
Simulation, Training, and Instrumentation obtained fair and reasonable prices for
the goods and services on the Afghan National Army Air Corps Pilot and English
Language Training task order and appropriately defined contractor surveillance
and oversight processes and procedures for the task order.

Procurement of High-Mobility Multipurpose Wheeled Vehicles
and Troop Enclosures for the Afghan National Security Forces
(Project No. D2011-D000AS-0133.000, Initiated January 3, 2011)
DoD OIG is determining whether the program and contracting officials are effec-
tively and efficiently procuring High-Mobility Multipurpose Wheeled Vehicles and
troop enclosures.

Internal Controls Over Distribution and Reconciliation of Funds
for the Afghanistan National Army Payroll
(Project No. D2011-D000FR-0089.000, Initiated November 30, 2010)
DoD OIG is determining whether adequate controls are in place to ensure that
the North Atlantic Treaty Organization Training Mission - Afghanistan/Combined
Security Transition Command - Afghanistan (NTM-A/CSTC-A) is distributing
DoD funds accurately and timely to the Afghan ministries for the ANA payroll.
In addition, DoD OIG is determining whether NTM-A/CSTC-A has implemented
an adequate mentoring process to assist Afghan ministries in providing accurate
payments to ANA personnel.

Requirements Development Process for Military Construction
Projects in Afghanistan
(Project No. D2011-D000JB-0068.000, Initiated November 17, 2010)
DoD OIG is evaluating the requirements development process for military con-
struction projects in Afghanistan. Specifically, DoD OIG is determining whether
the requirements development process results in statements of work that clearly
define required results, has measurable outcomes, and meets DoD needs.

DoD Oversight of the Northern Distribution Network
(Project No. D2011-D000JA-0075.000, Initiated November 2, 2010)
DoD OIG is assessing DoD oversight of the Northern Distribution Network and
evaluating the ability of DoD to plan, coordinate, and execute sustainment opera-
tions for Afghanistan through the Northern Distribution Network.




             REPORT TO THE UNITED STATES CONGRESS     I   APRIL 30, 2011   125
OTHER AGENCY OVERSIGHT




Management and Oversight for DoD Acquisition and
Support of Non-Standard Rotary Wing Aircraft
(Project No. D2011-D000AS-0030.000, Initiated October 1, 2010)
DoD OIG is determining whether DoD officials properly and effectively managed
the acquisition and support of non-standard rotary wing aircraft, such as the
Russian Mi-17 aircraft, to include those acquired using the Afghanistan Security
Forces Fund or any DoD-related requirements. Multiple projects may be initiated
under this objective.

Afghan National Police Training Program (Joint Audit)
(Project No. D2011-D000JA-0009.000, [DoS 11AUD3001], Initiated September 30, 2010)
DoD OIG and DoS OIG are performing this joint audit to meet an anticipated
requirement in the FY 2011 National Defense Authorization Act that will require
DoD OIG, in consultation with DoS OIG, to issue a report on the ANP Training
Program. The audit is evaluating DoD and DoS efforts to transfer contract adminis-
tration for the ANP Program. Specifically, DoD OIG/DOS OIG will assess the cost,
performance measures, and planning efforts associated with the transfer to ensure
enhanced contract oversight, adequate funding and support, and effective program
management. The joint team also plans to follow up on the joint DoD OIG Report
No. D-2010-042 and DoS OIG Report No. MERO-A-I O-6, “Department of Defense
Obligations and Expenditures of Funds Provided to the Department of State for the
Training and Mentoring of the Afghan National Police,” February 9, 2010.

Controls Over the Reporting and Propriety of Commander’s
Emergency Response Program Payments in Afghanistan
(Project No. D2010-D000FL-0276.000, Initiated September 2, 2010)
DoD OIG is determining whether the internal controls over CERP payments
made to support operations in Afghanistan are adequate. Specifically, DoD OIG
will review the controls to ensure payments are proper and that complete, accu-
rate, and meaningful data is reported to those decision-makers responsible for
managing the CERP. This audit is the second in a series of audits that addresses
the internal controls over the CERP payments made to support operations in
Afghanistan.

Implementation of Security Provisions of a U.S. Army Intelligence
and Security Command Contract for Linguist Support
(Project No. D2010-D000JA-0165.001, Initiated June 21, 2010)
DoD OIG is determining whether the security provisions of a U.S. Army
Intelligence and Security Command contract for linguist support in Afghanistan
(W911W4-07-D-0010) were implemented effectively. This project is one in a
series of reviews regarding linguist support in Afghanistan. Project D2010-
D000JA-0165.000 addresses whether contract for linguist support in Afghanistan
(W911W4-07-D-0010) included appropriate security provisions.




  126                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                      OTHER AGENCY OVERSIGHT




Construction of the Detention Facility in Parwan, Afghanistan
(Project No. D2010-D000JO-0229.000, Initiated June 14, 2010)
DoD OIG is determining whether the U.S. Army Corps of Engineers and
USFOR-A procured construction services and administered the construction
contract for the Detention Facility in Parwan, Afghanistan, in accordance with
the Federal Acquisition Regulation and other applicable laws and regulations.
Specifically, DoD OIG will determine whether the U.S. Army Corps of Engineers
properly monitored contractor performance during construction of the Detention
Facility in Parwan and whether the U.S. Army Corps of Engineers has taken or
should take recourse against the contractor because of potential latent defects,
negligence, or fraud.

Afghanistan National Army Equipment Maintenance
Apprenticeship and Services Program Contract
(Project No. D2010-D000JB-0157.000, Initiated March 4, 2010)
DoD OIG is determining whether adequate quality assurance and quality control
procedures exist for the Afghanistan National Army Vehicle and Maintenance
Contract. Specifically, DoD OIG will determine whether government contractual
requirements have been met and adequate contract surveillance is being con-
ducted. In addition, DoD OIG will determine whether the contractor requires
additional warehouse space to effectively perform contractual tasks and whether
the contractor submitted a fair and reasonable request for equitable adjustment
for pmts reimbursement. A series of reports is planned for this project.

Force Protection Programs for U.S. Forces in Afghanistan
(Project No. D2010-D000JA-0091.000, Initiated December 9, 2009)
DoD OIG is reviewing the force protection programs for primary gathering facili-
ties and billeting areas of U.S. forces in Afghanistan. Specifically, it is assessing
the program support and resources that commanders have for facility planning,
antiterrorism, and safety programs protecting their forces. The audit is focusing on
Bagram Airfield, Kandahar Airfield, Camp Eggers, and the New Kabul Compound.

U.S. and Coalition Efforts to Develop the Medical Sustainment
Capability of the Afghan National Security Forces
(Project No. D2009-D00SPO-0115.000, Initiated December, 17, 2008)
DoD OIG is determining whether U.S. government, Coalition, and Afghan
Ministries of Defense and Interior goals, objectives, plans, and guidance to
develop and sustain the current and projected Afghan National Security Forces
(ANSF) health care system are issued and operative.




             REPORT TO THE UNITED STATES CONGRESS    I   APRIL 30, 2011        127
OTHER AGENCY OVERSIGHT




DEPARTMENT OF STATE OFFICE OF INSPECTOR GENERAL
Audit of the Afghan National Police Training Program (joint audit)
(Project No. 11AUD3001 [DoD D2011-D00JA-0009.00], Initiated November 2010)
Objectives: Per an anticipated requirement in the FY 2011 National Defense
Authorization Act that will require DoD OIG, in consultation with DoS OIG, to
issue a report on the ANP training program, DoS OIG’s objective is to evaluate
DoD and DoS efforts to transfer contract administration for the ANP Program.
Specifically, DoS OIG will assess the cost, performance measures, and plan-
ning efforts associated with the transfer to ensure enhanced contract oversight,
adequate funding and support, and effective program management. DoS OIG also
plans to follow up on the joint DoD OIG Report No. D-2010-042 and DoS OIG
Report No. MERO-A-10-6, “Department of Defense Obligations and Expenditures
of Funds Provided to the Department of State for the Training and Mentoring of
the Afghan National Police,” 2/9/2010.

Afghanistan Civilian Uplift
(Project No. 11AUD3003, Initiated October 2010)
Objective: The objective of this audit is to determine the costs of the civil-
ian uplift in Afghanistan, including how much has been spent to date (2009 to
present) and an estimate of how much it will cost to sustain the effort (present
through 2012). DoS OIG’s work will focus on the costs associated with the hiring,
training, deployment, and necessary life and operational support of civilian uplift
personnel assigned to Afghanistan.

DEPARTMENT OF STATE OFFICE OF INSPECTOR GENERAL –
MIDDLE EAST REGIONAL OFFICE
Evaluation of the Bureau of International Narcotics and Law
Enforcement Affairs’ Justice Sector Support Program Assistance
to the Attorney General’s Anti-Corruption Unit in Afghanistan
(Contract Evaluation)
(Project No. 11-MERO-3013, Initiated February 2011)
This evaluation will determine (1) the amount of funding DoS has obligated and
expended; (2) how DoS ensures that costs are properly allocated and supported;
(3) to what extent DoS’s anti-corruption mentoring and justice sector support
program assistance has achieved its objectives and the impediments; and
(4) the effectiveness of Embassy Kabul in managing and overseeing the assis-
tance program.




  128               SPECIAL INSPECTOR GENERAL     I   AFGHANISTAN RECONSTRUCTION
                       OTHER AGENCY OVERSIGHT




Limited-Scope Review of the Needs Assessments and Facilities
Conditions for Newly Developed Department of State Positions in
Afghanistan (Program Evaluation)
(Project No. 11-MERO-3007, Initiated December 2010)
The primary objectives of this evaluation are to determine (1) the degree to
which DoS conducted needs assessments to identify, develop, and staff new
positions at Embassy Kabul and its constituent posts; and (2) whether available
office facilities and housing or that already provided to staff filling these new
positions are adequate, safe, and secure.

Review of the Bureau of International Narcotics and Law
Enforcement Affairs’ Facility Operations and Maintenance Support
Contract with the Major Crimes Task Force in Afghanistan
(Contract Evaluation)
(Project No. 11-MERO-3003, Initiated October 2010)
The primary objectives of this evaluation are to determine (1) the requirements
and provisions of the contract; (2) the amount of funding DoS has obligated and
expended to provide facility operations and maintenance; (3) DynCorp’s con-
tract performance in providing facility operations and maintenance to the Major
Crimes Task Force at Camp Falcon; and (4) how DoS ensures that costs incurred
are properly allocated and supported.

Review of the Bureau of Population, Refugees, and Migration
(PRM) Program Effectiveness to Reintegrate and Resettle Afghan
Refugees (Program Evaluation)
(Project No. 11-MERO-3004, Initiated September 2010)
The objectives of this performance audit are to determine (1) the requirements
and provisions of agreements with UNHCR, ICRC, and NGOs; (2) how assistance
requirements were calculated, (3) whether assistance reached intended targets,
(3) if program performance measures were established and achieved; and (4) the
effectiveness of Embassy Kabul and Provincial Reconstruction Teams to manage
and coordinate the humanitarian response in Afghanistan.

GOVERNMENT ACCOUNTABILITY OFFICE
State Contracting for Conflict Countries
(Project No. 120976, Initiated March 31, 2011)
This review will focus on assessing (1) the organizational alignment of DoS’s
acquisition functions with its missions and needs; (2) DoS’s acquisition work-
force, both in terms of number of personnel and their expertise; (3) DoS’s use
and management of contracts awarded and/or administered on its behalf by
other federal departments or agencies; (4) the statutory and regulatory authori-
ties available for use in conflict environments; and (5) the efforts planned or




             REPORT TO THE UNITED STATES CONGRESS     I   APRIL 30, 2011    129
OTHER AGENCY OVERSIGHT




underway to enhance the capacity of State’s acquisition workforce and reform its
acquisition practices and processes.

Marine Corps Equipping Strategies to Reset Equipment
(Project No. 351552, Initiated December 9, 2010)
This review will focus on the extent to which (1) the Marine Corps has a strategy
in place to manage the reset of ground and aviation equipment returning from
Iraq and Afghanistan; (2) the Marine Corps’ strategy for resetting equipment
is aligned with the Marine Corps’ plan for force modernization; (3) the Marine
Corps is able to determine the total reset costs for equipment used in operations
in Iraq and Afghanistan; and (4) the Marine Corps’ budget request from
FY 2009–12 for equipment reset is consistent with budget guidance.

Afghan Capacity Building to Manage Budget and Finances
(Project No. 320815, Initiated November 5, 2010)
This review will focus on (1) identifying Afghanistan’s national budget (revenues,
expenditures) and budgetary shortfall; (2) U.S. efforts to build Afghan capacity to
manage and oversee the budget and build a sound financial management system,
and the extent to which these efforts are aligned with Afghan and international
community goals; and (3) the extent to which U.S. efforts improved the GIRoA’s
capacity to manage and oversee its budget and develop a sound financial man-
agement system.

DoD Task Force for Business and Stability Operations
(Project No. 351525, Initiated August 26, 2010)
This review will focus on the extent to which (1) the mission of the Task Force has
changed since 2006, and whether DoD developed plans to institutionalize the Task
Force’s mission and expand its scope to other countries; (2) DoD has evaluated the
Task Force’s activities, including establishing goals and metrics to measure out-
comes; (3) the Task Force coordinates its activities with other programs; and
(4) the Task Force’s activities are similar or dissimilar to other programs, and
whether opportunities exist to achieve greater efficiencies among programs.

Army Advise and Assist Brigades
(Project No. 351514, Initiated August 4, 2010)
The Army is augmenting certain brigade combat teams with additional leaders
to advise and assist Iraqi and Afghan security forces. This review will focus on
(1) the extent to which Army has defined the roles and missions of augmented
brigade combat teams; (2) the extent to which Army has defined the training and
resourcing requirements for augmented brigade combat teams, and the extent
to which the Army and DoD have assessed their use for security force assis-
tance; and (3) the extent to which Army has been able to fill the requirements
for augmented brigade combat teams and what impacts, if any, this is having on
reported Army readiness.



  130                 SPECIAL INSPECTOR GENERAL    I   AFGHANISTAN RECONSTRUCTION
                       OTHER AGENCY OVERSIGHT




DoD Vetting in Afghanistan
(Project No. 351489, Initiated August 4, 2010)
This review will focus on DoD processes to award contracts to Afghan and
Pakistani firms. Specifically, the extent to which DoD has developed and imple-
mented a process to vet Afghan and Pakistani firms; shares information on
Afghanistan and Pakistan firms with DoS, USAID, NATO, and the UN; and has
assurance that armed Afghan private security contractor personnel are screened.

Accountability of U.S. Direct Assistance to Afghanistan
(Project No. 320794, Initiated July 21, 2010)
This review will focus on the extent to which the United States has provided
direct assistance to the GIRoA; established key control elements to help ensure
financial accountability over direct assistance provided bilaterally to Afghan
ministries; and established key control elements to help ensure financial
accountability over direct assistance provided through multilateral trust funds to
Afghan ministries.

U.S. Civilian Presence in Afghanistan
(Project No. 320766, Initiated May 3, 2010)
This review will focus on the extent to which and the processes through which
U.S. agencies are prioritizing and fulfilling staffing requirements for the civilian
surge in Afghanistan, and the steps U.S. agencies have taken to prepare their
personnel for deployment.

Afghanistan Logistics Support
(Project No. 351492, Initiated April 30, 2010)
This review will focus on (1) the extent to which DoD has provided the person-
nel, equipment, and supplies needed to support operations in Afghanistan in
accordance with DoD’s established plans and timeline; (2) the factors, if any,
that have impacted DoD’s ability to provide the personnel, equipment, and sup-
plies needed to support operations in Afghanistan, and how DoD has addressed
these factors; and (3) the extent to which DoD has established a clear chain of
command for the transportation of personnel, supplies, and equipment into and
around Afghanistan.

U.S. ARMY AUDIT AGENCY
Commander’s Emergency Response Program-Afghanistan
(Project Code A-2011-ALL-0342.000, Initiated 2Q/FY11)
This audit will determine whether the established project review and approval
processes for the Commander’s Emergency Relief Program in Afghanistan
promote selection of projects in compliance with its stated goals of providing
immediate benefit to the Afghan people.



             REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2011         131
OTHER AGENCY OVERSIGHT




U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT
OFFICE OF INSPECTOR GENERAL
During the quarter, USAID OIG issued 1 audit, 8 financial audits were in process,
and 38 audits were in the planning phase. Financial audits of USAID/Afghanistan
programs are performed by public accounting firms and by DCAA, and USAID
OIG performs desk reviews and/or quality control reviews of the audits and
transmits the reports to USAID for action.

Review of USAID/Afghanistan’s Portion of the
Embassy Air Program
(Initiated 2Q/FY11)
Objective: To determine whether the USAID/Afghanistan-funded portion of the
Embassy Air program achieving its main goal of providing safe and reliable air
service to enable USAID to supply mission-critical transportation and freight
services in support of provincial reconstruction teams and other U.S. mission
development assistance programs in Afghanistan.

Audit of USAID/Afghanistan’s Afghanistan Stabilization Initiative –
Southern Region
(Initiated 2Q/FY11)
Objective: To determine if the USAID’s Afghanistan Stabilization Initiative –
Southern Region (ASI-SR) program is building confidence between communities
and the GIRoA.

Audit of USAID/Afghanistan’s Election Support Programs and
Support to the Electoral Process (STEP) Programs
Objective: To determine whether the Support for Increased Electoral
Participation in Afghanistan and Support to the Electoral Process programs are
achieving their main goal of strengthened competitive, inclusive, and credible
elections and political processes.




  132                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                               OTHER AGENCY OVERSIGHT




OTHER AGENCY INVESTIGATIONS
SIGAR regularly coordinates with other government agencies conducting inves-
tigations in Afghanistan to monitor the progress of those investigations. As of
March 31, 2011, DoD OIG Investigations was investigating 89 open cases, and
DoS OIG Investigations (DoS OIG-INV) was investigating 11 open cases. Table
4.3 lists the number of open and closed investigations as of March 31, 2011.

OTHER AGENCY INSPECTIONS
DoS OIG Inspections (DoS OIG INS) has one ongoing inspection in Afghanistan
as of March 31, 2011.

Embassy Kabul Inspection Compliance Follow-up Review (CFR)
(Report No. 11-ISP-3038, Initiated March 2011)
Follow up on compliance with recommendations made in OIG/ISP inspection of
Embassy Kabul (ISP-I-10-32A, February 2010) to (a) close out recommendations
and/or (b) reissue recommendations that address conditions that still exist.



TABLE 4.3


INVESTIGATIVE ACTIVITIES: OTHER AGENCY INVESTIGATIONS
Agency                                           Open Cases                     Closed Cases                      Total Cases
DoD OIG-INV                                                 89                              61                           150
DoS OIG-INV                                                 11                               0                            11
Total                                                    100                               61                           161
Sources: DoS OIG-INV, response to SIGAR data call, 3/31/2011; DoD OIG-INV response to SIGAR vetting, 4/19/2011.




                  REPORT TO THE UNITED STATES CONGRESS                     I   APRIL 30, 2011                        133
      The Official Seal of SIGAR
      The Official Seal of SIGAR represents the coordination of efforts
      between the United States and Afghanistan to provide accountability
      and oversight of reconstruction activities. The phrase along the top
      side of the seal’s center is in Dari and means “SIGAR.” The phrase
      along the bottom side of the seal’s center is in Pashtu and has the
      same meaning.




134   SPECIAL INSPECTOR GENERAL     I   AFGHANISTAN RECONSTRUCTION
APPENDICES
AND ENDNOTES




       135
APPENDICES




APPENDIX A
CROSS-REFERENCE OF REPORT TO STATUTORY
REQUIREMENTS
This appendix cross-references the pages of this report to the quarterly reporting
and related requirements under SIGAR’s enabling legislation, the National Defense
Authorization Act for Fiscal Year 2008, P.L. No. 110-181, § 1229 (Table A.1), and
to the semiannual reporting requirements prescribed for inspectors general more
generally under the Inspector General Act of 1978, as amended (5 U.S.C. App. 3)
(Table A.2).
TABLE A.1


CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS UNDER
P.L. NO. 110-181, § 1229
Public Law Section      SIGAR Enabling Language                           SIGAR Action                   Section
Supervision
Section 1229(e)(1)      The Inspector General shall report directly       Report to the Secretary of     All sections
                        to, and be under the general supervision          State and the Secretary of
                        of, the Secretary of State and the Secretary      Defense
                        of Defense
Duties
Section 1229(f)(1)      OVERSIGHT OF AFGHANISTAN                          Review appropriated/           All sections
                        RECONSTRUCTION.—                                  available funds
                        It shall be the duty of the Inspector General
                        to conduct, supervise, and coordinate             Review programs,
                        audits and investigations of the treatment,       operations, contracts using
                        handling, and expenditure of amounts              appropriated/
                        appropriated or otherwise made available          available funds
                        for the reconstruction of Afghanistan, and
                        of the programs, operations, and contracts
                        carried out utilizing such funds, including
                        subsections (A) through (G) below.
Section 1229(f)(1)(A)   The oversight and accounting of the obliga-       Review obligations and         SIGAR
                        tion and expenditure of such funds                expenditures of appropri-      Oversight
                                                                          ated/available funds
                                                                                                         Funding
Section 1229(f)(1)(B)   The monitoring and review of reconstruction       Review reconstruction          SIGAR
                        activities funded by such funds                   activities funded by appro-    Oversight
                                                                          priations and donations
Section 1229(f)(1)(C)   The monitoring and review of contracts            Review contracts using         Note 1
                        funded by such funds                              appropriated and available
                                                                          funds
Section 1229(f)(1)(D) The monitoring and review of the transfer           Review internal and external   Appendix B
                      of such funds and associated information            transfers of appropriated/
                      between and among departments, agen-                available funds
                      cies, and entities of the United States, and
                      private and nongovernmental entities
Section 1229(f)(1)(E)   The maintenance of records on the use of          Maintain audit records         SIGAR
                        such funds to facilitate future audits and                                       Oversight
                        investigations of the use of such fund[s]                                        Appendix C
                                                                                                         Appendix D




  136                      SPECIAL INSPECTOR GENERAL              I     AFGHANISTAN RECONSTRUCTION
                                                                                APPENDICES




TABLE A.1 (CONTINUED)


CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS UNDER
P.L. NO. 110-181, § 1229
Public Law Section      SIGAR Enabling Language                            SIGAR Action              Section
Section 1229(f)(1)(F)   The monitoring and review of the effective-    Monitoring and review         Audits
                        ness of United States coordination with        as described
                        the Governments of Afghanistan and
                        other donor countries in the implementa-
                        tion of the Afghanistan Compact and the
                        Afghanistan National Development Strategy
Section 1229(f)(1)(G) The investigation of overpayments such as        Conduct and reporting of      Investigations
                      duplicate payments or duplicate billing and      investigations as described
                      any potential unethical or illegal actions of
                      Federal employees, contractors, or affiliated
                      entities, and the referral of such reports, as
                      necessary, to the Department of Justice to
                      ensure further investigations, prosecutions,
                      recovery of further funds, or other remedies.
Section 1229(f)(2)      OTHER DUTIES RELATED TO OVERSIGHT.—            Establish, maintain, and      All sections
                        The Inspector General shall establish,         oversee systems, proce-
                        maintain, and oversee such systems,            dures, and controls
                        procedures, and controls as the Inspector
                        General considers appropriate to discharge
                        the duties under paragraph (1)
Section 1229(f)(3)      DUTIES AND RESPONSIBILITIES UNDER              Duties as specified in        All sections
                        INSPECTOR GENERAL ACT OF 1978.—                Inspector General Act
                        In addition,. . .the Inspector General shall
                        also have the duties and responsibilities
                        of inspectors general under the Inspector
                        General Act of 1978
Section 1229(f)(4)      COORDINATION OF EFFORTS.—                      Coordination with the         Other Agency
                        The Inspector General shall coordinate with,   inspectors general of         Oversight
                        and receive the cooperation of, each of the    DoD, DoS, and USAID
                        following: (A) the Inspector General of the
                        Department of Defense, (B) the Inspector
                        General of the Department of State, and (C)
                        the Inspector General of the United States
                        Agency for International Development
Federal Support and Other Resources
Section 1229(h)(5)(A) ASSISTANCE FROM FEDERAL AGENCIES.—               Expect support as             All sections
                      Upon request of the Inspector General for        requested
                      information or assistance from any depart-
                      ment, agency, or other entity of the Federal
                      Government, the head of such entity shall,
                      insofar as is practicable and not in con-
                      travention of any existing law, furnish such
                      information or assistance to the Inspector
                      General, or an authorized designee




                 REPORT TO THE UNITED STATES CONGRESS                  I    APRIL 30, 2011                 137
APPENDICES




TABLE A.1 (CONTINUED)


CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS UNDER
P.L. NO. 110-181, § 1229
Public Law Section      SIGAR Enabling Language                           SIGAR Action                  Section
Section 1229(h)(5)(B) REPORTING OF REFUSED ASSISTANCE.—                   None reported                 N/A
                      Whenever information or assistance
                      requested by the Inspector General is,
                      in the judgment of the Inspector General,
                      unreasonably refused or not provided, the
                      Inspector General shall report the circum-
                      stances to the Secretary of State or the
                      Secretary of Defense, as appropriate, and to
                      the appropriate congressional committees
                      without delay.
Reports
Section 1229(i)(1)      QUARTERLY REPORTS.—                               Report – 30 days after        All sections
                        Not later than 30 days after the end of each      the end of each calendar      Appendix B
                        fiscal-year quarter, the Inspector General        quarter
                        shall submit to the appropriate committees
                        of Congress a report summarizing, for the         Summarize activities of the
                        period of that quarter and, to the extent         inspector general
                        possible, the period from the end of such
                        quarter to the time of the submission of          Detailed statement of all
                        the report, the activities during such period     obligations, expenditures,
                        of the Inspector General and the activities       and revenues
                        under programs and operations funded
                        with amounts appropriated or otherwise
                        made available for the reconstruction of
                        Afghanistan. Each report shall include,
                        for the period covered by such report,
                        a detailed statement of all obligations,
                        expenditures, and revenues associated with
                        reconstruction and rehabilitation activities in
                        Afghanistan, including the following –
Section 1229(i)(1)(A)   Obligations and expenditures of appropri-         Obligations and expen-        Appendix B
                        ated/donated funds                                ditures of appropriated/
                                                                          donated funds
Section 1229(i)(1)(B)   A project-by-project and program-                 Project-by-project and        Funding
                        by-program accounting of the costs                program-by-program
                        incurred to date for the reconstruction of        accounting of costs. List     Note 1
                        Afghanistan, together with the estimate of        unexpended funds for each
                        the Department of Defense, the Department         project or program
                        of State, and the United States Agency for
                        International Development, as applicable,
                        of the costs to complete each project and
                        each program
Section 1229(i)(1)(C)   Revenues attributable to or consisting            Revenues, obligations, and    Funding
                        of funds provided by foreign nations or           expenditures of donor funds
                        international organizations to programs
                        and projects funded by any department or
                        agency of the United States Government,
                        and any obligations or expenditures of
                        such revenues




  138                      SPECIAL INSPECTOR GENERAL               I   AFGHANISTAN RECONSTRUCTION
                                                                                    APPENDICES




TABLE A.1 (CONTINUED)


CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS UNDER
P.L. NO. 110-181, § 1229
Public Law Section      SIGAR Enabling Language                               SIGAR Action                  Section
Section 1229(i)(1)(D)   Revenues attributable to or consisting of for-        Revenues, obligations, and    Funding
                        eign assets seized or frozen that contribute          expenditures of funds from
                        to programs and projects funded by any U.S.           seized or frozen assets
                        government department or agency, and any
                        obligations or expenditures of such revenues
Section 1229(i)(1)(E)   Operating expenses of agencies or entities            Operating expenses of         Funding
                        receiving amounts appropriated or otherwise           agencies or any organiza-
                        made available for the reconstruction of              tion receiving appropriated   Appendix B
                        Afghanistan                                           funds
Section 1229(i)(1)(F)   In the case of any contract, grant,                   Describe contract details     Note 1
                        agreement, or other funding mechanism
                        described in paragraph (2)* —
                        (i) The amount of the contract or other fund-
                        ing mechanism;
                        (ii) A brief discussion of the scope of the
                        contract or other funding mechanism;
                        (iii) A discussion of how the department or
                        agency of the United States Government
                        involved in the contract, grant, agreement,
                        or other funding mechanism identified and
                        solicited offers from potential contractors
                        to perform the contract, grant, agreement,
                        or other funding mechanism, together with
                        a list of the potential individuals or entities
                        that were issued solicitations for the offers;
                        and
                        (iv) The justification and approval
                        documents on which was based the
                        determination to use procedures other than
                        procedures that provide for full and open
                        competition
Section 1229(i)(3)      PUBLIC AVAILABILITY.—                                 Publish report                www.sigar.mil
                        The Inspector General shall publish on a              as directed
                        publically-available Internet website each                                          Dari and
                        report under paragraph (1) of this subsec-                                          Pashtu
                        tion in English and other languages that the                                        translation in
                        Inspector General determines are widely                                             process
                        used and understood in Afghanistan
Section 1229(i)(4)      FORM.—                                                Publish report                All sections
                        Each report required under this subsection            as directed
                        shall be submitted in unclassified form,
                        but may include a classified annex if the
                        Inspector General considers it necessary




                REPORT TO THE UNITED STATES CONGRESS                      I    APRIL 30, 2011                     139
                                 APPENDICES




TABLE A.2


CROSS-REFERENCE TO SEMIANNUAL REPORTING REQUIREMENTS UNDER
SECTION 5 OF THE IG ACT OF 1978, AS AMENDED (5 U.S.C. APP. 3) (“IG ACT”)
IG Act Section     IG Act Language                                      SIGAR Action                                         Section
Section 5(a)(1)    Description of significant problems, abuses, and     Extract pertinent information from SWA/JPG           Other Agency Oversight
                   deficiencies                                         member reports
                                                                        List problems, abuses, and deficiencies from         See Letters of Inquiry at
                                                                        SIGAR audit reports, investigations, and             www.sigar.mil
                                                                        inspections
Section 5(a)(2)    Description of recommendations for corrective        Extract pertinent information from SWA/JPG           Other Agency Oversight
                   action…with respect to significant problems,         member l reports
                   abuses, or deficiencies                                                                                   See Letters of Inquiry at
                                                                        List recommendations from SIGAR audit reports        www.sigar.mil
Section 5(a)(3)    Identification of each significant recommenda-       List all instances of incomplete corrective action   In process
                   tion described in previous semiannual reports on     from previous semiannual reports
                   which corrective action has not been completed
Section 5(a)(4)    A summary of matters referred to prosecutive         Extract pertinent information from SWA/JPG           Other Agency Oversight
                   authorities and the prosecutions and convictions     member reports
                   which have resulted
                                                                        List SIGAR Investigations that have been referred
Section 5(a)(5)    A summary of each report made to the [Secretary      Extract pertinent information from SWA/JPG           Other Agency Oversight
                   of Defense] under section 6(b)(2) (instances         member reports
                   where information requested was refused or not
                   provided)                                            List instances in which information was refused
                                                                        SIGAR auditors, investigators, or inspectors
Section 5(a)(6)    A listing, subdivided according to subject mat-      Extract pertinent information from SWA/JPG           Other Agency Oversight
                   ter, of each audit report, inspection report and     member reports
                   evaluation report issued...showing dollar value
                   of questioned costs and recommendations that         List SIGAR reports
                   funds be put to better use
Section 5(a)(7)    A summary of each particularly significant report    Extract pertinent information from SWA/JPG          Other Agency Oversight
                                                                        member reports                                      A full list of significant
                                                                                                                            reports can be found at
                                                                        Provide a synopsis of the significant SIGAR reports www.sigar.mil
Section 5(a)(8)    Statistical tables showing the total number of       Extract pertinent information from SWA/JPG           See reports of SWA/JPG
                   audit reports and the total dollar value of ques-    member reports                                       members
                   tioned costs
                                                                        Develop statistical tables showing dollar value      In process
                                                                        of questioned cost from SIGAR reports
Section 5(a)(9)    Statistical tables showing the total number of       Extract pertinent information from SWA/JPG           See reports of SWA/JPG
                   audit reports, inspection reports, and evaluation    member reports                                       members
                   reports and the dollar value of recommendations
                   that funds be put to better use by management        Develop statistical tables showing dollar value      In process
                                                                        of funds put to better use by management from
                                                                        SIGAR reports
Section 5(a)(10)   A summary of each audit report, inspection report,   Extract pertinent information from SWA/JPG           See reports of SWA/JPG
                   and evaluation report issued before the com-         member reports                                       members
                   mencement of the reporting period for which no
                   management decision has been made by the end         Provide a synopsis of SIGAR audit reports in         None
                   of reporting period, an explanation of the reasons   which recommendations by SIGAR are still open
                   such management decision has not been made,
                   and a statement concerning the desired timetable
                   for achieving a management decision




                                    140                        SPECIAL INSPECTOR GENERAL             I   AFGHANISTAN RECONSTRUCTION
                                                                                           APPENDICES




TABLE A.2 (CONTINUED)


CROSS-REFERENCE TO SEMIANNUAL REPORTING REQUIREMENTS UNDER
SECTION 5 OF THE IG ACT OF 1978, AS AMENDED (5 U.S.C. APP. 3) (“IG ACT”)
IG Act Section                IG Act Language                                            SIGAR Action                                                 Section
Section 5(a)(11)              A description and explanation of the reasons for           Extract pertinent information from SWA/JPG                   See reports of SWA/JPG
                              any significant revised management decision                member reports                                               members

                                                                                         Explain SIGAR audit reports in which significant             None
                                                                                         revisions have been made to management
                                                                                         decisions
Section 5(a)(12)              Information concerning any significant manage-             Extract pertinent information from SWA/JPG                   See reports of SWA/JPG
                              ment decision with which the Inspector General is          member reports                                               members
                              in disagreement
                                                                                         Explain SIGAR audit reports in which SIGAR                   No disputed decisions
                                                                                         disagreed with management decision                           during the reporting period
Section 5(a)(13)              Information described under Section 804 [sic] of           Extract pertinent information from SWA/JPG                   See reports of SWA/JPG
                              the Federal Financial Management Improvement               member reports                                               members
                              Act of 1996 (instances and reasons when an
                              agency has not met target dates established in a           Provide information where management has not                 No disputed
                              remediation plan)                                          met targets from a remediation plan                          decisions during the report-
                                                                                                                                                      ing period
Section 5(a)(14)(A)           An Appendix containing the results of any peer             SIGAR has posted in full the results of, and                 Posted in full at
                              review conducted by another Office of Inspector            reports from, SIGAR’s most recent peer reviews               www.sigar.mil
                              General during the reporting period; or                    (completed during July 2010, prior to the current
                                                                                         reporting period), on its Web site
Section 5(a)(14)(B)           If no peer review was conducted within that report- 15 July 2010                                                        Posted in full at
                              ing period, a statement identifying the date of the                                                                     www.sigar.mil
                              last peer review conducted by another Office of
                              Inspector General
Section 5(a)(15)              A list of any outstanding recommendations from             None – all peer review recommendations                       Recommendations and
                              any peer review conducted by another Office of             effectively addressed, and remedial measures                 related materials posted in
                              Inspector General that have not been fully imple-          implemented, by 30 September 2010                            full at www.sigar.mil
                              ment, including a statement describing the status
                              of the implementation and why implementation is
                              not complete
Section 5(a)(16)              Any peer reviews conducted by SIGAR of another             Not applicable (SIGAR did not conduct, or                    SIGAR Oversight
                              IG Office during the reporting period, including a         participate in the conduct, of a peer review of
                              list of any outstanding recommendations made               another Office of Inspector General during the
                              from any previous peer review . . . that remain            reporting period)
                              outstanding or have not been fully implemented


Note 1: Although this data is normally made available on SIGAR’s Web site (www.sigar.mil), the data SIGAR has received is in relatively raw form and is currently being reviewed,
analyzed, and organized for all future SIGAR purposes.
* Covered “contracts, grants, agreements, and funding mechanisms” are defined in paragraph (2) of Section 1229(i) of P.L. No. 110-181 as being—
“any major contract, grant, agreement, or other funding mechanism that is entered into by any department or agency of the United States Government that involves the use of
amounts appropriated or otherwise made available for the reconstruction of Afghanistan with any public or private sector entity for any of the following purposes:
To build or rebuild physical infrastructure of Afghanistan.
To establish or reestablish a political or societal institution of Afghanistan.
To provide products or services to the people of Afghanistan.”




                     REPORT TO THE UNITED STATES CONGRESS                         I   APRIL 30, 2011                          141
                                                             APPENDICES



                                                             APPENDIX B
                                                             U.S. GOVERNMENT APPROPRIATED FUNDS ($ MILLIONS)
                                                             Table B.1 lists funds appropriated for Afghanistan reconstruction by program,
                                                             per year, as of March 31, 2011. FY 2011 funds reflect amounts made available
                                                             under continuing resolutions.

                                                             TABLE B.1


                                                              U.S. FUNDING SOURCES                                                    AGENCY            TOTAL
                                                              SECURITY
                                                                Afghanistan Security Forces Fund (ASFF)                               DoD             33,294.19
                                                                Train & Equip (DoD)                                                   DoD                440.00
                                                                Foreign Military Financing (FMF)                                      DoS              1,059.14
                                                                International Military Education & Training (IMET)                    DoS                  8.30
                                                                NDAA Section 1207 Transfer                                            Other                9.90
                                                              Total - Security                                                                       34,811.53
                                                              GOVERNANCE & DEVELOPMENT
                                                                Commander’s Emergency Response Program (CERP)                         DoD              2,639.00
                                                                Afghanistan Infrastructure Fund (AIF)                                 DoD                  0.00
                                                                Economic Support Fund (ESF)                                           USAID           11,143.15
                                                                Development Assistance (DA)                                           USAID              885.19
                                                                Afghanistan Freedom Support Act (AFSA)                                DoD                550.00
                                                                Child Survival & Health (CSH + GHAI)                                  USAID              486.42
                                                                Commodity Credit Corp (CCC)                                           USAID               33.91
                                                                Freedom Support Act (FSA)                                             USAID                5.00
                                                                USAID (other)                                                         USAID               34.27
                                                                Non-Proliferation, Antiterrorism, Demining & Related (NADR)           DoS                371.60
                                                                Provincial Reconstruction Team Advisors                               USDA                 5.70
                                                                Treasury Technical Assistance                                         Treasury             3.52
                                                              Total - Governance & Development                                                       16,157.76
                                                              COUNTER-NARCOTICS
                                                                International Narcotics Control & Law Enforcement (INCLE)             DoS              2,862.22
                                                                Drug Interdiction & Counter-Drug Activities (DoD CN)                  DoD              1,546.78
                                                                Drug Enforcement Administration (DEA)                                 DoJ                127.37
                                                              Total - Counter-Narcotics                                                               4,536.37
                                                              HUMANITARIAN
                                                                P.L. 480 Title I                                                      USDA                 5.00
                                                                P.L. 480 Title II                                                     USAID              701.21
                                                                Disaster Assistance (IDA)                                             USAID              405.30
                                                                Transition Initiatives (TI)                                           USAID               35.27
                                                                Migration & Refugee Assistance (MRA)                                  DoS                592.99
                                                                Voluntary Peacekeeping (PKO)                                          DoS                 69.33
                                                                Emergency Refugee & Migration Assistance (ERMA)                       DoS                 25.20
                                                                Food for Progress                                                     USDA               109.49
                                                                416(b) Food Aid                                                       USDA                95.18
Notes: Numbers affected by rounding. FY 2011 funds reflect      Food for Education                                                    USDA                50.49
amounts made available under continuing resolutions.
                                                                Emerson Trust                                                         USDA                22.40
Sources: DoD, responses to SIGAR data call 4/15/2011,         Total - Humanitarian                                                                    2,111.86
4/14/2011, 10/14/2009, and 10/1/2009; P.L. 111-212,
10/29/2010; P.L. 111-118, 12/19/2009; FY 2010 Defense         INTERNATIONAL AFFAIRS OPERATIONS
Explanatory Statement; DoS, responses to SIGAR data            Oversight                                                                                  86.00
call, 4/14/2011, 4/12/2011, and 4/11/2011; Treasury,
response to SIGAR data call, 4/08/2011; OMB, responses         Other                                                                                   4,079.80
to SIGAR data call, 3/1/2011 and 4/19/2010; USAID,
responses to SIGAR data call, 4/14/2011, 10/15/2010,          Total - International Affairs Operations                                                4,165.80
1/15/2010, and 10/9/2009; DoJ, response to SIGAR data
call, 7/7/2009; USDA, response to SIGAR data call, 4/2009.
                                                              TOTAL FUNDING                                                                          61,783.32




                                                               142                      SPECIAL INSPECTOR GENERAL             I   AFGHANISTAN RECONSTRUCTION
                                                              APPENDICES




                                                                                                                           FY 2011
                                                                                                                           BUDGET
FY 2002    FY 2003    FY 2004     FY 2005     FY 2006      FY 2007 FY 2008           FY 2009      FY 2010      FY 2011     REQUEST

    0.00       0.00       0.00       995.00    1,908.13     7,406.40    2,750.00       5,606.94     9,166.77    5,460.95    11,619.30
    0.00       0.00     150.00       290.00        0.00         0.00        0.00           0.00         0.00        0.00         0.00
   57.26     191.00     414.08       396.80        0.00         0.00        0.00           0.00         0.00        0.00         0.00
    0.20       0.30       0.60         0.80        0.80         1.10        1.60           1.40         1.50        0.00         1.50
    0.00       0.00       0.00         0.00        0.00         0.00        9.90           0.00         0.00        0.00         0.00
  57.46     191.30     564.68     1,682.60    1,908.93     7,407.50    2,761.50       5,608.34     9,168.27    5,460.95    11,620.80

    0.00       0.00       40.00      136.00     215.00        209.00      488.33         550.67     1,000.00       0.00      1,100.00
    0.00       0.00        0.00        0.00       0.00          0.00        0.00           0.00         0.00       0.00        400.00
  117.51     239.29      893.87    1,280.57     473.39      1,210.71    1,399.51       2,182.30     3,346.00       0.00      3,316.30
   18.30      42.54      153.14      169.58     184.99        166.81      149.43           0.40         0.00       0.00          0.00
    0.00     165.00      135.00      250.00       0.00          0.00        0.00           0.00         0.00       0.00          0.00
    7.52      49.68       33.40       38.00      41.45        100.77       63.07          58.23        94.30       0.00         71.10
    7.48       1.33        0.00        0.00       0.00          0.00       13.02           4.22         4.22       3.64          0.00
    0.00       0.00        5.00        0.00       0.00          0.00        0.00           0.00         0.00       0.00          0.00
    0.00       0.50        5.00        0.00       0.00          0.00       22.32           3.55         2.90       0.00          0.00
   44.00      34.70       66.90       38.20      18.20         36.60       26.60          48.60        57.80       0.00         69.30
    0.00       0.00        0.00        0.00       0.00          0.00        0.00           5.70         0.00       0.00          0.00
    0.00       1.00        0.06        0.95       0.19          0.13        0.75           0.44         0.00       0.00          0.00
 194.81     534.04    1,332.37    1,913.30     933.22      1,724.02    2,163.03       2,854.11     4,505.22        3.64     4,956.70

   60.00      0.00      220.00      709.28      232.65        251.74        307.57      484.00       589.00         7.98       450.00
    0.00      0.00       71.80      224.54      108.05        290.97        189.64      235.06       402.07        24.65       354.60
    0.58      2.87        3.72       16.77       23.66         20.38         40.59       18.80         0.00         0.00         0.00
  60.58       2.87     295.52      950.59      364.36        563.09        537.80      737.86       991.07        32.63       804.60

    0.00       5.00       0.00        0.00        0.00          0.00          0.00        0.00         0.00         0.00         0.00
  159.50      46.10      49.20       56.60       60.00         60.00        177.00       65.41        27.40         0.00        15.50
  197.09      85.77      11.16        4.22        0.04          0.03         17.01       27.28        29.93        32.77         0.00
    8.07      11.69      11.22        1.60        0.00          0.00          0.00        0.86         0.99         0.84         0.00
  135.47      61.50      63.30       47.10       36.00         53.80         44.25       76.79        72.78         2.00        65.00
   23.93       9.90      20.00       15.50        0.00          0.00          0.00        0.00         0.00         0.00         0.00
   25.00       0.00       0.00        0.00        0.00          0.00          0.00        0.20         0.00         0.00         0.00
    0.00       4.96       9.08       30.10       23.24          9.47         20.55       12.09         0.00         0.00         0.00
   46.46      14.14      34.58        0.00        0.00          0.00          0.00        0.00         0.00         0.00         0.00
    0.00       9.27       6.12       10.02       25.08          0.00          0.00        0.00         0.00         0.00         0.00
    0.00       0.00       0.00        0.00        0.00          0.00         22.40        0.00         0.00         0.00         0.00
 595.52     248.33     204.66      165.14      144.36        123.30        281.21      182.63       131.10        35.61        80.50

    0.00       0.00       0.00        0.00        0.00          2.50         14.30        25.20        34.40        9.60        44.70
  155.60      35.30     207.60      136.10      131.90        207.80        434.40     1,060.70     1,693.80       16.60     1,264.60
 155.60      35.30     207.60      136.10      131.90        210.30        448.70     1,085.90     1,728.20       26.20     1,309.30
1,063.97   1,011.84   2,604.83    4,847.73    3,482.77    10,028.21    6,192.24      10,468.84    16,523.86    5,559.03    18,771.90




             REPORT TO THE UNITED STATES CONGRESS     I   APRIL 30, 2011                 143
APPENDICES




APPENDIX C
SIGAR AUDITS
Completed Audits
During this reporting period, SIGAR completed three audits, as listed in Table C.1.

TABLE C.1

COMPLETED SIGAR AUDITS AS OF APRIL 30, 2011
Report Identifier   Report Title                                                                 Date Issued
SIGAR-Audit-11-10   Despite Improvements in MoI’s Personnel Systems, Additional Actions Are           4/2011
                    Needed To Completely Verify ANP Payroll Costs and Workforce Strength
SIGAR-Audit-11-9    ANA Facilities at Mazar-e Sharif and Herat Generally Met Construction             4/2011
                    Requirements, but Contractor Oversight Should Be Strengthened
SIGAR-Audit-11-8    Afghanistan’s National Solidarity Program Has Reached Thousands of Afghan         4/2011
                    Communities, but Faces Challenges that Could Limit Outcomes




New Audits
During this reporting period, SIGAR initiated four new audits, as listed in Table C.2.

TABLE C.2

NEW SIGAR AUDITS AS OF APRIL 30, 2011
Audit Identifier    Project Title                                                               Date Initiated
SIGAR-045A          Private Security Services Contract Provided by Hart Security Limited              4/2011
                    to Louis Berger Group
SIGAR-044A          USAID’s Financial Audit Coverage of Costs Incurred under Contracts,           3/30/2011
                    Cooperative Agreements, and Grants for Afghanistan Reconstruction
SIGAR-043A          Implementation of the Afghan First Initiative for Contracting                 2/24/2011
SIGAR-042A          NDAA-Mandated Oversight of Contractors and PSCs in Afghanistan                 2/4/2011




  144                   SPECIAL INSPECTOR GENERAL               I   AFGHANISTAN RECONSTRUCTION
                                                                                     APPENDICES




Ongoing Audits
SIGAR has 12 audits in progress, as listed in Table C.3.

TABLE C.3


ONGOING SIGAR AUDITS AS OF APRIL 30, 2011
Audit Identifier     Project Title                                                                       Date Initiated
SIGAR-041A           USAID Contracts for Local Governance and Community Development Projects               1/13/2011
SIGAR-040A           Construction at the Afghan National Security University                                1/3/2011
SIGAR-039A           Infrastructure Projects at the Kabul Military Training Center                       11/30/2010
SIGAR-037A           Use and Accountability of U.S. Funds Contributed to the Afghanistan                 11/13/2010
                     Reconstruction Trust Fund (ARTF)
SIGAR-031A           Accountability of ANSF Vehicles                                                     11/10/2010
SIGAR-036A           U.S. and International Donor Assistance for Development of the                      10/18/2010
                     Afghan Banking Sector and Afghan Currency Control Systems
SIGAR-035A           U.S. Assistance To Develop Afghanistan’s Agriculture Sector                         10/15/2010
SIGAR-034A           Costs and Sustainability of the U.S. Civilian Uplift in Afghanistan                 10/14/2010
SIGAR-033A           Implementation of the Defense Base Act Insurance Program                              8/26/2010
                     for Contractors in Afghanistan
SIGAR-032A           U.S. Efforts To Strengthen the Capabilities of the Afghan Major Crimes Task Force     8/24/2010
SIGAR-029A           Review of USAID’s Cooperative Agreement with CARE International for the               7/15/2010
                     Community Development Program for Kabul
SIGAR-017A           Review of Reconstruction Security Support Services from                               6/14/2010
                     Global Strategies Group, Inc.




Forensic Audits
SIGAR has three forensic audits in progress, as listed in Table C.4.

TABLE C.4

SIGAR FORENSIC AUDITS AS OF APRIL 30, 2011
Audit Identifier     Project Title                                                                       Date Initiated
SIGAR-027A           Forensic Review of DoS Transaction Data Related to Afghanistan Reconstruction         6/24/2010
SIGAR-026A           Forensic Review of USAID Transaction Data Related to Afghanistan Reconstruction       6/24/2010
SIGAR-022A           Forensic Review of DoD Transaction Data Related to Afghanistan Reconstruction         2/25/2010




                   REPORT TO THE UNITED STATES CONGRESS                   I   APRIL 30, 2011                   145
                                                       APPENDICES




                                                       APPENDIX D
FIGURE D.1
                                                       SIGAR INVESTIGATIONS AND HOTLINE
SIGAR INVESTIGATIONS: NEW INVESTIGATIONS,              SIGAR Investigations
JANUARY 1–MARCH 31, 2011
                                                       This quarter, SIGAR opened 16 new investigations and closed 45, bringing the
                                                       total of open investigations to 76. Most of the new investigations involved fraud
                          Total: 16                    and corruption, as shown in Figure D.1. Of the 45 closed investigations, 37
                                                       involved fraud and corruption, as shown in Figure D.2.

                     Procurement/                      FIGURE D.2
                     Contract Fraud
                     11                                SIGAR INVESTIGATIONS: CLOSED INVESTIGATIONS, JANUARY 1–MARCH 31, 2011
                                Public                                                                                                 Total: 45
                                Corruption/
                                Bribery
                                4                        Procurement/Contract Fraud                                                                                                     25
            Theft                                            Public Corruption/Bribery                                                     12
            1                                                                       Theft             3
Source: SIGAR Investigations Directorate, 4/15/2011.                                Civil       1
                                                       Miscellaneous Criminal Activity                3
                                                                            Assessment          1

                                                                                            0                 5               10                   15              20                  25

                                                       Source: SIGAR Investigations Directorate, 4/18/2011.




                                                       SIGAR Hotline
                                                       The SIGAR Hotline received 106 Hotline complaints this quarter, bringing the
FIGURE D.3                                             total since the Hotline began operations to 570. Most of the complaints this quar-
                                                       ter were received by email, as shown in Figure D.3. Of these complaints, many
SOURCE OF SIGAR HOTLINE COMPLAINTS,
                                                       were closed, referred to other agencies, or assigned, as shown in Figure D.4.
JANUARY 1–MARCH 31, 2011
                                                       FIGURE D.4
                          Total: 106
                                                       STATUS OF SIGAR HOTLINE COMPLAINTS: JANUARY 1–MARCH 31, 2011
                                                                                                                            Total: 106

                            E-mail
                            99                         Referred (Out)                           15
                                                        Referred (In)                           15
                                                               Closed                                                                                                             71
                                                       Coordinationa         2
                                                          Evaluationb        2
                                                       Under Review        1
   Written (not e-mail)                 Phone                                                        20                          40                           60                            80
                     1                  6
                                                       a. Case has been reviewed, and SIGAR is obtaining additional information.
                                                       b. Conducting preliminary investigative work to gather appropriate information and guidance for administrative tracking.
Source: SIGAR Investigations Directorate, 4/11/2011.   Source: SIGAR Investigations Directorate, 4/15/2011.




                                                          146                          SPECIAL INSPECTOR GENERAL                   I    AFGHANISTAN RECONSTRUCTION
                                                                       APPENDICES




APPENDIX E
ABBREVIATIONS AND ACRONYMS

ACRONYM OR
ABBREVIATION            DEFINITION
ABP                     Afghan Border Police
ACSS                    Afghanistan Civil Service Support
ACU                     Anti-Corruption Unit
ADB                     Asian Development Bank
ADP/SW                  Alternative Development Program South-West
AFCEE                   Air Force Center for Engineering and the Environment (U.S.)
AGO                     Attorney General’s Office
AIF                     Afghanistan Infrastructure Fund
ALP                     Afghan Local Police
AMDEP                   Afghanistan Media Development and Empowerment Project
AMEC                    AMEC Earth and Environment, Inc
ANA                     Afghan National Army
ANCOP                   Afghan National Civil Order Police
ANP                     Afghan National Police
ANSF                    Afghan National Security Forces
APPF                    Afghan Public Protection Force
APRP                    Afghan Peace and Reintegration Plan
ARP                     Afghanistan Reintegration Program
ARTF                    Afghanistan Reconstruction Trust Fund
ASFF                    Afghanistan Security Forces Fund
ASIU                    Afghan Shafafiyat Investigative Unit
AUAF                    American University of Afghanistan
AUP                     Afghan Uniformed Police
AVIPA                   Afghanistan Vouchers for Increased Productive Agriculture
AWATT                   Afghanistan Water, Agriculture, and Technology Transfer
AWOL                    absent without leave
CAO                     Control and Audit Office (Afghan)
CDC                     community development council
CENTCOM                 Central Command (U.S.)
CERP                    Commander’s Emergency Response Program
CH2M                    CH2M Hill Constructors, Inc.
CJIATF-435              Combined Joint Interagency Task Force-435
CJITF                   Combined Joint Interagency Task Force
C-JTSCC                 CENTCOM Joint Theater Support Contract Command
CNPA                    Counter-Narcotics Police - Afghanistan
COIN                    counter-insurgency
CPC                     Criminal Procedure Code
CSC                     Civil Service Commission (Afghan)
CSSP                    Correctional System Support Program




             REPORT TO THE UNITED STATES CONGRESS              I   APRIL 30, 2011     147
APPENDICES




ACRONYM OR
ABBREVIATION       DEFINITION
CSTC-A             Combined Security Transition Command - Afghanistan
CUAT               Commander’s Unit Assessment Tool
DAB                Da Afghanistan Bank
DBA                Defense Base Act
DEA                Drug Enforcement Administration (U.S.)
DFAS               Defense Finance and Accounting Service (U.S.)
DoD                Department of Defense (U.S.)
DoD CN             Department of Defense Drug Interdiction and Counter-Drug Activities fund (U.S.)
DoD OIG            Department of Defense Office of Inspector General (U.S.)
DoJ                Department of Justice (U.S.)
DoS                Department of State (U.S.)
DoS OIG            DoS Office of Inspector General (U.S.)
DoS OIG/INS        DoS OIG Inspections (U.S)
DoS OIG/INV        DoS OIG Investigations (U.S.)
DST                District Support Team
ECC                Electoral Complaints Commission
ECF                Extended Credit Facility
EGGI               Economic Growth and Governance Initiative
ESF                Economic Support Fund
FinTRACA           Financial Transactions and Reports Analysis Center of Afghanistan
FMS                Foreign Military Sales
GAO                Government Accountability Office (U.S.)
GIRoA              Government of the Islamic Republic of Afghanistan
Global             Global Strategies Group
HMMWV              high-mobility, multi-purpose wheeled vehicle
HOOAC              High Office of Oversight for Anti-Corruption (Afghan)
IARCSC             Independent Administrative Reform and Civil Service Commission
IBP                International Budget Partnership
IDEA-NEW           Incentives Driving Economic Alternatives for North, East, and West
IEC                Independent Election Commission (Afghan)
IJC                ISAF Joint Command
IMF                International Monetary Fund
INCLE              International Narcotics Control and Law Enforcement (U.S)
INL                Bureau of International Narcotics and Law Enforcement Affairs (U.S.)
IOM                International Organization for Migration
ISAF               International Security Assistance Force
JANIB              Joint Afghan NATO Inteqal Board
JSSP               Justice Sector Support Program
LOTFA              Law and Order Trust Fund for Afghanistan
  2
m                  square meters
MAIL               Ministry of Agriculture, Irrigation, and Livestock (Afghan)
MCN                Ministry of Counter-Narcotics (Afghan)
MCTF               Major Crimes Task Force (Afghan)
MoD                Ministry of Defense (Afghan)




    148        SPECIAL INSPECTOR GENERAL            I   AFGHANISTAN RECONSTRUCTION
                                                                       APPENDICES




ACRONYM OR
ABBREVIATION           DEFINITION
MoDA                   Ministry of Defense Advisor (program)
MoE                    Ministry of Education (Afghan)
MoF                    Ministry of Finance (Afghan)
MoFA                   Ministry of Foreign Affairs (Afghan)
MoI                    Ministry of Interior (Afghan)
MoJ                    Ministry of Justice (Afghan)
MoTCA                  Ministry of Transportation and Civil Aviation (Afghan)
MoWA                   Ministry of Women’s Affairs (Afghan)
MRRD                   Ministry of Rural Rehabilitation and Development (Afghan)
NATO                   North Atlantic Treaty Organization
NDAA                   National Defense Appropriations Act
NGO                    non-governmental organization
NSP                    National Solidarity Program
NTM-A                  NATO Training Mission - Afghanistan
OCO                    Overseas Contingency Operations
OIG                    Office of Inspector General
OTA                    Office of Technical Assistance (U.S.)
P.L.                   Public Law
PM/WRA                 Bureau of Political-Military Affairs - Office of Weapons Removal and Abatement (U.S.)
PPR                    Priority Program Restructuring
PRM                    Bureau of Population, Refugees, and Migration
PRT                    Provincial Reconstruction Team
PSC                    private security contractor
RC                     Regional Command (ISAF)
ROLFF-A                Rule of Law Field Force - Afghanistan
RPG                    rocket-powered grenade
SIGAR                  Special Inspector General for Afghanistan Reconstruction
SY                     solar year
TFBSO                  Task Force on Business and Stability Operations in Afghanistan
Treasury               Department of the Treasury (U.S.)
UN                     United Nations
UNAMA                  UN Assistance Mission in Afghanistan
UNDP                   UN Development Programme
UNFPA                  UN Population Fund
UNHCR                  UN High Commissioner for Refugees
UNODC                  UN Office on Drugs and Crime
USAAA                  U.S. Army Audit Agency
USACE                  U.S. Army Corps of Engineers
USAID                  U.S. Agency for International Development
USAID OIG              USAID Office of Inspector General
USDA                   U.S. Department of Agriculture
USFOR-A                U.S. Forces - Afghanistan
VSO                    Village Stability Operations




            REPORT TO THE UNITED STATES CONGRESS               I   APRIL 30, 2011                 149
                                                         ENDNOTES




1.    FY 2011 National Defense Authorization Act (P.L. 111-383), Section 1217.
2.    Department of Defense and Full-Year Continuing Appropriations Act, 2011, p. 157.
3.    “Inteqal” means “transition” in Dari and Pashtu.
4.    General David Petraeus, Commander of the NATO/International Security Assistance Force and U.S. Forces - Afghanistan, Written Testimony
      before the Senate Armed Services Committee, 3/15/2011.
5.    General David Petraeus, Commander of the NATO/International Security Assistance Force and U.S. Forces - Afghanistan, Written Testimony
      before the Senate Armed Services Committee, 3/15/2011.
6.    Robert Gates, Secretary of Defense, Testimony before the Senate Armed Services Committee, 2/17/2011.
7.    General David Petraeus, Commander of NATO/ISAF and USFOR-A, responding to questions before the Senate Armed Services Committee,
      3/15/2011.
8.    P.L. 111-32, “Supplemental Appropriations Act 2009,” 6/24/2009.
9.    DoD, response to SIGAR vetting, 7/20/2009.
10.   See Appendix B of this report.
11.   DoD, response to SIGAR data call, 4/15/2011.
12.   DoD, response to SIGAR data call, 4/15/2011.
13.   DoD, response to SIGAR data call, 1/15/2011.
14.   DoD, response to SIGAR data call, 4/15/2011.
15.   DoD, response to SIGAR data call, 4/15/2011.
16.   DoD, response to SIGAR data call, 4/15/2011.
17.   DoD, Financial Management Regulation, “Commander’s Emergency Response Program: Vol. 12, Ch. 27,” 1/2009, p. 27-3.
18.   DoD, response to SIGAR vetting, 4/21/2010.
19.   See Appendix B of this report.
20.   DoD, response to SIGAR data call, 4/15/2011.
21.   DoD, response to SIGAR data call, 4/15/2011.
22.   DoD, “Drug Interdiction and Counter-Drug Activities, Defense FY 2009 Supplemental Request Drug Interdiction and Counterdrug Activities,”
      accessed online 4/13/2010.
23.   DoD, response to SIGAR data call, 4/14/2011.
24.   DoD, response to SIGAR vetting, 7/16/2009.
25.   P.L. 112-10, 4/15/2011.
26.   See Appendix B of this report.
27.   USAID, response to SIGAR data call, 4/14/2011.
28.   USAID, response to SIGAR data call, 4/14/2011.
29.   DoS, response to SIGAR data call, 10/13/2009.
30.   P.L. 112-10, 4/15/2011.
31.   See Appendix B of this report.
32.   DoS, response to SIGAR data call, 4/12/2011.
33.   DoS, response to SIGAR data call, 4/12/2011.
34.   SIGAR, “Quarterly Report to the U.S. Congress,” 7/30/2010, p. 51.
35.   World Bank, “ARTF: Administrator’s Report on Financial Status as of March 20, 2011,” p. 4; World Bank, “Quarterly Country Update:
      Afghanistan,” 4/2011, p. 16.
36.   World Bank, “Quarterly Country Update: Afghanistan,” 4/2011, pp. 2, 16.
37.   World Bank, “Quarterly Country Update: Afghanistan,” 4/2011, pp. 16-17,
38.   EC, “Afghanistan: State of Play, January 2011,” 3/31/2011, p. 7.
39.   EC, “Afghanistan: State of Play, January 2011,” 3/31/2011, p. 7.
40.   EC, “Afghanistan: State of Play, January 2011,” 3/31/2011, p. 7.
41.   See Appendix B.
42.   U.S. Army, Combined Arms Center, “Handbook 09-27: Afghanistan Security Forces Fund, Chapter 14,” 4/2009, accessed online 1/7/2011.
43.   DoD, response to SIGAR data call, 4/15/2011.
44.   See Appendix B.
45.   Senate Armed Services Committee, “Statement of Secretary of Defense Robert M. Gates,” 2/17/2011, p. 8; DoD, U.S. Department of Defense
      FY 2012 Budget Request, 2/4/2011.
46.   DoD OIG, “Assessment of U.S. Government Efforts To Train, Equip, and Mentor the Expanded Afghan National Police,” SPO-2011-003,
      3/3/2011, p. 53.
47.   OSD, response to SIGAR vetting, 4/18/2011.




                                                  150                   SPECIAL INSPECTOR GENERAL      I   AFGHANISTAN RECONSTRUCTION
                                                          ENDNOTES




48.   NTM-A, “Prepared Remarks to the NATO Parliamentary Assembly, LTG William B. Caldwell, IV, Commanding General, NTM-A,” 2/21/2011,
      accessed online 4/11/2011.
49.   OSD, response to SIGAR data call, 4/3/2011.
50.   OSD, response to SIGAR data call, 4/3/2011.
51.   OSD, response to SIGAR vetting, 4/18/2011.
52.   NATO, “Lisbon Summit Declaration,” 11/20/2010.
53.   OSD, response to SIGAR data call, 4/3/2011.
54.   OSD, response to SIGAR data call, 4/3/2011; ISAF-IJC, response to SIGAR vetting, 4/16/2011.
55.   CENTCOM, response to SIGAR vetting, 4/16/2011; ISAF-IJC, ANP PERSTAT, 3/20/2011.
56.   UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/9/2011, p. 2.
57.   UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/9/2011, p. 2.
58.   UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/9/2011, p. 2.
59.   UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/9/2011, p. 2.
60.   DoD, “Pentagon, Karzai Work To Disband Security Companies,” 8/17/2010.
61.   UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/9/2011, p. 3.
62.   GIRoA, “The Bridging Strategy for Implementation of Presidential Decree 62,” 3/15/2011.
63.   CENTCOM, “Contractor Support of U.S. Operations in the USCENTCOM Area of Responsibility, Iraq, and Afghanistan,” 1/19/2011, accessed
      online 4/15/2011; CENTCOM, “Contractor Support of U.S. Operations in the USCENTCOM Area of Responsibility, Iraq, and Afghanistan,”
      2/2010, accessed online 4/15/2011.
64.   UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/9/2011, p. 1.
65.   UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/9/2011, p. 2.
66.   U.S. Embassy Kabul, “U.S. Embassy Condemns Attack in Jalalabad,” 2/20/2011.
67.   UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/9/2011, p. 2.
68.   UN Secretary-General, “UN Strongly Condemns Deadly Attack Against Staff in Afghanistan,” 4/1/2011, accessed online 4/9/2011.
69.   DoS, “U.S. Embassy Condemns Murder of Kandahar Police Chief,” 4/15/2011; accessed online 4/18/2011.
70.   DoD, response to SIGAR data call, 4/15/2011.
71.   GAO, “Afghanistan Security: Afghan Army Growing, but Additional Trainers Needed; Long-term Costs Not Determined,” GAO-11-66, 1/2011,
      pp. 6–7.
72.   GAO, “Afghanistan Security: Afghan Army Growing, but Additional Trainers Needed; Long-term Costs Not Determined,” GAO-11-66, 1/2011,
      pp. 6–7.
73.   CENTCOM, response to SIGAR data call, 4/1/2011.
74.   SIGAR, Audit-11-6, “Inadequate Planning for ANSF Facilities Increases Risk for $12.3 Billion Program,” 1/2011, p. 2; UN Secretary-General,
      “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/9/2011, p. 2; CENTCOM, response to SIGAR vetting,
      4/16/2011.
75.   GAO, “Afghanistan Security: Afghan Army Growing, but Additional Trainers Needed; Long-term Costs Not Determined,” GAO-11-66, 1/2011, p. 43.
76.   ISAF-IJC, ANA PERSTAT, 3/20/2011.
77.   ISAF-IJC, ANA PERSTAT, 3/20/2011; ISAF-IJC, ANA PERSTAT, 12/30/2010.
78.   ISAF, response to SIGAR data call, 4/1/2011.
79.   ISAF-IJC, ANA PERSTAT, 3/20/2011; ISAF-IJC, ANA PERSTAT, 12/30/2010. 
80.   ISAF, response to SIGAR data call, 4/1/2011.
81.   ISAF, response to SIGAR data call, 4/1/2011.
82.   DoD, response to SIGAR data call, 4/15/2011.
83.   CENTCOM, response to SIGAR data call, 4/1/2011.
84.   ISAF-IJC, response to SIGAR data call, 4/1/2011.
85.   CENTCOM, response to SIGAR data call, 4/1/2011.
86.   CENTCOM, response to SIGAR data call, 4/1/2011.
87.   CENTCOM, response to SIGAR data call, 4/1/2011.
88.   CENTCOM, response to SIGAR data call, 4/1/2011.
89.   DoD, response to SIGAR data call, 4/15/2011.
90.   CENTCOM, response to SIGAR data call, 4/1/2011.
91.   CENTCOM, response to SIGAR data call, 4/1/2011.
92.   DoD, response to SIGAR data call, 4/15/2011.
93.   CENTCOM, response to SIGAR data call, 4/1/2011.
94.   CENTCOM, response to SIGAR data call, 4/1/2011.
95.   GAO, “Afghanistan Security: Afghan Army Growing, but Additional Trainers Needed; Long-term Costs Not Determined,” GAO-11-66, 1/2011, p. 7.




            REPORT TO THE UNITED STATES CONGRESS          I   APRIL 30, 2011              151
                                                          ENDNOTES




96.    NTM-A, “ANSF Receives Training, Equipment from NTM-A,” 1/7/2011, accessed online 1/11/2011.
97.    GAO, “Afghanistan Security: Afghan Army Growing, but Additional Trainers Needed; Long-term Costs Not Determined,” GAO-11-66, 1/2011, p. 9.
98.    “Testimony of Richard C. Nickerson, Program Manager, MPRI, before the Commission on Wartime Contracting in Iraq and Afghanistan,
       Hearing on Afghan National Security Forces Training Contracts,” 12/18/2009, accessed online 4/3/2011.
99.    CENTCOM, response to SIGAR data call, 4/1/2011.
100.   DoD OIG, “Assessment of U.S. Government Efforts To Train, Equip, and Mentor the Expanded Afghan National Police,” SPO-2011-003,
       3/3/2011, p. 27.
101.   DoD OIG, “Assessment of U.S. Government Efforts To Train, Equip, and Mentor the Expanded Afghan National Police,” SPO-2011-003,
       3/3/2011, p. 27; DoD, “Ministry of Defense Advisors Program,” accessed online 4/3/2011.
102.   DoD OIG, “Assessment of U.S. Government Efforts To Train, Equip, and Mentor the Expanded Afghan National Police,” SPO-2011-003,
       3/3/2011, p. 27; CENTCOM, response to SIGAR vetting, 4/16/2011.
103.   DoD OIG, “Assessment of U.S. Government Efforts To Train, Equip, and Mentor the Expanded Afghan National Police,” SPO-2011-003,
       3/3/2011, p. 27.
104.   DoD OIG, “Assessment of U.S. Government Efforts To Train, Equip, and Mentor the Expanded Afghan National Police,” SPO-2011-003,
       3/3/2011, pp. 27–28.
105.   CENTCOM, response to SIGAR vetting, 4/16/2011.
106.   CENTCOM, response to SIGAR data call, 4/1/2011.
107.   DoD, response to SIGAR data call, 4/15/2011.
108.   DoD, U.S. Department of Defense FY 2012 Budget Request, 2/4/2011.
109.   SIGAR, Audit 11-10, “ANP Payroll Costs and Workforce Strength Cannot Be Verified Despite Efforts To Develop MoI Personnel and Payroll
       Accountability,” 4/2011.
110.   ISAF-IJC, ANP PERSTAT, 3/2011.
111.   SIGAR, Audit-11-6, “Inadequate Planning for ANSF Facilities Increases Risk for $12.3 Billion Program,” 1/2011, p. 2; UN Secretary-General,
       “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/9/2011, p. 2.
112.   OSD, response to SIGAR data call, 4/3/2011.
113.   OSD, response to SIGAR data call, 4/3/2011.
114.   UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/9/2011, p. 3.
115.   DoD, response to SIGAR data call, 4/15/2011.
116.   CENTCOM, response to SIGAR data call, 4/1/2011; CENTCOM, response to SIGAR vetting, 4/16/2011.
117.   CENTCOM, response to SIGAR data call, 4/1/2011.
118.   CENTCOM, response to SIGAR data call, 4/1/2011.
119.   CENTCOM, response to SIGAR data call, 4/1/2011.
120.   CENTCOM, response to SIGAR data call, 4/1/2011.
121.   CENTCOM, response to SIGAR data call, 4/1/2011; CENTCOM, response to SIGAR vetting, 4/16/2011.
122.   CENTCOM, response to SIGAR data call, 4/1/2011.
123.   CENTCOM, response to SIGAR data call, 4/1/2011.
124.   DoD, response to SIGAR data call, 4/15/2011.
125.   NTM-A/CSTC-A, response to SIGAR data call, 4/1/2011.
126.   DoD, response to SIGAR data call, 4/15/2011.
127.   CENTCOM, response to SIGAR data call, 4/1/2011.
128.   DoD OIG, “Assessment of U.S. Government Efforts To Train, Equip, and Mentor the Expanded Afghan National Police,” SPO-2011-003,
       3/3/2011, p. 30; ISAF-IJC, ANP PERSTAT, 3/2011.
129.   CENTCOM, response to SIGAR data call, 4/1/2011.
130.   DoD OIG, “Assessment of U.S. Government Efforts To Train, Equip, and Mentor the Expanded Afghan National Police,” SPO-2011-003,
       3/3/2011, p. 30.
131.   CENTCOM, response to SIGAR data call, 4/1/2011.
132.   CENTCOM, response to SIGAR data call, 4/1/2011.
133.   CENTCOM, response to SIGAR data call, 4/1/2011.
134.   USFOR-A, responses to SIGAR data call, 4/1/2011 and 1/4/2011.
135.   DoS, PM/WRA, response to SIGAR data call, 3/28/2011.
136.   DoS, PM/WRA, response to SIGAR data call, 3/28/2011.
137.   DoS, PM/WRA, response to SIGAR data call, 3/28/2011.
138.   See Appendix B.
139.   OSD, response to SIGAR data call, 4/1/2011.
140.   UNODC, “Press Briefing on the Opium Winter Rapid Assessment Survey (ORAS),” 1/1/2011, accessed online 4/13/2011.




                                                   152                   SPECIAL INSPECTOR GENERAL      I   AFGHANISTAN RECONSTRUCTION
                                                            ENDNOTES




141.   INL, response to SIGAR data call, 4/6/2011.
142.   INL, response to SIGAR data call, 4/6/2011.
143.   USAID-OAG, response to SIGAR data call, 3/31/2011; USAID-OAG, response to SIGAR vetting.
144.   USAID-OAG, response to SIGAR data call, 3/31/2011.
145.   INL, response to SIGAR data call, 4/6/2011.
146.   INL, response to SIGAR data call, 4/6/2011.
147.   OSD, response to SIGAR data call, 4/1/2011.
148.   OSD, response to SIGAR data call, 4/1/2011.
149.   OSD, response to SIGAR data call, 4/1/2011.
150.   OSD, response to SIGAR data call, 4/1/2011.
151.   INL, response to SIGAR data call, 4/6/2011.
152.   UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/9/2011, p. 4; DoS, response to
       SIGAR data call, 4/8/2011.
153.   DoS, response to SIGAR data call, 4/8/2011.
154.   UN, “Today’s Afghan Headlines,” 3/2/2011; UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace
       and Security,” 3/9/2011, p. 4.
155.   UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/9/2011, p. 4.
156.   DoS, response to SIGAR data call, 4/8/2011.
157.   DoS, response to SIGAR data call, 4/8/2011.
158.   DoS, response to SIGAR data call, 4/8/2011.
159.   UN, “UN-supported Electoral Complaints Commission (ECC) completes mandate,” 1/31/2011.
160.   UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/9/2011, p. 5.
161.   DoS, response to SIGAR data call, 4/8/2011.
162.   UN, “Security Council extends UNAMA mandate until 23 March 2012,” 3/22/2011.
163.   MoFA, “Statement by H.E. Dr. Zahir Tanin Ambassador and Permanent Representative of the Islamic Republic of Afghanistan,” 3/19/2011.
164.   MoFA, “Statement by H.E. Dr. Zahir Tanin Ambassador and Permanent Representative of the Islamic Republic of Afghanistan,” 3/19/2011.
165.   UN Security Council, “Security Council Extends Mandate of Afghanistan Mission Until 23 March 2012, Unanimously Adopting Resolution 1974
       (2011),” 3/22/2011.
166.   UN Security Council, “Security Council Extends Mandate of Afghanistan Mission Until 23 March 2012, Unanimously Adopting Resolution 1974
       (2011),” 3/22/2011.
167.   UN, “UN Strongly Condemns Deadly Attack Against Staff in Afghanistan,” 4/1/2011, accessed online 4/9/2011; UNAMA, “Near verbatim tran-
       script of press conference with Special Representative Staffan de Mistura,” 4/2/2011.
168.   INL, response to SIGAR data call, 4/6/2011; DoS, response to SIGAR data call, 4/14/2011.
169.   INL, response to SIGAR data call, 4/6/2011; DoS, response to SIGAR data call, 4/14/2011.
170.   INL, response to SIGAR data call, 4/6/2011; DoS, response to SIGAR data call, 4/14/2011.
171.   INL, response to SIGAR data call, 4/6/2011; DoS, response to SIGAR data call, 4/14/2011.
172.   USAID, response to SIGAR data call, 4/1/2011.
173.   USAID, response to SIGAR data call, 4/1/2011.
174.   INL, response to SIGAR data call, 4/6/2011.
175.   INL, response to SIGAR data call, 4/6/2011.
176.   INL, responses to SIGAR data calls, 1/6/2011, 4/6/2011.
177.   INL, response to SIGAR data call, 4/6/2011.
178.   INL, response to SIGAR data call, 4/6/2011.
179.   INL, response to SIGAR data call, 4/6/2011.
180.   OSD, response to SIGAR data call, 4/1/2011.
181.   DoS, response to SIGAR data call, 4/15/2011.
182.   DoD, response to SIGAR vetting, 4/18/2011.
183.   UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/9/2011, p. 5.
184.   DoD, response to SIGAR vetting, 4/18/2011.
185.   UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/9/2011, p. 6.
186.   USAID, response to SIGAR data call, 4/1/2011.
187.   America.gov, “Reintegration of Former Taliban a Key to Success in Afghanistan,” 7/13/2010; USAID, response to SIGAR data call, 4/1/2011.
188.   USAID, response to SIGAR data call, 4/1/2011.
189.   OSD, response to SIGAR data call, 4/1/2011.
190.   OSD, response to SIGAR data call, 4/1/2011.




             REPORT TO THE UNITED STATES CONGRESS           I   APRIL 30, 2011               153
                                                              ENDNOTES




191.   OSD, response to SIGAR data call, 4/1/2011.
192.   UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/9/2011, p. 2.
193.   DoS, response to SIGAR data call, 4/15/2011.
194.   OSD, response to SIGAR data call, 4/1/2011.
195.   UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/9/2011, p. 2.
196.   OSD, response to SIGAR data call, 4/1/2011.
197.   UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/9/2011, p. 2.
198.   OSD, response to SIGAR data call, 4/1/2011.
199.   DoS, response to SIGAR data call, 4/8/2011.
200.   DoS, response to SIGAR data call, 4/8/2011.
201.   DoD, “DoD News Briefing with Michael O’Neill via Teleconference from Afghanistan,” 1/25/2011.
202.   DoD, “DoD News Briefing with Maj. Gen. Mills via Teleconference from Afghanistan,” 3/3/2011; DoS, response to SIGAR data call, 4/8/2011.
203.   DoD, “DoD News Briefing with Maj. Gen. Mills via Teleconference from Afghanistan,” 3/3/2011.
204.   DoS, response to SIGAR data call, 4/8/2011.
205.   DoS, response to SIGAR data call, 4/8/2011; DoD, “DoD News Briefing with Maj. Gen. Mills via Teleconference from Afghanistan,” 3/3/2011.
206.   DoS, response to SIGAR data call, 4/8/2011.
207.   DoS, response to SIGAR data call, 4/8/2011.
208.   DoS, response to SIGAR data call, 4/8/2011.
209.   DoS, response to SIGAR data call, 4/8/2011.
210.   OSD, response to SIGAR data call, 4/1/2011.
211.   OSD, response to SIGAR data call, 4/1/2011.
212.   DoS, “COM Civilian Staffing Afghanistan Matrix – February 10,2011.”
213.   USAID, response to SIGAR data call, 4/1/2011; USAID, response to SIGAR vetting, 4/21/2011.
214.   USAID, response to SIGAR data call, 4/1/2011.
215.   DoS, response to SIGAR data call, 4/13/2011.
216.   DoS, response to SIGAR data call, 4/13/2011.
217.   USAID, response to SIGAR data call, 4/1/2011; USAID, response to SIGAR vetting, 4/16/2011.
218.   USAID, response to SIGAR data call, 4/1/2011.
219.   Treasury, response to SIGAR data call, 4/5/2011.
220.   USAID, response to SIGAR data call, 4/1/2011.
221.   USAID, response to SIGAR data call, 4/1/2011.
222.   USAID, response to SIGAR data call, 4/1/2011.
223.   Wolesi Jirga, press release, “National Budget for the year 1390 is officially present to the W.J.,” 3/12/2011, accessed online 3/16/2011.
224.   DoS, response to SIGAR data call, 4/8/2011.
225.   U.S. Treasury, response to SIGAR data call, 7/10/2009.
226.   Treasury, response to SIGAR data call, 1/5/2010.
227.   Treasury, response to SIGAR data call, 9/24/2009.
228.   Treasury, response to SIGAR data call, 4/5/2011.
229.   Treasury, responses to SIGAR data calls, 9/24/2009, 4/5/2011.
230.   Treasury, response to SIGAR data call, 4/5/2011.
231.   Wolesi Jirga, press release, “National Budget for the year 1390 is officially present to the W.J.,” 3/16/2011; MoF, press release, “Deputy Minister
       for Finance presents 1390 National Budget to the media,” 2/22/2011.
232.   Treasury, response to SIGAR data call, 4/5/2011.
233.   Treasury, response to SIGAR data call, 4/5/2011.
234.   Treasury, response to SIGAR data call, 4/5/2011.
235.   IBP, “The Open Budget Survey, 2010,” 10/19/2010, pp. 25, 42.
236.   USAID, response to SIGAR data call, 4/1/2011.
237.   USAID, response to SIGAR data call, 4/1/2011.
238.   USAID, “Afghan Civil Service Support,” www.usaidacss.org, accessed 3/4/2011; USAID, response to SIGAR data call, 4/1/2011.
239.   USAID, response to SIGAR data call, 4/1/2011.
240.   USAID, response to SIGAR data call, 4/1/2011.
241.   USAID, response to SIGAR data call, 4/1/2011.
242.   DoS, response to SIGAR data call, 4/8/2011.
243.   USAID, response to SIGAR data call, 4/1/2011.
244.   USAID, response to SIGAR data call, 4/1/2011.




                                                      154                    SPECIAL INSPECTOR GENERAL         I   AFGHANISTAN RECONSTRUCTION
                                                          ENDNOTES




245.   USAID, response to SIGAR data call, 4/1/2011.
246.   USAID, response to SIGAR data call, 4/1/2011.
247.   USAID, response to SIGAR data call, 4/1/2011.
248.   USAID, response to SIGAR data call, 4/1/2011.
249.   INL, response to SIGAR data call, 4/6/2011.
250.   Treasury, response to SIGAR data call, 4/5/2011.
251.   INL, “JSSP: Welcome,” accessed online 7/7/2010.
252.   INL, response to SIGAR data call, 4/6/2011.
253.   INL, response to SIGAR data call, 4/6/2011.
254.   INL, response to SIGAR data call, 4/6/2011.
255.   DoS, “The United States Government Provides Grant to Help Increase and Strengthen Access to Justice in Afghanistan,” 2/23/2011.
256.   USAID, response to SIGAR data call, 3/27/2011.
257.   USAID, response to SIGAR data call, 3/27/2011.
258.   USAID, response to SIGAR data call, 3/27/2011.
259.   USAID, response to SIGAR data call, 3/27/2011.
260.   USAID, response to SIGAR data call, 3/27/2011.
261.   OSD, response to SIGAR data call, 4/1/2011.
262.   OSD, response to SIGAR data call, 4/1/2011.
263.   OSD, response to SIGAR data call, 4/1/2011.
264.   OSD, response to SIGAR data call, 4/1/2011.
265.   CENTCOM, “Afghan Ministry of Defense and CJIATF-435 Sign Reintegration Memorandum,” 4/5/2011.
266.   INL, response to SIGAR data call, 4/6/2011.
267.   OSD, response to SIGAR data call, 4/1/2011.
268.   INL, response to SIGAR data call, 4/6/2011.
269.   INL, response to SIGAR data call, 4/6/2011.
270.   INL, response to SIGAR data call, 4/6/2011.
271.   INL, response to SIGAR data call, 4/6/2011.
272.   USAID, response to SIGAR data call, 4/1/2011.
273.   USAID, response to SIGAR data call, 4/1/2011.
274.   UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/9/2011, p. 9.
275.   UNHCR, “Asylum Levels and Trends in Industrialized Countries 2010,” 3/28/2011.
276.   UNAMA, “Afghan asylum-seekers hit by tighter immigration rules,” 3/31/2011.
277.   UNAMA, “Afghan asylum-seekers hit by tighter immigration rules,” 3/31/2011.
278.   PRM-WA, response to SIGAR data call, 4/1/2011.
279.   USAID, response to SIGAR data call, 4/1/2011.
280.   INL, response to SIGAR vetting, 4/19/2011.
281.   INL, response to SIGAR vetting, 4/19/2011.
282.   UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/9/2011, p. 8.
283.   UNAMA, “Government, UN Sign Plan To Stop Under-age Recruits in Security Forces,” 1/30/2011.
284.   UNAMA, “Government, UN Sign Plan To Stop Under-age Recruits in Security Forces,” 1/30/2011; UN Secretary-General, “The Situation in
       Afghanistan and Its Implications for International Peace and Security,” 3/9/2011, p. 8.
285.   UNAMA, “Government, UN Sign Plan To Stop Under-age Recruits in Security Forces,” 1/30/2011.
286.   UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/9/2011, p. 9.
287.   ADB, “Asian Development Outlook 2011,” 4/6/2011, pp. 143–46.
288.   IMF, “Statement by an IMF Staff Visit to the Islamic Republic of Afghanistan,” 2/15/2011.
289.   ADB, “Asian Development Outlook 2011,” 4/6/2011, pp. 143–46.
290.   Radio Free Europe/Radio Liberty, “Afghans Feel Pinch of Iranian Border Fuel Blockade,” 12/30/2010.
291.   Radio Free Europe/Radio Liberty, “Afghans Feel Pinch of Iranian Border Fuel Blockade,” 12/30/2010.
292.   NATO/CIMIC, “The Iranian-Imposed Slowdown of Fuel Imports into Afghanistan,” 2/2011, pp. 1–2.
293.   NATO/CIMIC, “The Iranian-Imposed Slowdown of Fuel Imports into Afghanistan,” 2/2011, p. 2.
294.   NATO/CIMIC, “The Iranian-Imposed Slowdown of Fuel Imports into Afghanistan,” 2/2011, p. 3; DoS, response to SIGAR data call, 4/8/2011.
295.   IMF, “Islamic Republic of Afghanistan-Program Note,” 10/1/2010.
296.   UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/9/2011, p. 11.
297.   IMF, “Statement by an IMF Staff Visit to the Islamic Republic of Afghanistan,” 2/15/2011.
298.   IMF, “Statement by an IMF Staff Visit to the Islamic Republic of Afghanistan, 2/15/2011, pp. 1–2.




             REPORT TO THE UNITED STATES CONGRESS         I   APRIL 30, 2011             155
                                                          ENDNOTES




299.   Treasury, response to SIGAR data call, 4/5/2011.
300.   IMF, “Transcript of a Press Briefing by Caroline Atkinson,” 3/17/2011.
301.   ADB, “Asian Development Outlook 2011,” 4/6/2011, pp. 143–46.
302.   Treasury, response to SIGAR data call, 4/5/2011.
303.   USAID OIG, “Review of USAID/Afghanistan’s Bank Supervision Assistance Activities and the Kabul Bank Crisis” Report No. F-306-11-003-S,
       3/16/2011, p. 1.
304.   DoS and U.S. Embassy Kabul, response to SIGAR data call, 4/14/2011.
305.   USAID OIG, “Review of USAID/Afghanistan’s Bank Supervision Assistance Activities and the Kabul Bank Crisis” Report No. F-306-11-003-S,
       3/16/2011, p. 1.
306.   Treasury, response to SIGAR data call, 4/5/2011.
307.   Treasury, response to SIGAR data call, 4/5/2011.
308.   Treasury, response to SIGAR data call, 4/5/2011.
309.   CIMIC, “Afghanistan Weekly Review,” 2/24/2011, p. 1.
310.   Treasury, press release, “Treasury Designates New Ansari Money Exchange,” 2/18/2011.
311.   ADB, “Asian Development Outlook 2011,” 4/6/2011, pp. 143–46.
312.   Treasury, response to SIGAR data call, 4/5/2011.
313.   Treasury, response to SIGAR data call, 4/5/2011.
314.   Treasury, response to SIGAR data call, 4/5/2011.
315.   DoS, response to SIGAR data call, 4/8/2011; GIRoA/Embassy of Afghanistan, Washington, D.C., “Remarks to the Nation by His Excellency
       Hamid Karzai,” 3/22/2011.
316.   ISAF and U.S. Embassy Kabul, “Memorandum to the Minister of the Interior, Afghanistan,” 3/15/2011.
317.   DoS, response to SIGAR data call, 3/11/2011.
318.   ISAF and U.S. Embassy Kabul, “Memorandum to the Minister of the Interior, Afghanistan,” 3/15/2011.
319.   GIRoA, “The Bridging Strategy for Implementation of Presidential Decree 62,” 3/15/2011.
320.   DoS, response to SIGAR data call, 3/11/2011.
321.   ADB, press release, “ADB Provides $340 Million to Complete Afghan Ring Road,” 1/17/2011.
322.   CSIS, “Afghanistan Beyond the Fog of Nation Building: Giving Economic Strategy a Chance,” by S. Frederic Starr, 1/2011, p. 19.
323.   ADB, press release, “ADB Provides $340 Million to Complete Afghan Ring Road,” 1/17/2011.
324.   CIMIC, “Afghanistan Review,” 3/23/2011, p. 3; CIMIC, “Afghanistan Review,” 3/30/2011, p. 3.
325.   Treasury, response to SIGAR data call, 4/5/2011.
326.   Treasury, response to SIGAR data call, 4/5/2011.
327.   Aviation Safety Network, accessed online 4/9/2011; ISAF, Joint ISAF-Afghan National Army Air Corps press release, 5/20/2011.
328.   The National, “Suspended Afghan Airline Owes Kabul Bank $90 million,” 3/18/2011.
329.   Treasury, response to SIGAR data call, 4/5/2011.
330.   USAID, “Fact Sheet: American University of Afghanistan,” 6/2010.
331.   USAID, response to SIGAR data call, 4/16/2011; DoS, response to SIGAR data call, 3/31/2011.
332.   DoS, response to SIGAR data call, 3/31/2011.
333.   USAID, response to SIGAR data call, 4/16/2011; USAID, “Fact Sheet: American University of Afghanistan,” 6/2010.
334.   AUAF, “A Brief History,” accessed online 4/6/2011.
335.   DoS, response to SIGAR data call, 3/21/2011.
336.   DoS, response to SIGAR data call, 3/21/2011.
337.   FAO, Global Information and Early Warning System, “Country Brief, Afghanistan,” 2/11/2011.
338.   USAID, response to SIGAR data call, 3/31/2011.
339.   USAID, “AWATT Fact Sheet,” 12/2010; USAID, response to SIGAR data call, 3/31/2011.
340.   MoM and TFBSO, joint press release, “Afghanistan Enlists Experts from SRK Consulting, Mayer Brown and Heenan Blaikie to Establish
       Transparent Tender Process for Its Mineral Assets,” 3/6/2011.
341.   MoM and TFBSO, joint press release, “Afghanistan Enlists Experts from SRK Consulting, Mayer Brown and Heenan Blaikie to Establish
       Transparent Tender Process for Its Mineral Assets,” 3/6/2011.
342.   ADB, “Asian Development Outlook 2011,” 4/6/2011, pp. 143–46.
343.   DoS, response to SIGAR data call 4/18/2011.
344.   DoS and U.S. Embassy Kabul, response to SIGAR data call, 1/19/2010.
345.   USAID/Afghanistan, “Program Highlights, February 1–15, 2011.”
346.   ACCI, “APTTA Delay Damages the Economy of Afghanistan and Pakistan,” 2/15/2011.
347.   NATO/CIMIC, “Afghanistan Review,” 1/26/2011, pp. 1–2.




                                                   156                  SPECIAL INSPECTOR GENERAL      I   AFGHANISTAN RECONSTRUCTION
Cover Captions (clockwise from left):
U.S. Marine combat engineers use heavy equip-
ment to rebuild a bridge that was destroyed after
a local dispute over water rights. The new Trakh
Nawa bridge will facilitate transportation for local
Afghans and military units operating in the area.
(USMC photo, CPL Daniel H. Woodall)

An 11-year-old Afghan student reads a comic
book about the rule of law at Abu Herera School in
Paktika province on March 27, 2011. The school
has operated continuously since 2002, even
though the building has been vandalized and
teachers have been threatened. The Paktika PRT
has been mentoring school officials in sustaining
their education infrastructure. (USAF photo, SrA
Ashley N. Avecilla, Paktika PRT Public Affairs)

An Afghan farmer demonstrates a new two-
wheel tractor at a ceremony in Kabul on February
8, 2011. Fifty tractors were sold to farmers of
mid-sized Afghan farms at a subsidized cost to
help farmers plant and harvest multiple crops per
year. The U.S.-funded program was designed to
get 6,000 tractors into the hands of farmers in
18 provinces. (US Air National Guard photo,
SSgt Jordan Jones)

Afghan soldiers and police officers welcome
a new commander at Regional Command-West
in Herat on April 4, 2011. The Afghan National
Security Forces and the Italian-led command are
working as partners to secure and develop
western Afghanistan. (U.S. Army photo,
SSG Brandon Pomrenke)

                                                       More than 3,500 Afghans gather to celebrate the Persian New Year at the Shah Maqsud Shrine
                                                       in Kandahar province on March 21, 2011. The celebrations included a concert from Kandahar
                                                           musicians, a play by local actors, and public addresses by provincial leaders, including
                                                                    the governor of Kandahar. (U.S. Army photo, SGT Benjamin Watson)
                                                                                                         sigar
SIGAR
Special Inspector General                                                                                                       Special Inspector General for   apr 30




                                 SIGAR | Quarterly Report to the United States Congress | apr 30, 2011
for Afghanistan Reconstruction
                                                                                                                                Afghanistan Reconstruction       2011
400 Army Navy Drive
Arlington, VA 22202-4704




                                 2                                                                       Quarterly Report to the United States Congress
